<html>
<title> - THE JUSTICE DEPARTMENT'S HANDLING OF THE YAH LIN ``CHARLIE'' TRIE CASE</title>
<body><pre>[Senate Hearing 106-318]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-318
 
 THE JUSTICE DEPARTMENT'S HANDLING OF THE YAH LIN ``CHARLIE'' TRIE CASE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 1999

                               __________

      Printed for the use of the Committee on Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
60-285 CC                    WASHINGTON : 2000

_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
                   Frederick S. Ansell, Chief Counsel
            Christopher A. Ford, Chief Investigative Counsel
               Curt M. Silvers, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
               Laurie Rubenstein, Minority Chief Counsel
                    Debbie Lehrich, Minority Counsel
                 Darla D. Cassell, Administrative Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Thompson.............................................     1
    Senator Lieberman............................................     5
    Senator Collins..............................................     8
    Senator Specter..............................................     9
    Senator Domenici.............................................    10

                               WITNESSES
                     Wednesday, September 22, 1999

Ivian C. Smith, Former Special Agent in Charge, Little Rock Field 
  Office, Federal Bureau of Investigation........................    11
Daniel Wehr, Special Agent, Federal Bureau of Investigation......    14
Kevin Sheridan, Special Agent, Federal Bureau of Investigation...    15
Roberta Parker, Special Agent, Federal Bureau of Investigation...    15
Laura Ingersoll, Attorney, Criminal Division, U.S. Department of 
  Justice........................................................    63
Lee Radek, Chief, Public Integrity Section, Criminal Division, 
  U.S. Department of Justice.....................................    65

                     Alphabetical List of Witnesses

Ingersoll, Laura:
    Testimony....................................................    63
Parker, Roberta:
    Testimony....................................................    15
Radek, Lee:
    Testimony....................................................    65
Sheridan, Kevin:
    Testimony....................................................    15
Smith, Ivian C.:
    Testimony....................................................    11
Wehr, Daniel:
    Testimony....................................................    14

                                Appendix

Memorandum from Ivian Smith to Director Louis Freeh, dated Aug. 
  4, 1997........................................................   105
Task Force Draft of Affidavit In Support of Search Warrant for 
  Residences of Charlie Trie and Maria Mapila....................   110
Laura Ingersoll Notes of Discussion with DOJ Attorney Jonathan 
  Brian, August 4, 1997..........................................   134


 THE JUSTICE DEPARTMENT'S HANDLING OF THE YAH LIN ``CHARLIE'' TRIE CASE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 1999

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:17 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Fred 
Thompson, Chairman of the Committee, presiding.
    Present: Senators Thompson, Collins, Domenici, Specter, 
Lieberman, and Levin.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. The Committee will come to order, 
please. I think some of the other colleagues will be joining 
us, but I think we will go ahead and get started this morning.
    This Committee, the Governmental Affairs Committee, 
conducted an investigation in 1997 into illegal and improper 
activities with regard to the campaign financing of the 
elections in 1996. During that same period of time, the 
Department of Justice was conducting its own investigation. We, 
of course, looked at many things. We, unlike the Department of 
Justice, were not just concerned with allegations of criminal 
activity, but also allegations of improprieties. We were 
concerned about the flow of money into the campaigns, into the 
Democratic and Republican National Committees during that time, 
and we were especially concerned about the flow of foreign 
money into our campaigns or our committees during that period 
of time.
    In thinking back over that, as I have these last few days 
since some of the most recent information that we are going to 
be discussing today came to light, I am reminded of what I felt 
at the time was a lack of cooperation on the part of the 
Department of Justice.
    I remember the controversy concerning giving the immunity 
to the nuns with regard to the Hsi Lai Temple matter. Even 
though it now appears that they had a pretty clear policy of 
not prosecuting such people, we had to go around and around and 
around as our hearings were getting started about something as 
innocuous as getting the Buddhist nuns in here to talk about 
who facilitated that particular transaction, which, of course, 
was an illegal fund raising scheme.
    We were constantly told that the Department of Justice 
could not be of assistance to us because we were getting into 
matters that pertained to an ongoing criminal investigation, 
and those were the magic words that were used to shut us out 
time and time again. No congressional committee wants to 
interfere with an ongoing criminal investigation, and every 
congressional committee wants to think that statements such as 
that are being made in good faith, and we wanted to be 
cooperative. But we also wanted to be treated up front and 
fairly.
    But time and time again we saw things that indicated to us 
that there was not a very aggressive criminal investigation 
going on. I said it at the time. I said back in the middle of 
1997 that I had at that point already lost confidence in the 
Department of Justice's ability to carry on this investigation.
    We saw foot dragging. We saw witnesses leaving the country. 
Our own investigators had to rapidly gear up and find offices 
and get computers, but time and time again, we were ahead of 
the FBI and the campaign task force investigators in terms of 
interviewing people. We had a hard time figuring that out.
    My experience over the last 30 years with the FBI, both as 
an Assistant U.S. Attorney and as a defense counsel, was not 
consistent with that.
    We then, after our hearings were over and done with, were 
presented by the Attorney General with information concerning 
two different individuals who had close ties to the Chinese 
Government, which was relevant to our inquiry with regard to 
the flow of Chinese money. The Department told us that the FBI 
had had that information in their file, in some cases some 
information for years, and the FBI and the Department of 
Justice apparently weren't talking to each other about those 
things and had simply overlooked it. And, clearly, the 
Department of Justice had not tried very hard to find out what 
was in its own FBI files. And probably the same thing can be 
said with regard to the FBI itself.
    The Intelligence Committee, of course, has since come out 
with a report that says that the Department of Justice did not 
devote adequate resources to trying to get to the bottom of the 
flow of money from China into the campaigns that year.
    So the bungling got so bad that there was finally a shake-
up at the campaign task force and Mr. LaBella was brought in. 
Of course, he took a look at the entire mess and said we should 
have an independent counsel. Louis Freeh did the same thing. 
But throughout all of this, all of the missteps and all of the 
strange, inexplicable behavior from the standpoint of people 
who are supposed to be aggressive prosecutors, and all of the 
questions raised with regard to the prosecutors' independence 
and objectivity the Attorney General maintained that there 
would be no independent counsel, that there were no triggering 
events, and that she saw no political conflict of interest.
    She saw one with regard to Jim Guy Tucker. She saw one with 
regard to James McDougal. But when it came to Charlie Trie and 
John Huang and people like that, it was a different story. 
Certainly Mr. Trie had closer ties, apparently, to the 
President than Mr. Tucker, who, I read, was not even a 
particularly close political ally. But, anyway, she maintained 
that we would keep it in-house, keep it in Justice, we will 
have an aggressive prosecution, leave no stone unturned, and no 
questions would ever have to be asked about the aggressive 
prosecution that the Justice Department would conduct in this.
    And, of course, now we see the results, which basically is 
a handful of penny-ante prosecutions. The sum total of jail 
time to be served by all of these people is zero; they 
essentially all get probation with promises of cooperation. In 
one case, the statute of limitations was allowed to run out. 
With regard to Mr. Huang, as I recall, there is nothing even 
charged against him with regard to campaign finance violations 
in connection with the 1996 campaign.
    So, today, I think we will have a little additional insight 
as to why this pitiful story has played out the way that it 
has.
    Now, we have some FBI agents here on our first panel, and 
we subpoenaed these people. This is not going to be an easy 
session for them, but they are going to be under oath. They 
have been candid to us in their private interviews, and I know 
that they will tell the truth here today.
    Unfortunately, it seems that until people are willing to 
step forward and tell the truth, that is the only way you find 
out about things and the only way that you can ultimately work 
toward a system where we maintain our rule of law and maintain 
the respect that the people have for the rule of law in this 
country, and the respect they traditionally have had for the 
FBI and the Department of Justice.
    We are going to look at some of the problems that we had 
generally with regard to this campaign finance investigation, 
and we are going to look more specifically with regard to 
Charlie Trie and the investigation that this Committee and the 
FBI had with regard to him.
    As we recall, Mr. Trie was a long-time personal friend of 
the President from Arkansas, a restaurateur, had a trading 
company business that he set up, apparently totally financed by 
Ng Lap Seng of Macau--a man who has close ties to the Chinese 
Government, and is allegedly involved with triads. He is in the 
casino business in Macau, etc., and was in the White House ten 
different times. He apparently funneled $220,000 through Mr. 
Trie into the DNC.
    Mr. Trie also, as we recall, was the facilitator of the 
President's Legal Expense Trust money, $789,000 in sequentially 
numbered money orders that he dumped on the table 1 day. Of 
course, Mr. Trie fled the country--but he left behind his 
assistant, Maria Mapili.
    So this Committee subpoenaed Mr. Trie's business that was 
under the control of Ms. Mapili at that time. We asked for all 
documents relating to our campaign finance investigation. We 
also asked for documents relating to the President's Legal 
Expense Trust because of the allegations. All these allegations 
were in the newspaper by then with regard to all these matters 
that I have just discussed, including Mr. Trie's full 
background.
    The campaign task force also subpoenaed documents with 
regard to Mr. Trie's business. So he was gone. Ms. Mapili was 
here. We know now that Mr. Trie by telephone was instructing 
Ms. Mapili to destroy documents that we had subpoenaed, that 
the campaign task force or the grand jury had subpoenaed, that 
she did destroy documents, that she apparently destroyed 
documents off and on and discarded documents, threw them in the 
trash, tore them up, whatever, from June until October 1997. 
And the thing about it is that the FBI and the Department of 
Justice knew that she was destroying documents as early as June 
1997.
    We will hear the testimony today--but apparently the FBI 
tried to get a search warrant to prevent this--but between June 
and October, the Department of Justice maintained that there 
was not probable cause and did nothing to prevent this 
destruction of documents. Of course, when they finally went in 
there in October, they were checking the trash. They were doing 
trash covers, which does not require a search warrant because 
there are no Fourth Amendment implications if people discard 
things outside their home. So they were checking these trash 
covers and realized that the information they were getting was 
responsive to these subpoenas. And yet nothing was done to stop 
this destruction of evidence.
    So when finally in October--this was going on basically 
during the entire time of our hearings, because, really, the 
search warrant was turned down by the Justice Department almost 
contemporaneous with the first day of our hearings. And finally 
a search warrant was issued along about the time we were 
finished up, coincidentally.
    Of course, when they went in there, they found information 
that was sufficient to indict Mr. Trie with regard to 
obstruction.
    But specifically with regard to this Committee, information 
concerning the President's Legal Expense Trust, apparently the 
Department of Justice was told that Ms. Mapili was discarding, 
destroying, throwing away those documents under our subpoena. 
The Justice Department did nothing to stop that, and did 
nothing to inform us of what was going on.
    We will also hear of other problems that plagued the 
investigation in terms of the kinds of control that were 
exercised, what I think has to do with some cases of 
incompetence, certainly arrogance in some cases, and, most 
importantly, missed investigative opportunities.
    Now, to cap it off, apparently all of this greatly 
concerned these investigators who were out on the job, trying 
to follow leads, trying to get to the bottom of this very 
complex case in a reasonable period of time. Because of all the 
problems that they were running into, the decision was made to 
keep detailed notes about these things, about what was going on 
in case anybody might want to go back and retrace and look and 
see exactly what happened. And notes were kept, and those notes 
were turned over to the Department of Justice. And when they 
were returned to the note takers, 27 pages were missing--
covering that crucial period of time where the disputes were 
the greatest with regard to whether or not a search warrant 
ought to be issued for Mr. Trie's business and residence and 
Ms. Mapili's residence.
    So that is kind of mind-boggling, and I don't want to say 
more than the facts will justify because we have the people 
here today with the facts. But I assure you we intend to get to 
the bottom of it.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Chairman, our staff has done a significant amount of 
background investigation in anticipation of this hearing, 
including speaking to each of the witnesses that we're going to 
hear from today. In reviewing the memos my staff has given me 
on those interviews, I am struck by the differing accounts our 
various witnesses offered of the events we are going to be 
discussing today. So I am going to withhold judgment on any of 
this until after hearing from those witnesses ourselves.
    I do, though, have a few observations based on the 
information that I have and what I have read thus far.
    First, it is hard to come away from this story, even just 
reading the interview summaries, without a sense of dismay at 
what would at best be called a culture clash between the FBI 
agents investigating the case and the Department of Justice 
attorneys in charge of prosecuting it. As I said, it would at 
best be called a culture clash, at worst I think a very 
destructive lack of communication or cooperation.
    This is disturbingly reminiscent, Mr. Chairman, of what we 
found in our closed hearings on the Wen Ho Lee case, and 
particularly on the FBI and DOJ interaction during that 
investigation of the compromise of the W88 nuclear warhead, in 
which some similar discussions and disputes occurred between a 
different set of Department of Justice lawyers and FBI agents, 
strangely enough, and coincidentally enough, I am sure, 
beginning in the precise same week of July 1997.
    Mr. Chairman, you and I have both been privileged to be 
lawyers and been involved in the courts, and I think I would 
certainly say that there is an extent to which at every level 
of prosecution and investigation there is an inherent--I won't 
say conflict, maybe not even tension, but there are different 
roles here that the investigators and the prosecutors have. And 
yet I find myself, as I read the summaries, wanting to say to 
everybody involved here. ``Folks, we are on the same side. Why 
aren't we working together better to achieve the purpose, which 
is prosecution and enforcement of the laws which we have 
passed.''
    And, of course, when the case is as inherently political as 
this one is by the subject matter being investigated, it 
naturally raises questions about whether this is just a case of 
the lawyers being lawyers and investigators being 
investigators, or whether something more sinister is happening. 
I would say from my own conclusion and what I have read that I 
see no evidence to suggest that anything more sinister such as 
a political cover-up was occurring, notwithstanding how 
exasperated I, myself, have been as I read the documents about 
some of the decisions that were made by the Justice Department 
attorneys in this matter.
    Mr. Chairman, as you have indicated, the Attorney General 
herself in some sense has responded to exactly this culture 
clash problem on September 16, 1997, when she, as a report from 
the World News Digest I have in front of me says, reshuffled 
the probe team and removed Laura Ingersoll from the leadership 
of this task force and brought in Charles LaBella. The news 
report that I have said that Justice Department officials said 
that Reno was concerned over the slow pace of the investigation 
and friction between Department prosecutors and FBI agents on 
the team also part of the shuffle because of, ``embarrassing 
blunders,'' notably, when the Attorney General was surprised by 
news reports in early September that soft money raised by the 
Vice President had been diverted improperly to the Clinton-Gore 
campaign.
    So that there was a response generally to the problem I 
have described, but I must say that I don't have any confidence 
that this kind of problem is not continuing to go on, and I do 
think that it calls out for the direct involvement of the 
Attorney General and the Director of the FBI. I don't know how 
you begin to undercut or diminish a culture clash or a lack of 
communication and cooperation. But if these two cases, the Trie 
case and the Wen Ho Lee case, are examples of more that is 
going on between Main Justice and FBI, my own sense--and I am 
judging this more from my own experience in Connecticut--is 
that in the field the cooperation, because it is more daily, 
tends to be better.
    But if these interactions we have seen in these two cases 
are typical of even a small portion of the interaction, then it 
really cries out for involvement by the heads of these two 
agencies and, I must say, perhaps the involvement of the 
President of the United States who appointed both of these 
people, who was the head of the government, to call these two 
in and say we have got to figure out a way to undercut this 
clash and improve this communication and cooperation, because 
it is impeding the successful investigation and prosecution of 
serious crimes.
    The second point that I would like to make here at the 
outset is that in going over the papers in preparation for the 
hearing this morning, I was once again struck by something we 
first learned during our Committee's 1997 investigation of the 
1996 campaigns, and that is how murky and inadequate much of 
our campaign finance laws are when it comes to criminal 
penalties and how difficult we have made it for those trying to 
enforce those laws and use criminal sanctions to deter and 
punish those who would violate campaign finance laws.
    It seems to me--and we will hear more as the hearing 
progresses--that at least some of the Justice Department 
decisions that the agents interpreted as a lack of 
aggressiveness, although not all of them, were, in fact, 
dictated by some of the realities of our campaign finance laws, 
which don't prohibit actions, surprisingly, that we would all 
like to think are or at least should be illegal. Let me just 
mention a few of those.
    One is the fact that the Federal Election Campaign Act, 
FECA, fails to authorize felony prosecutions for violation of 
the act, no matter how egregious the nature of the offender's 
actions. And this, of course, has led both the FBI and the 
prosecutors to ultimately try to find other felony charges such 
as false statements to the government or conspiring to defraud 
the government to bring these violators up on. But the absence 
of that felony count in FECA often has put prosecutors, 
notwithstanding and pushing aside a moment the disagreements 
here about judgments on search warrants and the like, but to 
either turn to other non-FECA laws or, for a reason I am about 
to explain, to plea bargain and to result in no time in jail 
being given to the violators.
    So I am going to mention a series of things here, and it is 
my intention to submit an amendment to the McCain-Feingold bill 
when it comes up to deal with these inadequacies in the 
criminal law of campaign finance law.
    The second is that the Sentencing Guidelines, which 
determine so much that occurs in criminal matters, are 
inadequate to this particular area of criminal violations. It 
is very hard under the existing guidelines to incarcerate a 
first-time offender. Inevitably, I think the prosecutors end up 
in a weak position to plea bargain, and in the end are forced 
to compromise out at a relatively low level of punishment and, 
therefore, a low level of deterrence.
    One of the things I hope we will do is to ask the 
Sentencing Commission to promulgate a specific guideline on 
campaign finance violations that will make it easier to do what 
I believe Congress intended and justice requires, which is to 
put some of these egregious violators into jail.
    We also ought to extend the statute of limitations for 
criminal violations of FECA from 3 to 5 years. The 3 years 
makes it very difficult in some cases to pursue these cases 
adequately.
    Then there are two provisions I intend to offer that are 
not implicated specifically today--but we have talked about 
that--are really mind-boggling to me. Prior to the 1996 
elections, no one doubted that the campaign finance laws 
prohibited foreign nationals who are not lawful permanent 
residents of the United States from giving any type of money, 
hard or soft, to political parties. But there is a decision 
actually from the judge presiding, as the people in front of me 
know, over the Trie case, which took issue with that view, 
holding that the campaign finance law prohibits foreign 
nationals from donating hard money but not soft money. That is 
outrageous.
    As is, the other possible interpretation here that the 
current state of the law does not actually prohibit a conduit 
soft money contribution, that is, a person giving a very large 
amount of money in soft money to a third party to make that 
contribution in his name, which, if hard money, is clearly 
illegal, and people have been prosecuted for those.
    So I hope that when we come to McCain-Feingold, as I gather 
we will soon, we will close some of those loopholes in the 
criminal aspect of the campaign finance laws so that we will 
show that we are prepared to put some teeth behind our rhetoric 
about some of the violations that have occurred.
    Notwithstanding all of that, I remain extremely troubled by 
this case and what I have read about it, and I look forward to 
the testimony this morning in the hope that--in some sense, Mr. 
Chairman, this is an awkward hearing to get into the inner 
workings of the investigative and prosecutorial branches of our 
government. But this is an oversight committee, and I think if 
we do it right, we can tell a story here, hopefully, that will 
prevent this kind of disagreement and lack of communication and 
cooperation from occurring in the future. Thank you.
    Chairman Thompson. Thank you very much.
    Senator Collins, did you have a comment?
    Senator Collins. I do. I noticed Senator Specter was here 
before I was, so if he would like to go first, then I would 
give my statement.
    Chairman Thompson. Yes.
    Senator Specter. I would be glad to defer to you, Susan.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Thank you very much, Mr. 
Chairman.
    For many of us, the scandals that forever tarnish the 1996 
campaign season are still fresh in our minds. Those of us who 
serve on this Committee vividly recall the 32 days of 
hearings--so ably chaired by our Chairman, the Senator from 
Tennessee--the 72 hearing witnesses, the 427 subpoenas, and 
hundreds of depositions. And most of all, we recall the 
frustration that we felt as the White House dribbled out 
essential documents only after key witnesses had already 
testified before this Committee.
    In addition to the House and Senate investigations, another 
ran on a parallel track conducted by the Department of Justice 
and the Federal Bureau of Investigation through a task force 
known mostly by its acronym, CAMPCON. Yet although we knew that 
CAMPCON existed, and still exists, its operations were always 
cloaked in mystery. We never knew who the task force was 
investigating or what it was doing. And although many of us 
believed that the investigation should have been conducted by 
an independent counsel, Attorney General Reno repeatedly 
rejected that approach. Instead, she assured this Committee 
that the internal task force had all the resources it could 
possibly need, that CAMPCON could do the job, and that the 
Justice Department would cooperate fully with the Senate 
committee's investigation--assurances that now ring hollow.
    Today's hearing is important because it gives us a glimpse 
into the workings of the campaign finance task force some 3 
years after it was first created, and it raises important 
doubts about the Department of Justice's commitment to assist 
this Committee in its investigation. We will hear from the FBI 
agents and some of the attorneys who worked directly on the 
investigation of allegations surrounding Charlie Trie, a key 
figure in this campaign finance scandal. And we will learn how 
the FBI investigators and Justice Department attorneys worked 
together or failed to work together on this particular case.
    Bear in mind, too, that this is no ordinary case. Charlie 
Trie was prosecuted for, among other things, obstructing this 
Committee's investigation of wrongdoing. According to testimony 
at his trial, Mr. Trie told an employee to destroy documents 
days after she was served with this Committee's subpoena. So 
today's hearing is not only about CAMPCON's investigation of 
Mr. Trie; it is also about whether the Justice Department 
failed to use the information and tools at its disposal to come 
to the aid of this Committee and to protect and ensure the 
integrity of our investigation against this threat of 
obstruction.
    Mr. Chairman, I very much appreciate your holding this 
important oversight hearing. I look forward to hearing the 
testimony of the FBI witnesses who are here today. I appreciate 
their assistance to the Committee, and I look forward to 
questioning the Department of Justice representatives as well. 
Thank you.
    Chairman Thompson. Thank you very much.
    Senator Specter, did you have a comment.

              OPENING STATEMENT OF SENATOR SPECTER

    Senator Specter. Thank you, Mr. Chairman. Just a few words.
    I commend you for convening this hearing and the efforts of 
this Committee to get to the bottom of the Charlie Trie plea 
bargain. This is one of many instances which require very 
intensive oversight.
    The Judiciary Committee had a brief briefing on a number of 
plea bargains, Huang and Chung, and listening to them last 
week, I was astounded.
    John Huang received probation where there was not 
consideration given to the fact that he was not only a conduit 
for illegal Chinese contributions, but also John Huang had 
access to confidential information in the Commerce Department. 
He went across the street. He faxed a lot of materials to the 
Lippos and the Riadys, and that wasn't taken into consideration 
on sentencing.
    I asked why not. Well, he wasn't convicted. Well, you don't 
have to have a conviction for a judge to take matters into 
account at sentencing. There is a broad range of considerations 
which the judge may take into account.
    Johnny Chung got probation as well. Why? Because there were 
only misdemeanors on campaign finance reform matters. But 
Johnny Chung also had a conviction for bank fraud, which was a 
felony, if you want to make a distinction between felonies and 
misdemeanors.
    When I was district attorney of Philadelphia, I looked much 
more to the substance of what was done than to the common law 
or statutory classification of misdemeanor or felony as to what 
had happened. The sentencing judge did not have before him the 
import of Johnny Chung's receipt of $300,000 from a ranking 
Chinese military official. And I only scratched the surface in 
those few comments.
    This afternoon in room S-407 there will be another secret 
briefing of the Senate on Wen Ho Lee. The Attorney General 
testified on that subject on June 8 in what, in my opinion--and 
I said so at the time--should have been a public hearing. And 
for the past 3\1/2\ months, we have been struggling to try to 
release her testimony, and it comes back from the Department of 
Justice so badly redacted you can't tell anything except name, 
rank, and serial number of the Attorney General. And so the 
chase goes on.
    When the Attorney General moved in September 1997 to bring 
in Charles LaBella, whom she summarily dismissed and who was 
passed over for the U.S. attorney position for San Diego in a 
matter of recrimination, she did so because the CIA came 
forward and told this Committee what was in the FBI files that 
the FBI hadn't told us about. And I believe that Director Freeh 
didn't know about it because I am confident in his integrity.
    But there is a culture here of not making disclosures which 
are embarrassing, and I think that is a culture which goes 
beyond the FBI and beyond the CIA to many agencies. And that 
has to be thwarted. That has to be dug out.
    When we had the Aldrich Ames case, the Inspector General of 
CIA said the three CIA directors should be held personally 
responsible for Ames, even though they did not know about Ames 
or had reason to know about Ames--Gates and Webster and their 
successor. And they came forward complaining bitterly, and I am 
not sure that you can go that far, but maybe you should. When 
you are dealing with matters of this importance, the head man 
has to be responsible or the head woman has to be responsible 
to ferret it out. And if you don't put enough pressure on it--
and for the Attorney General to come in and say that everything 
was rosy at Waco without really digging in, knowing the 
background and the culture of the FBI and the culture of all 
Federal investigators at ATF after the experience at Ruby Ridge 
as well, is just preposterous.
    When I think about our failure to have adequate oversight 
on the Department of Justice, I really just broil.
    Mr. Chairman, we have got a lot of work to do. My opening 
statement is already too long considering that we really want 
to hear from these agents. Just let me make one final comment.
    The schedules around here are impossible, especially in 
September. The conference Committee on agriculture 
appropriations was meeting late last night. We didn't do a 
thing, so much haggling and arguing, and we have resumed that 
again at 10:30 this morning. But my amendment on dairy was not 
first up, so I wanted to come here for as long as I could stay.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Senator Domenici, did you have a comment.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Well, I do, Mr. Chairman. It will be very 
brief.
    I sat here for most of the hearings that you conducted in 
reference to the 1996 Federal election, and I believe before we 
are finished everything you said at those hearings and 
everything you tried to do would turn out to be correct. The 
kinds of things that we should have been able to accomplish 
were much more in terms of finding out who did things wrong, 
terribly wrong, in that election.
    Frankly, my good friend Senator Lieberman talked here about 
how difficult this kind of hearing is. And it is difficult 
because DOJ and the FBI are part of another branch of 
government doing their job. But I tell you, the best thing I 
can say about this is that it reeks of impropriety. This whole 
episode, once the Department of Justice decided to investigate 
Charlie Trie themselves, it reeks of impropriety.
    Frankly, I believe DOJ has done some things that we ought 
to be able to find out. If they don't have anything to hide 
about the politicization of the Charlie Trie investigation, 
then why aren't they forthcoming? If you want to have closed 
hearings, if you want to have secret hearings, we will do it. 
They didn't want to do that. They don't want to do it. DOJ 
wants to keep this investigation and others to themselves and 
let the whole country think they did a great job going after 
those who violated the election laws of this land in 1996. They 
want everybody to think they did, and they want every once in 
awhile to give one of the culprits a little bit of a slap on 
the wrist, like they did to Charlie Trie. Frankly, I am here to 
support you. I don't know where we can go next. It has been the 
most difficult job for you of any job that you could have ever 
had as you arrived on the scene here in the U.S. Senate. And 
thank God it is getting a little bit easier because you are 
making a little headway. I hope you make big headway, Mr. 
Chairman.
    Thank you.
    Chairman Thompson. Well, I think we are making some 
headway. I was encouraged by some of the more recent efforts to 
be forthcoming yesterday by the Department of Justice in doing 
basically what they should have been doing all along in terms 
of cooperating with us and furnishing witnesses and things of 
that nature. But then I remembered the last time that a 
congressional committee--the House Government Reform 
Committee--subpoenaed documents with regard to this matter we 
are hearing today. In response to that subpoena, the Department 
sent over a bunch of documents, but as many as 27 pages with 
regard to the conflicts that they were having over there and 
some of the Justice Department's behavior turned out to be 
missing.
    So, I don't know what to think about that. I appreciate the 
movement on the one hand, but what in the world do you think 
about that vital omission? Because if the pages were missing, 
then you don't know the questions to ask. Fortunately, we had 
some guys around here from the old days who had enough 
suspicion to start asking questions and bringing people in and 
find out the fact that, indeed, there was more that should have 
been submitted to the congressional committee than, in fact, 
was submitted. So maybe at the end of the day we will know more 
about that.
    Our first panel consists of three current and one retired 
agents of the Federal Bureau of Investigation. Ivian C. Smith 
is a retired Special Agent in Charge from the Bureau's Little 
Rock office. Roberta Parker, Kevin Sheridan, and Daniel Wehr 
are current FBI agents who worked on the Justice Department's 
campaign task force. The three current agents appear under 
subpoena.
    Well, we should swear them in before we do that. Would you 
stand and raise your right hand, please, each of you. We will 
go ahead and do it all at once.
    Do you solemnly swear the testimony you are about to give 
is the truth, the whole truth and nothing but the truth, so 
help you, God?
    Ms. Parker. I do.
    Mr. Sheridan. I do.
    Mr. Wehr. I do.
    Mr. Smith. I do.
    Chairman Thompson. All right. Be seated, please.
    Do any of you have opening statements that you care to 
make, Mr. Smith?

 TESTIMONY OF IVIAN C. SMITH, FORMER SPECIAL AGENT IN CHARGE, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Smith. Thank you, Mr. Chairman and Members of the 
Committee.
    One of your staff members contacted me after I moved to 
Virginia in July of this year. I told them I would try to be 
cooperative, but I, of course, did not have records that would 
be available for me to review to refresh my recollection of 
events that occurred almost 2 years past.
    But I felt uncomfortable with contacting my former 
colleagues and, in fact, have not seen them, until this 
morning, in quite some time. However, I did receive a heavily 
redacted copy of my memorandum of August 4, 1997, that seems to 
be the focal point of your interest in me, this past afternoon. 
The mails do not move very quickly in Laneview, Virginia, but 
we like it that way.
    And I should point out that I was a special agent in charge 
of the FBI in Arkansas for the period of July 31, 1995, to July 
31, 1998. And shortly after I arrived there to assume those 
duties, I caused a crime survey to be conducted and concluded 
that public corruption should be the number one priority for 
the FBI in that State. A subsequent crime survey supported that 
conclusion, and it became the highest priority within the 
Division and due to its priority something that I took a 
personal interest in--all public corruption investigations to 
include the one entitled ``CAMPCON.''
    And from the beginning there seemed to be problems of 
aggressiveness and timeliness of investigative avenues. 
Basically, the energetic special agents who were assigned to 
investigate the matter, and this does not necessarily include 
those at FBI Headquarters, were intent on conducting a thorough 
and objective investigation with expediency and let the chips 
fall where they may. This is the manner that public corruption 
matters must be conducted. But investigative decisionmaking was 
slow, if at all, and did not lend itself to resolving this 
matter either quickly or thoroughly. Now, I periodically 
discussed my concerns with Deputy Assistant Director Neil 
Gallagher at FBI Headquarters, as well his designated agent to 
head the task force, Jeff Lampinski.
    Finally, for the only time in 3 years as special agent in 
charge, I called Louie Freeh, the director of the FBI. And I 
called him on the afternoon of July 31, 1997, after talking 
with these special agents here today. Director Freeh and I 
talked the next day, and after listening to my concerns, he 
asked that I put the information on a memorandum and direct it 
to his personal attention.
    Now, basically, the concerns expressed in the memo are 
self-evident, but I will briefly detail them today, and I 
should note that the stated concerns were not necessarily 
inclusive. For example, while we were attempting to obtain a 
subpoena, Eric Yaffe, an attorney for the Department of 
Justice, asked for probable cause, an element even a rookie 
attorney knows is not required for this nonintrusive technique.
    Further, we were not allowed to monitor Maria Mapili's 
reaction to being served with a subpoena. It should have been a 
search warrant anyway. This led to a Fayetteville, Arkansas 
attorney, W.H. Taylor, making the almost 4-hour drive to 
represent Ms. Mapili without determining how Ms. Mapili, with 
literally hundreds of attorneys in the Little Rock area--that 
is an attorney-rich environment--just happened to choose an 
attorney whose primary duties involved personally representing 
Don Tyson of Tyson's Foods. This was the same W.H. Taylor who 
took possession of several boxes of documents from Ms. Mapili, 
and though we had legally every reason to stop the vehicle, a 
decision that had been researched by both Special Agent Wehr, 
who was a practicing attorney before he came into the FBI and 
the Little Rock chief divisional counsel, the Department 
refused to authorize a legally legitimate activity.
    This, of course, led, eventually, to the decision to allow 
a search of Ms. Mapili's residence--a course of action, as I 
noted, that should have already been taken. But on the eve of 
conducting the search, approval was withdrawn. And I should 
point out this eleventh-hour disapproval was not----
    Chairman Thompson. The approval was withdrawn, did you say?
    Mr. Smith. Was withdrawn. And this eleventh-hour 
disapproval was not based, I was told, on a lack of a probable 
cause, but due to Ms. Mapili being represented by counsel. 
Meanwhile, a departmental attorney, William Corcoran, had 
traveled to Little Rock himself, and he had been told that 
Taylor was returning the next morning to Fayettville with the 
documents from Ms. Mapili's residence.
    Mr. Corcoran made arrangements to meet Taylor before Taylor 
left Little Rock, but the meeting did not occur. Mr. Corcoran 
was still asleep in his hotel room when Mr. Taylor left with 
the documents and returned to Fayettville. Before departing for 
Little Rock, however, Mr. Corcoran had handled the grand jury 
appearance of what we believed was an important witness.
    Chairman Thompson. And Mr. Corcoran was on the Campaign 
Task Force as an attorney; is that Mr. Corcoran?
    Mr. Smith. Yes, he had some role to play, Senator.
    Chairman Thompson. All right.
    Mr. Smith. This was a witness that had personal knowledge 
of some of the principals of the investigation and one that I, 
personally, had traveled to meet at a location considerably out 
of Little Rock and convinced that he was important to the 
investigation and that he should cooperate. He had agreed to do 
so. Now, due to both personal and financial losses, he was 
emotionally fragile, but had an excellent recollection of 
important information, and he recognized what was relevant.
    This information was relayed to Washington. But when this 
witness returned, he was devastated, not only from the manner 
he was treated, but more important, how he was handled in the 
grand jury. Essentially, he stated, they--meaning the 
departmental attorneys handling this grand jury appearance, and 
that included Mr. Corcoran--did not really want to hear 
anything he had to say. I later determined it was apparent to 
one of the agents that Mr. Corcoran had not even read the 
document detailing the information this witness had to offer 
before sending him in to the grand jury.
    As we continued the investigation, a trash cover of Ms. 
Mapili's residence revealed documents; in this case, checks 
with Asian-sounding names all in the amount of $1,000 payable 
to the ``Presidential Legal Expenses Trust,'' were being 
destroyed.
    I was told a departmental attorney, Laura Ingersoll, stated 
this matter would not be pursued and, further, she was of no 
obligation to advise the Senate Ms. Mapili was routinely 
destroying documents covered by a Senate subpoena. This is the 
same Attorney Ingersoll who advised Special Agent Parker that 
she needed probable cause to convict to obtain a search warrant 
for Ms. Mapili's residence, a legal standard not required to 
conduct a search.
    It became apparent that the Senate's own investigators were 
ahead of the FBI, while conducting parallel investigations, 
principally due to a lack of timely decisionmaking by the 
Department. Now, I should point out that I find it incredulous 
that the experienced FBI investigators had to obtain permission 
to conduct even the most routine interviews from what were 
apparently inexperienced attorneys at the Department.
    If I may editorialize briefly, this is a trend that I find 
increasingly occurring in these types of investigations, as 
well as for FBI personnel assigned to various Independent 
Counsel investigations. It is an unhealthy trend. It violates 
the traditional distinction between the roles of the 
investigator and the prosecutor.
    I also should note that I have been contacted by two other 
entities regarding my memorandum. I was contacted by a member 
of the staff of Congressman Burton's Committee in the House of 
Representatives. I was also contacted by representatives of the 
Department of Justice shortly before I left Little Rock. As I 
recall, on that occasion, there were five or six people in 
Washington on a speaker phone for the interview. They had me 
outnumbered.
    Finally, I should point out that the three agents here 
today are representative of the hardworking and dedicated men 
and women of the FBI. In this investigation, they deserved 
better support than they received.
    Now, while I cannot speak with certainty about Agents Wehr 
and Sheridan, I have been advised that when the kudos and 
awards were being passed out for the Charlie Trie successes, 
Special Agent Parker's contributions were ignored. Perhaps I 
should ask that a representative of the FBI, who is monitoring 
these hearings, bring this to the attention of the director, 
with my compliments.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much, Mr. Smith.
    Let me go down the line here and tell us a little bit about 
yourself. How long were you with the FBI?
    Mr. Smith. A little over 25 years, sir.
    Chairman Thompson. And was your last assignment at SAC in 
Little Rock?
    Mr. Smith. Yes, it was.
    Chairman Thompson. Did you have basic overall supervision 
of the agents working there in Little Rock?
    Mr. Smith. Yes, sir.

  DANIEL WEHR, SPECIAL AGENT, FEDERAL BUREAU OF INVESTIGATIONS

    Chairman Thompson. All right. Now, in Little Rock, as far 
as the Trie matter is concerned, Mr. Wehr, I think you were on 
the so-called Trie team, I guess, would be a way to put it.
    Mr. Wehr. Yes, sir.
    Chairman Thompson. How long have you been with the FBI?
    Mr. Wehr. I have been with the FBI a little--well, I am 
going on 17 years.
    Chairman Thompson. Seventeen years. Are you also an 
attorney?
    Mr. Wehr. Yes, sir.
    Chairman Thompson. Were you a practicing attorney before 
you became a member of the FBI?
    Mr. Wehr. Yes.
    Chairman Thompson. So what were your duties with regard to 
the campaign finance investigation?
    Mr. Wehr. I was the case agent for the Arkansas aspect of 
the investigation.
    Chairman Thompson. All right. And who worked with you in 
that regard?
    Mr. Wehr. We had a team of support personnel that worked 
with me and one other agent, Ricky Blair.
    Chairman Thompson. All right. Mr. Sheridan, what was your 
role with regard to the campaign finance investigation?

KEVIN SHERIDAN, SPECIAL AGENT, FEDERAL BUREAU OF INVESTIGATIONS

    Mr. Sheridan. I was assigned in Washington, DC, to 
investigate Charlie Trie and other allegations relating to the 
CAMPCON Task Force.
    Chairman Thompson. All right. And how long have you been 
with the FBI?
    Mr. Sheridan. I have been with the FBI for a little over 4 
years.
    Chairman Thompson. Four years.

ROBERTA PARKER, SPECIAL AGENT, FEDERAL BUREAU OF INVESTIGATIONS

    Ms. Parker, how long have you been with the Bureau?
    Ms. Parker. I have been with the Bureau 17 years.
    Chairman Thompson. Seventeen years. You are also an 
attorney, I believe?
    Ms. Parker. Yes, I am.
    Chairman Thompson. And what was your role with regard to 
the campaign finance investigation?
    Ms. Parker. I was the primary case agent on Charlie Trie 
from the inception of the investigation in January through the 
indictment and arrest of Charlie Trie.
    Chairman Thompson. All right. And I believe you were 
primarily involved in the drafting of the affidavit for the 
search warrant that we will be talking about later, about early 
July 1997?
    Ms. Parker. Correct. I drafted that.
    Chairman Thompson. All right. Let me do this: I want to 
basically kind of walk through the chronology a little bit, and 
then come back and talk in a little bit more detail about it. 
But I want the events kind of leading up to your memo, Mr. 
Smith. You wrote this memo, as you said, which have many of the 
statements that you had in your opening statement here today. 
You wrote that memo on August 4, 1997.
    But going back, and any of you can pitch in at any relevant 
time that you want to and either elaborate or straighten me out 
on something. But this Committee, the Governmental Affairs 
Committee, issued a subpoena with regard to Mr. Trie's company 
on March 7. On June 24, I believe, was your first trash cover; 
is that correct?
    Ms. Parker. That is correct.
    Chairman Thompson. And basically what is a trash cover, Ms. 
Parker?
    Ms. Parker. In essence, a trash cover is an investigative 
technique that we use to pick up somebody's trash and to 
determine what they are throwing out in the trash, to see 
whether it is evidentiary to our investigation.
    Chairman Thompson. All right. Without getting into any 
grand jury material, what caused you, generally, to decide to 
do that with regard to Mr. Trie?
    Ms. Parker. Quite frankly, it is a technique that I utilize 
with all of my investigations. I have been amazed at what 
subjects throw out in their trash.
    Chairman Thompson. All right. And, of course, there had 
been a lot of published allegations, suggestions, with regard 
to Mr. Trie at that time. You were aware of all of that, I am 
sure, by June 24, 1997; is that correct?
    Ms. Parker. That is correct. And I was also aware of your 
investigation.
    Chairman Thompson. Of this Committee's investigation.
    Ms. Parker. Correct.
    Chairman Thompson. Now, these trash covers had to do with 
both Mr. Trie's residence and Maria Mapili's residence; is that 
correct?
    Ms. Parker. That is correct. On different dates, trash 
covers were done by the Little Rock agents at different 
locations. The earliest two were actually done on Mr. Trie's 
house, and the last four were done on Ms. Mapili's house, with 
the last trash cover also done on Mr. Trie's house.
    Chairman Thompson. And this was in Little Rock.
    Ms. Parker. That is correct.
    Chairman Thompson. All right. Did you obtain anything of 
relevance and useful on that first trash cover on June 24, 
1997?
    Ms. Parker. Yes, we did.
    Chairman Thompson. In fact, you wanted a search warrant at 
that time, did you not?
    Ms. Parker. That, plus the subsequent trash cover, which 
was on July 1.
    Chairman Thompson. All right. Then, I believe that the 
Campaign Task Force, on June 27, subpoenaed Mr. Trie's company 
and records--which was Campaign Finance Task Force-relevant 
information. That was on June 27.
    Then, on June 29, I understand you observed Maria Mapili 
and two other people removing documents from Mr. Trie's 
residence and moving them to Ms. Mapili's residence; is that 
correct?
    Ms. Parker. That was pursuant to the surveillance that was 
on Mr. Trie and Ms. Mapili's residence that Little Rock 
conducted.
    Chairman Thompson. All right. Then, on July 1, you had your 
second trash cover.
    Ms. Parker. That is correct.
    Chairman Thompson. Is that correct?
    Ms. Parker. Yes.
    Chairman Thompson. Well, bring us up-to-date then, as to 
where we were at that point. Again, we do not need to get into 
too much detail. We will come back to it. But at that point, 
suffice it to say, you apparently felt that you had what you 
needed--they were destroying records that you felt were 
responsive to what or relevant to what?
    Ms. Parker. One, relevant to our overall investigation; 
two, that would be records that would be turned over pursuant 
to the Federal grand jury subpoena that had already been served 
upon her; and then, three, there was also a concern that she 
possibly might be obstructing the Senate subpoena for this 
Committee.
    Chairman Thompson. All right. What happened with regard to 
that? Well, first of all, let me ask you this: How many of you 
were aware of the kinds of things that were coming out of these 
trash covers?
    Ms. Parker. All three of us. All of us were.
    Chairman Thompson. All of you?
    Mr. Wehr, we have not heard from you yet. How would you 
describe the nature of the information that you were getting 
from these trash covers?
    Mr. Wehr. File folders containing records regarding--well, 
they were torn up, but----
    Chairman Thompson. You mean, torn up in lots or little 
pieces or what?
    Mr. Wehr. Little pieces, sometimes sprinkled in separate 
trash bags. They would have pieces from the same documents 
mixed with fish heads and garbage. It was not a pleasant----
    Chairman Thompson. In other words, torn up in little pieces 
and then distributed into separate containers, in some cases.
    Mr. Wehr. Right.
    Chairman Thompson. All right. And what did you do? Were you 
able to piece some of it back together or----
    Mr. Wehr. Well, the first step was to dry it out. The 
garbage was damp. And then after we did that, we pieced it 
together. And then the results of that were faxed to 
Washington.
    Chairman Thompson. What kind of information was being 
discarded there in the trash bins?
    Mr. Wehr. Information about Daihatsu International, the 
trading company that Charlie owned.
    Chairman Thompson. And they were actually the entity that 
was subpoenaed in these subpoenas.
    Mr. Wehr. Yes.
    Ms. Parker. And in addition to that, there was actually a 
financial statement from Mr. Ng Lap Seng's company; there were 
travel arrangements for Mr. Ng Lap Seng; there was a fax cover 
sheet, where something was faxed to Antonio Pan, Charlie Trie's 
assistant; there were some DNC faxes that had been faxed by the 
DNC to Mr. Trie's office/residence. So there were a number of 
documents that were discovered in those two trash covers.
    Mr. Wehr. And also the----
    Ms. Parker. Excuse me. I was going to say that was 
responsive both to our Federal grand jury subpoena and also to 
the Senate committee subpoena.
    Chairman Thompson. Mr. Wehr.
    Mr. Wehr. I do not know if it was this time or a little bit 
later, but we also picked up, as Mr. Smith indicated, those 
checks that were torn up, copies of checks.
    Chairman Thompson. All right.
    Mr. Smith, do you recall anything in addition?
    Mr. Smith. No. What I would do is, when they would come in, 
I would wander back through their area there, and I watched 
them as they went through this. But I was actually quite 
astounded at the type of documents that were being destroyed, 
particularly given the fact that these had been subpoenaed. 
There seemed to be just either great naiveness or just blatant 
arrogance for the fact that these things were being subpoenaed, 
and they were being destroyed.
    Chairman Thompson. Is there anything, Mr. Sheridan, to add 
that you recall?
    Mr. Sheridan. The only additional documents seem to be 
correspondence either from the White House or the DNC to Mr. 
Trie. There were also some invitations to different functions 
that Mr. Trie was invited to that were also pursuant.
    Chairman Thompson. All right. Now, we have interviewed, of 
course, people in the Justice Department, and we will hear from 
some of them today. And I think one of the things they are 
going to say is that, well, these documents may have been 
relevant, but they were not that important, and they were being 
responsive to our subpoena over here.
    Is there any doubt in your mind, any of you, whether or not 
these were documents that were responsive to the grand jury 
subpoena and to this Committee's subpoena? Is there any doubt 
in anybody's mind about that?
    Ms. Parker. They were clearly responsive to the Federal 
grand jury subpoena. Quite frankly, I think, at that time, we 
did not have a copy of your subpoena. So that we really could 
not match up the items. We naturally presumed that they would 
have been responsive to your subpoena.
    Chairman Thompson. Did you know, at that time, the fact 
that we did have a subpoena outstanding on Mr. Trie or Daihatsu 
Company?
    Ms. Parker. I was aware of that.
    Chairman Thompson. Yes. But you did not know the details of 
what we were asking for.
    Ms. Parker. Correct.
    Chairman Thompson. Ms. Parker, would you and Mr. Wehr speak 
a little bit more closely into the microphone.
    Well, let me ask you about this: What about relevance? Were 
these relevant, important documents in your estimation or 
potentially relevant or important documents?
    Mr. Smith, you say you were surprised at the nature of the 
things that they were discarding. Do you disagree with the 
argument that, well, these were just things that would not be 
needed or useful to anyone, I mean, as if people could take the 
position that if it is responsive to a subpoena, they could 
throw it away and make the determination themselves as to 
whether or not you really need it. I mean, that is an absurd 
argument on its face.
    But with regard to its relevance and importance, you 
obviously had a feeling that it fulfilled both of those 
categories; am I reading you correctly?
    Mr. Smith. Without question. Frequently, a trash cover can 
be very unproductive.
    Chairman Thompson. Have you seen a few trash covers in your 
day?
    Mr. Smith. I have seen a few trash covers, both on the 
criminal side, as well as the counterintelligence area. And I 
was, this one here, I was just somewhat taken aback at how 
fertile this technique was for us.
    Chairman Thompson. So at this time, then, you had had the 
two trash covers. Up until this time, had you had any 
discussion with the people in the Department of Justice who 
were handling the Campaign Task Force with regard to what was 
turning up in these trash covers?
    Ms. Parker.
    Ms. Parker. Yes.
    Chairman Thompson. What were the nature of those 
discussions up until that time?
    Ms. Parker. I recall having several conversations with 
Jonathan Biran and also Bill Corcoran, who were the two 
attorneys assigned to the Charlie Trie investigation at that 
particular point in time.
    Special Agent Sheridan and I had conversations with them. 
We also had conversations with our supervisor, who was Laura 
Laughlin, concerning our belief that Ms. Mapili was obstructing 
justice, that she was throwing away items that were evidentiary 
to our investigation and that we should consider doing a search 
warrant on both the Trie location and also her residence, Ms. 
Mapili's residence.
    Chairman Thompson. All right. Mr. Sheridan, were you in on 
those discussions?
    Mr. Sheridan. Yes, I was.
    Chairman Thompson. Mr. Wehr, were you aware that those 
discussions were going on?
    Mr. Wehr. I knew they were going on, but I was not part of 
them.
    Chairman Thompson. Did you have an opinion as to whether or 
not a search warrant should be issued?
    Mr. Wehr. Yes, I did, and I agreed that a search warrant 
should be issued.
    Chairman Thompson. Mr. Sheridan, what did you think?
    Mr. Sheridan. After the first trash cover proved 
successful, it appeared to be our next logical step to secure 
that evidence.
    Chairman Thompson. Mr. Smith.
    Mr. Smith. That is correct. We discussed the information, 
the items that were in the trash cover, and we discussed those 
things from a legal standpoint, not only with Agent Wehr, but 
also with the chief divisional counsel in the Little Rock 
office. And it was clear to us that this was certainly enough 
probable cause for a search warrant. In fact, it was something 
that needed to be done very quickly because it was a matter of 
evidence actually being destroyed.
    Chairman Thompson. So they were in the process, Ms. Mapili 
was, to you, obviously in the process of destroying relevant, 
significant evidence that was covered by both a grand jury 
subpoena. And you assumed, because you knew we had a subpoena 
out to the same entity, that it was relevant to our subpoena.
    So you go to the Justice Department. Tell us about your 
discussions there concerning the search warrant.
    Ms. Parker. We discussed all of the information with 
Jonathan Biran. And Jonathan Biran was well aware of all of the 
evidence that we had concerning Charlie Trie to that date, and 
he agreed with us, it appeared that we had probable cause for 
searches at both locations.
    At that particular point in time, I started drafting the 
affidavit for the search warrant on both locations. After I was 
finished doing my rough draft, I then went and provided it to 
Jonathan Biran, and he made his own corrections and changes, 
added some things. He basically massaged it.
    Senator Lieberman. Do I understand that he was an attorney 
with the task force?
    Ms. Parker. Correct.
    Senator Lieberman. Working under Ms. Ingersoll at the time.
    Ms. Parker. That is correct.
    Chairman Thompson. Well, let us get that line-up, while we 
are at it. Tell us about the people at the task force. Ms. 
Ingersoll was heading that up?
    Ms. Parker. That is correct.
    Chairman Thompson. Supposedly at that point.
    Ms. Parker. That is correct.
    Chairman Thompson. And what other Justice Department 
attorneys were involved in the effort that you dealt with?
    Ms. Parker. I am not going to be able to tell you exactly 
who was there. Because as the case evolved, the number of 
agents and attorneys increased. However, at that particular 
point in time, the two DOJ attorneys who were assigned to the 
Trie matter were Jonathan Biran and William Corcoran.
    Chairman Thompson. All right. Go ahead. So you had these 
discussions up to that point.
    Ms. Parker. Yes.
    Chairman Thompson. Then what happened?
    Ms. Parker. I provided the draft to Jonathan Biran, he 
massages it. Once we have--it was not a finalized draft, but 
kind of a work-in-process, and we provided a copy of that, I 
provided a copy of that to Laura Laughlin, our supervisor, and 
I presume that he provided a copy to his hierarchy.
    Once again, we are busily working on this, trying to get 
everything in the process, trying to get teams ready to leave 
from Washington, DC, to go to Little Rock, as well as have 
Agent Wehr get a team ready in Little Rock. So there was a lot 
of work to be done. But at some particular point in time, I was 
told by Laura Laughlin, my supervisor, that FBI approval, 
hierarchy approval, had been made, and it looked like we were 
ready to go. It was my understanding, based on what Jonathan 
Biran told me, that whoever it was in DOJ had seen the 
affidavit and that we were fine, and we were ready to go.
    Kevin Sheridan did a search plan for both locations. He 
compiled the team in Washington, DC. I was in contact with 
Agent Wehr, ensuring that a team would be in Little Rock. And I 
flew out on July 2, anticipating that when I arrived in Little 
Rock, the affidavit would be, in essence, waiting for me to 
take before the magistrate in Little Rock, and that I would be 
the affiant, that it would be approved, and that we would go 
forth with the two search warrants in Little Rock.
    Chairman Thompson. So you left for Little Rock.
    Ms. Parker. Correct.
    Chairman Thompson. So, meanwhile, what was going on back at 
Justice? Who on your team was there dealing with----
    Ms. Parker. Mr. Sheridan was.
    Chairman Thompson [continuing]. With the Justice 
Department.
    Mr. Sheridan, take us up to that point, from your vantage 
point that day.
    Mr. Sheridan. My role in the search warrant affidavit, 
pretty much when it started to come together, I had a final 
copy that we were going to just pass through the chain of 
command, basically, and ensure that the final copy was approved 
that day, and then we were going to electronically send it down 
to Little Rock for Agent Parker.
    I did that. And we had an afternoon meeting on July 2--I do 
not recall the exact time, early afternoon--myself, my 
supervisor, Laura Laughlin and Laura Ingersoll.
    Chairman Thompson. All right. So go ahead. What happened?
    Mr. Sheridan. We, and also as Agent Parker stated, that 
morning, that day, I was planning pretty much the rest of the 
search plan. Going directly to that meeting in the early 
afternoon, we had copies of the search warrant affidavit, 
expected it to be approved, or at least to be approved and then 
forwarded up to the DOJ for whatever needed to be done.
    Chairman Thompson. Is this the affidavit you had drafted, 
Ms. Parker? \1\
---------------------------------------------------------------------------
    \1\ The drafted affidavit referred to appears in the Appendix on 
page 110.
---------------------------------------------------------------------------
    Ms. Parker. Correct.
    Chairman Thompson. And what had been done? You did the 
initial draft, you talked to Mr. Biran, was it?
    Ms. Parker. Mr. Biran, yes.
    Chairman Thompson. And did he have any input as to the 
drafting?
    Ms. Parker. Yes. He made some changes, he massaged some 
information, he added some things. So, in essence, once I gave 
him my disk, computer disk, he was working off of that to make 
his changes and corrections. So the final draft would have been 
his final work product on his draft, and that would have been 
the copy that would have been electronically transmitted by 
Special Agent Sheridan to Little Rock.
    Chairman Thompson. All right. Mr. Sheridan, is that the 
copy that you had in your possession at that time?
    Mr. Sheridan. Yes, sir.
    Chairman Thompson. Did you transmit it to Little Rock?
    Mr. Sheridan. No, we did not.
    Chairman Thompson. It never did get that far.
    Mr. Sheridan. Correct.
    Chairman Thompson. Because you were stopped somewhere along 
the process; is that correct?
    Mr. Sheridan. That's correct.
    Chairman Thompson. What happened?
    Mr. Sheridan. We had the meeting--myself, Laura Laughlin, 
Laura Ingersoll. Within I would say about 5 minutes of the 
meeting, I was told that we did not have probable cause and we 
were not going to be conducting the search.
    We discussed back and forth across the table, myself and my 
supervisor, Laura Laughlin, with Laura Ingersoll as to why we 
did not have probable cause. It was my understanding that this 
was just a formality in the final affidavit. I was kind of 
surprised at the time that we were experiencing some 
resistance.
    We went around for about 15 minutes discussing why there 
was or was not probable cause, really with no more detail than 
what I have said, as there was really no probable cause, and I 
felt there was. And after approximately 15 or 20 minutes, we 
received a call from Little Rock in the conference room 
regarding, as Mr. Smith stated, boxes were being removed from 
Mr. Trie's residence.
    At that point, things started--the pace started picking up. 
We kind of stopped talking about the PC issue for a moment, 
trying to regroup and see what was going on. The Little Rock 
Division was determining if--who the individual was.
    Chairman Thompson. Mr. Wehr, I think that is where you come 
in. You were on the ground there in Little Rock and saw the 
removal?
    Mr. Wehr. Right. I believe I was on the telephone with 
Kevin Sheridan that day.
    Mr. Sheridan. That is correct.
    Mr. Wehr. And we had what we call a physical surveillance 
of Mr. Trie's residence that involved a stationary surveillance 
and a roving surveillance of all occupants that entered or left 
that residence, the purpose being to try to preserve it for the 
search warrant and also to determine what was going on.
    When a gentleman in a white Lexus showed up at the scene, 
and the units there reported that to me, we ran the plate and 
determined that this vehicle belonged to a W.H. Taylor out of 
Fayettville. Mr. Taylor went into the house, met Ms. Mapili, 
and brought out, I believe it was four boxes that appeared to 
be file-type boxes, banker's file type boxes, put those boxes 
in the car.
    As soon as I heard that, I conferred with Steve Frazier, 
our division chief counsel, and I requested permission to do a 
traffic stop. I thought it was a good idea because we had 
probable cause that evidence was in the vehicle and that the 
vehicle was in motion. We were following it, and it was headed 
towards central Little Rock.
    At the same time, I informed Kevin Sheridan of this because 
I was under orders at the time by Jeff Lampinski not to engage 
in any investigative steps without prior approval of the task 
force. I assume Kevin talked to the attorneys back at the task 
force----
    Chairman Thompson. On that point, you said that you were 
told not to take any investigative steps without prior approval 
by the task force.
    Mr. Wehr. Yes.
    Chairman Thompson. Mr. Smith, what did you think about 
that?
    Mr. Smith. It is ludicrous that you cannot conduct 
aggressive investigations. You have to make decisions promptly 
on the scene, and where we have ample legal advice--this is why 
I made the comment about the aggressiveness of the investigator 
as opposed to some of those assigned at FBI Headquarters. Now, 
I do not know if Mr. Lampinski's orders came, something he did 
or a decision that was made by someone above him, but this was 
the norm. And it is ludicrous when you are conducting an 
ongoing investigation, where events unfold, that they cannot be 
scripted in advance. You have to make those decisions. You have 
to have the latitude to conduct the investigation to be 
successful.
    Chairman Thompson. Did you get approval by someone there, 
whether the FBI legal counsel or someone there, Mr. Wehr, as 
far as the traffic stop was concerned?
    Mr. Wehr. No, we did not. They refused to authorize the 
traffic stop. So we followed----
    Chairman Thompson. I was talking about in Little Rock.
    Mr. Wehr. In Little Rock, yes, in Little Rock. Oh, we had 
approval in Little Rock. I had approval from the chief division 
counsel, which is what I have to do in most cases.
    Chairman Thompson. You go to FBI counsel, explain the 
circumstances, say, ``Do we have probable cause to stop this 
vehicle? They are unloading boxes into the car,'' and in his 
opinion, you did.
    Mr. Wehr. Yes.
    Chairman Thompson. So you talk to Mr. Sheridan, who is up 
there talking to them about their decision not to let a search 
warrant continue, and you explain to Mr. Sheridan what is 
happening, the most recent thing that is happening.
    Mr. Wehr. Yes.
    Chairman Thompson. And because you have been told that you 
have got to get task force approval for everything, you try to 
get task force approval there. You say, ``Well, what about 
stopping this car?'' And what was their response to that, Mr. 
Sheridan?
    Mr. Sheridan. At that time, in addition, Mr. Wehr was not 
aware that we were having the problem with PC. I had the call--
--
    Chairman Thompson. Meaning probable cause.
    Mr. Sheridan. Probable cause, yes.
    Senator Lieberman. Make sure that nobody thinks you mean 
``politically correct.'' [Laughter.]
    Mr. Sheridan. No, I meant probable cause.
    I had my supervisor, and I had the head of the task force 
in the conference room with me. I basically relayed the 
information that Agent Wehr stated to me, and the decision was 
made by Laura Ingersoll that we were not going to stop the 
vehicle.
    Chairman Thompson. Now, you later learned that this fellow 
who was loading the boxes turned out to be Ms. Mapili's 
attorney.
    Mr. Sheridan. That is correct.
    Chairman Thompson. Mr. Taylor that Mr. Smith referred to. 
We will get back to that in a minute.
    Let me jump ahead, and then we can all come back. But this 
was July 1 or 2?
    Ms. Parker. July 2.
    Chairman Thompson. Then, on July 29, your next trash cover, 
that is when you discovered checks pertaining to the 
President's----
    Ms. Parker. Legal Expense Trust.
    Chairman Thompson. Legal Expense Trust, yes.
    Are you the witness on that, Ms. Parker? Go ahead.
    Ms. Parker. We had two other covers in the intervening time 
period; one on July 8 and then one on July 29. And we continued 
to see that there was evidence that was going on in the trash, 
including some checks that were to the Presidential Legal 
Expense Trust.
    I continued to believe that we had PC and that this new 
information bolstered the PC, the probable cause, that we had 
for a search warrant. We had a meeting between myself, Jonathan 
Biran and Laura Ingersoll on June 29 concerning my belief that 
we had PC and that we should go with the search warrant.
    Chairman Thompson. And tell us about that meeting.
    Ms. Parker. I relayed the additional information that we 
had from the trash cover and expressed my concern there might 
be an obstruction of the Senate inquiry or the Senate subpoena.
    Chairman Thompson. Did you know any more about the Senate 
subpoena at that----
    Ms. Parker. No. I just knew generally about it.
    Chairman Thompson. All right. Go ahead.
    Ms. Parker. I was told that we would not take into 
consideration the Presidential Legal Expense Trust issue and 
that we would not take into consideration the Senate subpoena 
obstruction issue for the search warrant.
    Chairman Thompson. I beg your pardon? What was that last 
point?
    Ms. Parker. That the evidence concerning the Presidential 
Legal Expense Trust, the conduit situation, as well as evidence 
of possible Senate obstruction, we were not going to use that 
as PC for the search warrant for Mr. Trie's residence and----
    Chairman Thompson. Ms. Ingersoll said that?
    Ms. Parker. That is correct. However, I will say that what 
she said was she directed Jonathan and myself to go to Little 
Rock and to view the subpoena documents in Little Rock in order 
to determine if there was anything further that would bolster 
the probable cause. However, at that particular point in time, 
she indicated that there was slim to nonexistent probable 
cause.
    On July 31 and August 1, Jonathan Biran and I did travel to 
Little Rock. And what we looked through were the three boxes of 
records that W.H. Taylor, Maria Mapili's attorney, had turned 
over to Little Rock pursuant to the Federal grand jury 
subpoena.
    Chairman Thompson. So you went to Little Rock to observe 
documents that Ms. Mapili's attorney had turned over to you?
    Ms. Parker. Yes, that and the trash documents. And there 
was a concern by both Laura Laughlin and Laura Ingersoll that 
we actually see the documents ourselves, both the documents 
that were recovered in the trash, as well as the subpoenaed 
documents that were produced by Maria Mapili.
    Chairman Thompson. Well, when you observed those documents 
that were recovered in the trash, what----
    Ms. Parker. That basically the documents were as was 
relayed to us by Little Rock.
    Chairman Thompson. And you still believe that there was 
probable cause?
    Ms. Parker. Yes, and I also had concern concerning her 
production of records pursuant to the grand jury subpoena.
    Chairman Thompson. Of course we know now that of course, 
that her attorney did not turn over all the records that were 
supposed to be turned over, do we not?
    Ms. Parker. Because he was unaware that she had destroyed 
and hidden documents, correct.
    Chairman Thompson. I mean, I am not saying whose fault it 
was. I mean, we just know that, because in October you went in 
there with a search warrant and discovered lots of additional 
stuff that was pursuant to your subpoena and ours both.
    Ms. Parker. That is correct.
    Chairman Thompson. So did anyone else have any conversation 
with Ms. Ingersoll about the President's Legal Expense Trust 
situation and what you would or would not do with regard to 
that in terms of an investigation?
    Ms. Parker. We actually--Special Agent Sheridan and I had 
conversations with Ms. Ingersoll concerning the Presidential 
Legal Expense Trust, and how Charlie Trie was using conduits to 
funnel money to it. However, after looking at the law, her 
opinion was that there was not a criminal violation involved in 
that, and I do agree with her on that one.
    Chairman Thompson. What about the fact that the Senate has 
subpoenaed those documents?
    Ms. Parker. Once again, at that particular point in time, I 
was unaware of that.
    Chairman Thompson. When did you become aware of it?
    Ms. Parker. I did not actually see a copy of your subpoena 
until it came in in the grand jury subpoena documents that 
Jonathan Biran and I observed in Little Rock. Then I saw a copy 
of your subpoena, the Committee's subpoena, with the 
attachments.
    Senator Lieberman. That would have been at the end of July?
    Ms. Parker. Yes, correct.
    Chairman Thompson. Because we have some notes. We asked Ms. 
Ingersoll about it, where she acknowledges in an August 4 
notation that she knew of the destruction of Legal Expense 
Trust documents in response to the Senate subpoena. So, 
clearly, by August 4, 1997, she was aware of the subpoena and 
what it called for. At the end of July, you are saying, you 
were aware, or the FBI was aware?
    Ms. Parker. Correct, because Jonathan Biran and I went and 
observed those documents in Little Rock, and I actually copied 
some of the things that I thought were pertinent. One of the 
things that I copied was the Senate subpoena.
    Chairman Thompson. All right. Well, was there ever a 
discussion with the Justice Department lawyers over the fact 
that you had evidence that documents responsive to a Senate 
subpoena were being destroyed?
    Ms. Parker. The discussion on July 29. And then after----
    Chairman Thompson. Well, tell us about that discussion.
    Ms. Parker. Yes. It was between Laura Ingersoll, myself and 
Jonathan Biran, and I put forth the case that the trash cover 
showed there was additional evidence that was being thrown out 
and that we really should go ahead with a search warrant.
    Chairman Thompson. Did you point out--including pursuant to 
a Senate subpoena?
    Ms. Parker. I wanted to include evidence of obstruction of 
the Senate subpoena and the PLET evidence.
    Chairman Thompson. And what was their response to the 
Senate subpoena?
    Ms. Parker. She said that we were not going to do that. 
However, once again, I do not know the reason why that was her 
decision.
    Chairman Thompson. Mr. Sheridan, were you apprised of any 
conversations about that subject?
    Mr. Sheridan. No, I was not. And, actually, I was not 
really involved with the specifics of Charlie Trie at that 
point. As Agent Parker stated, I was involved with PLET, the 
President's Legal Expense Trust. It was all prior to July 1997.
    Chairman Thompson. Anybody, either one of the two of you?
    Mr. Wehr. No.
    Mr. Smith. No, sir.
    Chairman Thompson. Going back just a little bit is your 
memo dated August 4, Mr. Smith, and you relate many things. We 
were just talking about matters that just have to do with the 
Charlie Trie trash cover business and the subpoena, the 
destruction of documents, and the attempt that the FBI made to 
get a subpoena to stop that destruction of documents. Fast 
forwarding, of course, we know a new team came in on September 
16, Campaign Task Force, and on October 21 and 22, Maria Mapili 
admitted to the FBI that she had destroyed documents at Charlie 
Trie's direction, right?
    Mr. Smith. That is correct.
    Chairman Thompson. Did you know at the time that Ms. Mapili 
was in communication with Mr. Trie? I say at the time. Early 
on, back at the time you were attempting to get the search 
warrant or maybe even sooner?
    Mr. Smith. The answer is yes.
    Chairman Thompson. And then the search warrant came about 
October 23. You obtained documents sufficient to indict Mr. 
Trie. The Justice Department later dismissed that obstruction 
of the Senate subpoena count against Mr. Trie, and we will get 
into that some other occasion, but one wonders what happened. 
We are just seeing, perhaps, the tip of the iceberg. We are 
just seeing the trash covers that were covered over over a 
period of time. We do not know what other documents were 
perhaps there that you were not able to trace that were there 
at one time.
    But anyway, you wrote, on August 4, to Louis Freeh because 
of your concerns. What is the background of this document? This 
appears to me to be something that is highly unusual for an SAC 
to do, to write to the director, about his concerns being 
stymied at an investigation. Had you ever done anything like 
this before?
    Mr. Smith. The only time in my career. I had a kind of an 
arrangement with the Director that I would not bother him if he 
would not bother me, and I would handle things in Little Rock, 
and this worked very well. He agreed with the tack that I was 
taking as far as working the corruption matters and things of 
this nature, but this had gotten to the point that this was not 
one that I could handle. And after having a rather lengthy 
meeting--I think it was sometime around early afternoon of July 
31--I then determined that I should discuss this matter 
directly with the Director.
    Now, there had been some previous conversations with the 
Director from time to time, indirect conversations, and he knew 
my feelings on the matter I think.
    Chairman Thompson. Were you--had you been made aware of 
exasperation on the part of both Little Rock special agents 
assigned to the investigations and also special agents assigned 
to the task force in Washington?
    Mr. Smith. Oh, without question. One of the things that I 
did--and like I say--I mentioned on these particular types of 
investigations, perhaps at times maybe it is too much 
involvement, but I wanted to know what was going on in intimate 
detail, particularly given the fact that an investigation of 
this sort that had political implications and what-have-you. I 
did not want any of these decisions to be made without my being 
aware of them, and this was the nature of my management style 
at that particular time. So I was in virtually daily contact 
with Special Agent Wehr or someone from the task force in 
Washington, as we discussed the progress or the lack of, of 
what was being done.
    Chairman Thompson. You say here as part of your memo \1\--
and you relate the things that you had in your opening 
statement, and I am not going to go through all of that. This 
has been heavily redacted, by the way, by the Department.
---------------------------------------------------------------------------
    \1\ The memo referred to appears in the Appendix on page 105.
---------------------------------------------------------------------------
    Mr. Smith. But Director Freeh, in my conversation with him, 
has basically said, ``I need specific examples.''
    Chairman Thompson. You said at the end of this, ``And I met 
with Roberta Parker, a hard-working accomplished special agent, 
and Special Agent Wehr, an experienced investigator, who is an 
excellent lawyer in his own right and who practiced law before 
becoming an agent. My advice to both was to ensure there is a 
record, for ``future historians,'' all that is being 
mishandled, i.e., if they believe there is probable cause to 
search Mapili's residence and this is refused by DOJ, the basis 
of this belief, and the reason for the refusal, should be 
recorded.
    Further, as discussed, I would recommend you meet 
specifically with investigators who, I suspect, are prepared to 
provide details that provide the basis they have for the lack 
of confidence in Public Integrity's handling of this 
investigation.
    I am well aware of such matters as ``prosecutive 
discretion,'' but I am convinced the team at DOJ leading this 
investigation is, at best, simply not up to the task. Frankly, 
I base this conclusion not only on the CAMPCON matter, but 
other investigations Public Integrity has handled from their 
office due to recusals from the U.S. Attorneys. The impression 
left is the emphasis is on how not to prosecute matters, not 
how to aggressively conduct investigations leading to 
prosecutions.''
    ``Finally, I would point out, based on my own experience 
with both WHITEWATER and CAMPCON, attorneys without prior 
investigative or prosecutive experience should not ``lead'' 
such investigations. Investigators should be allowed to fulfill 
traditional investigative roles, and prosecutors serve in that 
capacity alone, not in directing investigations, absent 
individuals with requisite skills in both disciplines.''
    These are words from your memo; is that correct?
    Mr. Smith. Yes, sir.
    Chairman Thompson. To Director Freeh. One of the things 
that you did--and then I will stop--is suggest to these other 
agents that they memorialize what was happening. And, Agent 
Parker, you did that, did you not?
    Ms. Parker. Yes. I actually had started doing that prior to 
that in all of my cases if it is going to be a complicated 
case. I actually maintained notes in a spiral notebook of every 
interview, of telephone calls, of meetings, of little bits and 
pieces of information so that I can have ready access to it so 
I can refresh my recollection. I had started that at the 
initiation of the CAMPCON investigation.
    Chairman Thompson. All right. Elaborate a little more as to 
what is contained in your notebook. Did you set forth the 
problems that you were having with regard to this investigation 
with the Department of Justice?
    Ms. Parker. Less that, and more I would memorialize 
information that went on, meetings that went on, who was there, 
what was the nature of the meeting, what kind of information 
came out, and secondarily, I mean----
    Chairman Thompson. Who said what at meetings sometimes?
    Ms. Parker. Generally, yes. I would not necessarily say 
Laura Laughlin or Laura Ingersoll said XY and Z. However, if 
there was an issue that I thought that there was a disagreement 
between myself and someone else, I would just make a note of 
it.
    Chairman Thompson. You would put down the positions of the 
various people, perhaps?
    Ms. Parker. Right, yes. It was not a way of keeping book on 
anyone. It was just more of a way of what had somebody said a 
week ago or 2 weeks ago, so that I could recall, and what 
further needed to be done in the investigation.
    Chairman Thompson. What did you do with your book with 
regard to the campaign finance investigation?
    Ms. Parker. I had three spiral notebooks, in fact, just 
like this one. They are 200-page spiral notebooks, and they are 
chronologically kept. And I maintained personal custody of 
those three notebooks throughout the whole investigation, and 
in fact, when I left to go out on maternity leave, I took the 
notebooks with me. I kept them in my possession during pretrial 
prep for the Charlie Trie trial, and continued to keep them 
until I was requested by CAMPCON, in June of this year, to 
actually provide those notebooks to them so that they could be 
produced to your Committee and also to Representative Burton's 
Committee.
    Chairman Thompson. CAMPCON being the Justice Department, 
essentially, campaign task force?
    Ms. Parker. Yes. I actually provided the notebooks plus a 
whole box that I had of miscellaneous records, communications, 
whatnot, that I had kept in order to prepare for the Charlie 
Trie trial, and I provided that all to Supervisory Special 
Agent Wayne Corpening, who was a supervisor at CAMPCON.
    Chairman Thompson. FBI agent?
    Ms. Parker. Correct.
    Chairman Thompson. What is the last name?
    Ms. Parker. Corpening.
    Chairman Thompson. And is it correct then that you have 
compiled three of these 200-page notebooks with regard to this 
one investigation?
    Ms. Parker. That is correct.
    Chairman Thompson. That all have to do with the Trie 
investigation? When I say this investigation, I am talking 
about primarily the trash covers, the Charlie Trie matter, all 
of that.
    Ms. Parker. Right. I mean, I was the primary case agent on 
the Trie matter, so all of these notebooks were about Charlie 
Trie. There might have been a smattering of other things 
interspersed, because we were sometimes pulled off to do other 
projects. However, 99 percent of the notebooks--pages in the 
notebooks dealt with Charlie Trie.
    Chairman Thompson. when you turned this over to Agent 
Corpening for him to turn over to CAMPCON, right, at Justice?
    Ms. Parker. That is correct.
    Chairman Thompson. Were each of the 200 pages pretty much 
full?
    Ms. Parker. With the exception of the last notebook. In 
fact, that is the one that I am using now. There is a portion 
of it that has not been used.
    Chairman Thompson. All right. Did you have occasion to get 
those notebooks from CAMPCON?
    Ms. Parker. Yes, I did. Yes, sometime in August of this 
year.
    Chairman Thompson. Were there any pages missing?
    Ms. Parker. Yes, there were.
    Chairman Thompson. Describe that.
    Ms. Parker. There was a section of the notebook that was 
missing from the time frame of June 24 to approximately July 15 
or July 17.
    Chairman Thompson. Now, would that have been--
chronologically, would that have been in your first, second or 
third notebook?
    Ms. Parker. The first notebook.
    Chairman Thompson. The first notebook.
    Ms. Parker. Yes.
    Chairman Thompson. What was the first entry in your first 
notebook, the date?
    Ms. Parker. It was in January. It was the first day that we 
actually had a major meeting at the task force concerning the 
investigation.
    Chairman Thompson. January 1997?
    Ms. Parker. Correct.
    Chairman Thompson. And so the first part was intact, from 
January to June was intact?
    Ms. Parker. Correct.
    Chairman Thompson. And what you are saying is that missing 
were pages that covered June 24, which was the day you began 
your first trash cover, was it not?
    Ms. Parker. That is correct.
    Chairman Thompson. Till July 15 or 17.
    Ms. Parker. I think that might have been the--I cannot 
recall now.
    Chairman Thompson. Which would have covered the dispute or 
attempt to get the search warrant?
    Ms. Parker. That is correct.
    Chairman Thompson. Now, these are spiral notebooks. Would 
someone have to rip those pages out in order for them to come 
out?
    Ms. Parker. Yes.
    Chairman Thompson. Who did you receive the books back from?
    Ms. Parker. Special Agent C.S. Kim. He had been, at the end 
of the investigation, my co-case agent for the last segment of 
the investigation.
    Chairman Thompson. When did you discover that these pages 
were missing?
    Ms. Parker. On August 13. It was a Friday.
    Chairman Thompson. August 13 of what year?
    Ms. Parker. I am sorry, 1999.
    Chairman Thompson. Of 1999?
    Ms. Parker. Yes.
    Chairman Thompson. Did you ask anyone about this?
    Ms. Parker. I immediately began conducting my own little 
investigation because I was concerned that I would need to 
refresh my recollection for--in order to be able to testify 
here, so I wanted to get the original notes back, and I talked 
to Special Agent Kim and others at CAMPCON in order to try to 
determine where the notes were.
    Chairman Thompson. So is it this time they tell you they do 
not know where they are?
    Ms. Parker. That is correct.
    Chairman Thompson. So to make sure I understand this now, 
you were told to submit your notebooks so that they could 
submit them or consider submitting them to Congress pursuant to 
congressional subpoenas?
    Ms. Parker. That is correct.
    Chairman Thompson. And that when you--and I can state for 
the record, I think, as they were submitted over on the House 
side, they did not contain those, I believe, 27 pages, so they 
apparently were removed from the time that they left your 
possession to the time that they got to the House Committee 
that had requested these records.
    That is all I have. Go ahead.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thank you all for your testimony.
    Let me begin by focusing in on the probable cause 
determination on the search warrant, based on what you found in 
the trash cover. And as I understand the position of the 
Department of Justice attorneys, Ms. Ingersoll, etc., prior to 
Mr. Taylor's arrival on the scene, their position is that the 
agents did not show probable cause. They thought that the 
affidavit, which you had drafted, Ms. Parker, did not make that 
showing. And I want to just explore with you for a moment why 
you, and perhaps the others if you want to add to it, thought 
it did.
    Let me suggest to you my understanding of what are two 
possible grounds on which an affidavit for a search warrant in 
this case might have been justified, and ask you to tell us on 
which of those grounds or on some other that I have not thought 
of, that you felt the affidavit was justified.
    First would be if there was probable cause to believe that 
a substantive offense, for instance, a violation of the 
campaign finance laws was committed. Then the search of Ms. 
Mapili's and Mr. Trie's residences could be justified if there 
was probable cause to conclude that there was evidence of those 
offenses on the premises.
    The second possibility is that the search could be 
justified if there was probable cause to believe that Ms. 
Mapili was committing obstruction, in which case the discarded 
documents would themselves be evidence of that crime.
    So let me ask you which of those grounds, or perhaps both, 
or whether there was some other basis on which you believed at 
that moment after the trash cover had turned up the evidence it 
had, that there was a justification in your affidavit and that 
you had reached probable cause for the search?
    Ms. Parker. I believe that both myself and Jonathan Biran 
put in the affidavit that we were going to be searching based 
on both of those categories, conspiracy, 1001, false statements 
to the FEC, and also--well, conduit in the name of another, and 
also obstruction of justice.
    Senator Lieberman. Do any of the rest of you want to add to 
that? So far as you were involved, that was your understanding, 
Special Agent Sheridan?
    Mr. Sheridan. That is my recollection as well.
    Senator Lieberman. Yes.
    Mr. Wehr. That was my understanding, but only from oral 
conversations with the other agents. I did not see the 
affidavit.
    Senator Lieberman. Understood. Mr. Smith.
    Mr. Smith. I do not recall seeing the affidavit.
    Senator Lieberman. OK, good enough. Let me focus the next 
couple questions then on you, Special Agent Parker. Obviously, 
we are going to hear from the attorneys from Justice after this 
panel. But my understanding is that the attorneys have told our 
staffs that they did not believe the affidavit gave probable 
cause to believe that there was evidence of campaign finance 
violations at Mr. Trie's and Ms. Mapili's houses. What is your 
response to that?
    Ms. Parker. I really cannot recall having a specific 
conversation concerning that. In fact, once again, I did not 
have any personal conversations with Ms. Ingersoll concerning 
the probable cause at all. All of my conversations were with 
Jonathan Biran and Laura Laughlin. I only learned after the 
fact concerning Ms. Ingersoll's position, so I cannot really 
talk on that.
    Senator Lieberman. What I am really asking is sort of a 
hindsight kind of judgment. In other words, if what we are 
going to hear later on the second panel is that Justice did not 
believe that there was probable cause here to believe that 
there was evidence of campaign finance violations at these two 
locations, based on your recollection of your affidavit, what 
is your response to their critique today?
    Ms. Parker. Without getting into 6(c) issues on disclosing 
grand jury information, it was my feeling that there was 
sufficient probable cause on that account. That was my belief. 
That is why I drafted the affidavit as I did.
    Senator Lieberman. Would it have been enough for the 
documents just to have been clearly related to Mr. Trie's 
business? That is, was there anything in the documents that was 
actually incriminating or was it enough for them to have just 
related it to his business activities?
    Ms. Parker. I am sorry. Could you say that again?
    Senator Lieberman. Well, I am wondering whether or not--I 
presume we may hear this later, so I want to give you a chance 
to respond before this panel goes off--whether it would have 
been enough to justify a search warrant, probable cause, to 
have found in the trash cover some evidence of Mr. Trie's 
business dealings, or whether that evidence itself would have 
been incriminating with regard to the campaign finance 
violations?
    Ms. Parker. I do not know that I could really speak on 
that. What I can say is that a subsequent search warrant on the 
Watergate office and residence was based on probable cause 
relating to the fact that there were fruits and 
instrumentalities of a crime at the location, and that that is 
why the location was searched. I would presume we could use the 
same standard for the Little Rock residence and office also.
    Senator Lieberman. How about the obstruction grounds? You 
based your affidavit on the two trash covers. The first was on 
June 24, which was before the service of the grand jury 
subpoena, and the second on July 1, after the service of that 
subpoena. Do you believe that the documents found prior to the 
service of the subpoena supported an obstruction charge?
    Ms. Parker. I believe they were some facts that tended to 
show obstruction. Once again, they were certainly documents 
that were evidentiary to our investigation. They possibly were 
evidence of obstruction of the Senate committee subpoena. 
However, I thought that it was prudent, and Ms. Ingersoll 
suggested this, to actually serve her with a subpoena, so that 
she would have the subpoena in hand. And we were hopeful that 
that would actually stem the flood of documents into the trash. 
Unhappily, it did not.
    Senator Lieberman. The dates are confusing here sometimes, 
but am I not right, from what you said earlier, that you were 
not specifically aware of the Senate subpoena at the time?
    Ms. Parker. I did not have a copy of the Senate subpoena--
--
    Senator Lieberman. You were aware of it.
    Ms. Parker [continuing]. But I was aware that there was a 
Senate subpoena, correct.
    Senator Lieberman. OK. I understand that the attorney 
suggested to our staff that it would have been--or maybe to you 
too or Mr. Biran may have suggested to you--that it would 
have--on the obstruction charge, it would have been better to 
elaborate in the affidavit precisely what it was about the July 
1 documents that made them evidence of obstruction, that is, 
what was lost by not having those documents. And that was one 
of the grounds for finding the affidavit inadequate. Do you 
have a response to that?
    Ms. Parker. I did not know that that was ever an issue.
    Senator Lieberman. Do you have a response today, based on--
--
    Ms. Parker. My response is as it was at the time, that I 
felt there was sufficient probable cause, and that the best 
course of action would have been to let the magistrate decide 
whether there was.
    Senator Lieberman. Yes. Mr. Smith, I know it is on the 
basis of some of these judgments that you had the--I believe 
you said it was unprecedented conversation with Director Freeh, 
or certainly a unique conversation, and then followed by the 
memo. I must admit--and I do not want to reach a conclusion 
till I get a chance to hear the Department of Justice 
attorneys--that in a matter of this kind where you have 
discovered the kind of evidence you did in the trash covers, 
though there are these legal questions that could be raised--it 
just seemed to me that with everything riding on this that the 
tendency of the Justice Department attorneys would have been to 
not stand in the way of going ahead with the search warrant, I 
mean to err on that side, as it were, but there are these 
questions that are raised. And I wonder if you have anything 
just from your long experience in response to that? I mean, 
there are some legal questions that could be raised here, but 
how did you evaluate it?
    Mr. Smith. Well, frequently we find--and I think in public 
corruption cases this is heightened--that there are those that 
investigate cases and prosecute cases to avoid getting into 
trouble, and you have those who investigate cases and prosecute 
cases to resolve issues. I am not sure why the timidity that I 
saw in this case was occurring, but based upon the evidence 
that I saw and that was being discussed to me, I agree. It 
seems to me that what you want to do on these type of cases--
and realize public corruption cases have to be done quickly and 
they have to be done thoroughly and they have to be done 
completely objectively--is to err on the side of going ahead 
and as Agent Parker says, for God's sake, let the magistrate 
determine if there is sufficient probable cause or not.
    Senator Lieberman. Right.
    Mr. Smith. We do this all the time in other cases. Why this 
was being handled differently, frankly, I am not sure.
    Senator Lieberman. And you felt that a higher standard was 
being applied here than was generally applied to requests--in 
affidavits for----
    Mr. Smith. Absolutely, and I can understand that perhaps 
there was a heightened awareness of the implications of an 
investigation of this sort, after all, this was the President's 
home State and this involved a personal acquaintance of the 
President.
    Senator Lieberman. Right.
    Mr. Smith. But on the other hand, there should not be a 
different standard for a criminal investigation regardless of 
the implications, politically or personally or whatever.
    Senator Lieberman. Of course, another take on that might be 
that because of the heightened sensitivity and the particular 
personalities involved, one might lean a bit forward to 
exploring every possible piece of evidence, so that no one can 
ever raise a question that this was not as aggressive an 
investigation as it might have been.
    Mr. Smith. You are absolutely right.
    Senator Lieberman. I mean, we obviously would not want to 
encourage anybody to trample over people's legal rights, but in 
that delicate balance in this case, because of the reasons you 
cite, that might have led to a more forward-leaning response on 
your affidavit.
    Mr. Smith. Absolutely. My view is that I would rather err 
on the side of being told by a magistrate that I have 
insufficient probable cause than being accused later on of foot 
dragging because of the political implications.
    Senator Lieberman. Yes. Let me go to the Senate subpoena 
now if I may. Agent Sheridan, let me begin, because I 
understood from my staff, that they came away from the 
interview with you believing that you thought that Ms. 
Ingersoll had indicated that she did not want to base the 
search warrant on Ms. Mapili's destroying documents responsive 
to the Senate subpoena because that would have required the 
task force to tell the Senate about the destroyed evidence. But 
this morning I got a different impression from something you 
said a moment ago.
    Mr. Sheridan. No, that--maybe there was a misunderstanding 
there. All I said was there were some discussions when we--on 
that first trash cover in late June. At that point we did know 
there was a Senate subpoena.
    Senator Lieberman. Right.
    Mr. Sheridan. And I remember there being some discussion 
that Laura Ingersoll was present at that meeting I was present 
at, as to the legality of what do we do in that instance? That 
is when I recall the decision being made that we will serve our 
own Federal grand jury subpoena on Ms. Mapili for records.
    Senator Lieberman. To the best of your recollection, at 
that meeting or any other occasion, what did Ms. Ingersoll 
specifically say about the Senate subpoena?
    Mr. Sheridan. She only advised us that there was a 
subpoena, advised myself--well, I was there, I was present. 
That is all I recall, that there was a Senate subpoena. I have 
never seen a Senate subpoena to this day.
    Senator Lieberman. So to the best of your recollection, she 
did not say that she did not want to base the search warrant on 
Ms. Mapili's destroying documents responsive to the Senate 
subpoena?
    Mr. Sheridan. That is correct.
    Senator Lieberman. Just to clarify for a moment, did any of 
the other of the three of you at the table, besides Agent 
Sheridan, have any personal conversations with Ms. Ingersoll or 
other task force attorneys about the Senate subpoena? I mean, 
obviously, this is of genuine concern to us.
    Ms. Parker. Only the conversation that I had previously 
relayed, which was July 29, and when Jonathan Biran and I 
talked again about possibly resurrecting the search warrant, 
and that is when I was told that there was slim to non-existent 
PC, and that we would not take into consideration the 
Presidential Legal Expense Trust issues or the possible 
violation of the Senate subpoena.
    Now, I know that one of the issues, now that I am thinking 
about it, that actually came up was whether there would be 
obstruction, considering the Senate subpoena had been served in 
like March, and whether there would be an issue of continuing 
obstruction had she already made production to the Committee. I 
do remember that being an issue.
    Senator Lieberman. Agent Wehr, did you have direct 
conversations at any point with Ms. Ingersoll or any of the 
other task force attorneys about the Senate subpoena?
    Mr. Wehr. No, not on the Senate subpoena, on other issues, 
yes.
    Senator Lieberman. Mr. Smith, in this memo of August 4, 
1997 that you sent to Director Freeh,\1\ I did want to--
incidentally, I did want to ask you whether you ever received a 
response from Director Freeh to the memo?
---------------------------------------------------------------------------
    \1\ The Memo referred to appears in the Appendix on page 105.
---------------------------------------------------------------------------
    Mr. Smith. Not directly.
    Senator Lieberman. Did you get it from anybody else?
    Mr. Smith. I was told by someone--and frankly, I do not 
recall exactly who told me--that he had used the specific 
incidents that I outlined in my memo to discuss the matter with 
the Attorney General, which led to the bringing in of Chuck 
LaBella.
    Senator Lieberman. OK. I want to get back to this point 
about the Senate subpoena, because on page 4 of that memo of 
yours to Director Freeh you say--and I quote--``Further, while 
clearly within the parameters of the Senate committee 
subpoenas, she''--that's Ms. Ingersoll--``has, I'm told, 
indicated she does not intend to refer this information to the 
Senate, though it appears Mapili has withheld documents from 
the Senate committee.''
    So my question is: Where did you get that information?
    Mr. Smith. This would have been relayed to me by one of the 
agents here.
    Senator Lieberman. Do any of you remember relaying that 
information?
    Mr. Sheridan. Could you repeat that, sir?
    Senator Lieberman. Well, Mr. Smith says in the memo to 
Director Freeh, ``Further, while clearly within the parameters 
of Senate committee subpoenas, she has, I'm told, indicated she 
does not intend to refer this information to the Senate, though 
it appears Mapili has withheld documents from the Senate 
committee.''
    Might you have said something to Mr. Smith that led him to 
reach that conclusion?
    Mr. Sheridan. I do not recall that specifically. My only 
conversation in that time period with Mr. Smith was on July 2, 
at some point after the search and subsequent car stop were 
terminated, and advised him of the issues in Washington, DC and 
why we did not have probable cause and whatnot, but nothing, I 
do not think, that----
    Senator Lieberman. Agent Wehr.
    Mr. Wehr. Yes, I had discussions with Mr. Smith regarding 
the Senate subpoena. In fact, I had seen a copy of it before 
July 2. And I came into possession of that subpoena. I had 
requested, for a long period of time during the investigation, 
a subpoena for--I believe it is called the Economic Development 
Authority for the State of Arkansas--and the Senate had already 
subpoenaed that State agency before I had, and they had a copy 
of that Senate subpoena in those records when we subpoenaed 
them. So I actually had a copy of the Senate subpoena, and I 
was under the impression at the time, or I concluded, based on 
what I had seen from the trash covers, that the documents 
recovered from the trash were responsive to that subpoena.
    Senator Lieberman. But you had never talked to Ms. 
Ingersoll about what her motivations were regarding the 
subpoena, the Senate subpoena?
    Mr. Wehr. No, sir, I did not.
    Senator Lieberman. Had you talked to any of the other 
agents about that?
    Mr. Wehr. Well, I knew that they had had discussions with 
Laura Ingersoll, but I did not know the exact nature of those 
discussions. I knew the topics that were discussed and the 
outcome.
    Senator Lieberman. Might it be possible, Agent Wehr, that 
you had told Mr. Smith that Ms. Ingersoll made this statement 
about not telling the Senate? Because this is----
    Mr. Wehr. No.
    Senator Lieberman. This is personal, because we were 
involved in this, and we are very troubled about the 
implications for our subpoena, and Mr. Smith's statement is--
though he makes clear that this is not based on--I mean, you 
used the word, ``I am told.''
    Mr. Smith. Yes.
    Senator Lieberman. You did not say that you had heard that 
directly. I want to try to trace back what the source of that 
statement in Mr. Smith's memo was.
    Mr. Wehr. There were extensive discussions between Mr. 
Smith, myself and Roberta Parker regarding these issues, but I 
do not recall telling Mr. Smith or even receiving information 
about Laura Ingersoll's opinion on--I take that back. I did 
receive information from, I believe, Roberta Parker, about the 
outcome, in other words, Laura Ingersoll's opinion about the 
Senate subpoena.
    Senator Lieberman. Agent Parker, let me just come back to 
you and give you another opportunity. Is it possible that 
something that you had said either to Agent Wehr or Mr. Smith 
might have led to this statement that Mr. Smith makes, that 
Laura Ingersoll, he is told, indicated she does not intend to 
refer this information to the Senate, though it appears Ms. 
Mapili has withheld documents to the Senate committee?
    Ms. Parker. I have no idea. I know I did not state that. I 
will say that there was a memo that was actually a FBI memo, 
talking about that if the Senate investigators call in for 
information, to talk to any of the agents, that because of 
grand jury considerations and because of the secrecy of an 
ongoing criminal proceeding, that we were not able to say 
anything to them. I know that that electronic communication 
actually did go out to Little Rock and it was also in our 
office. So I do not know exactly. Maybe that was a melding of 
issues.
    Senator Lieberman. OK. I am left a bit uncertain then about 
the basis of the statement in the memo, which, again, as I 
say----
    Chairman Thompson. So not only, as I take it, was the 
Department of Justice not going to allow the FBI to do anything 
about the obstruction of documents that we subpoenaed, but they 
were going to be prohibited from telling us of the fact that 
our documents were being destroyed, according to that memo?
    Senator Lieberman. Yes, that is the question. I mean, that 
is very serious, and the question was, what was the basis of 
that conclusion?
    Ms. Parker. Well, let me say in rebuttal to that, that once 
we executed the search warrant on October 23 and had indeed 
determined that she was obstructing the Senate subpoena, the 
House subpoena, and also our grand jury subpoena, that 
Department of Justice made the determination at that particular 
point in time to turn over all of the documents to you, so you 
all could----
    Senator Lieberman. Right.
    Chairman Thompson. It was only 4 months late, yes.
    Mr. Smith. Senator, I do not recall exactly the basis--I 
mean who told me, but at that particular time I was in 
virtually daily contact with Mr. Lampinski, with Laura 
Laughlin, and certainly with Agent Wehr, so I wish I could tell 
you exactly who relayed this information to me.
    Senator Lieberman. That is important, that it may have come 
from Mr. Lampinski or Ms. Laughlin, both of whom were FBI 
personnel assigned to the task force; am I right?
    Mr. Smith. That is right. They were the managers at the 
task force, and I was in virtually daily contact with them 
during this intense time.
    Senator Lieberman. Yes. Let me just mention again, 
consistent with what I did a little bit earlier on the subpoena 
question, based on what Ms. Ingersoll has said to our staff--
obviously, she denies the suggestion in the memo--well, she 
says first she cannot imagine having said that, and then that 
she does not recall even knowing about the Senate subpoena 
until later in July, and that when she was aware of the 
destruction of the Senate subpoenaed evidence in the Georgie 
Kronenberg case, which is another related matter, she told our 
Committee staff about it.
    I wanted to mention that in summary, and ask any of you 
whether you have any response to that?
    Mr. Wehr. Could you repeat the question, please?
    Senator Lieberman. Well, the question basically is just to 
try to summarize what I gather was Ms. Ingersoll's testimony to 
our staff, about this whole question of withholding information 
from the Senate. And she says she cannot imagine ever having 
said that, which is what--that is what is in Mr. Smith's memo--
that she does not even recall knowing about the Senate subpoena 
until later in July, and then she cites this other example of 
destruction of Senate subpoenaed evidence in another related 
case, not this one, the Kronenberg case, and she says in that 
case she told our Committee staff immediately about it. So that 
is going to be, I gather, her response, and I was just 
wondering whether any of you would like to respond to that 
before you leave the stand?
    Mr. Smith. Well, I can assure you that I was well aware of 
the potential firestorm that would occur after I wrote my memo 
because it was being very critical of the Department, and I 
wrote that memorandum very carefully to make sure that it was 
absolutely correct. This was not something that I pulled from 
the air just to raise the ante on my memorandum.
    Senator Lieberman. Agent Sheridan.
    Mr. Sheridan. I was aware, as I stated previously, after 
the first trash cover that there was a Senate subpoena. I was 
advised of that by Laura Ingersoll. And that was the basis 
for----
    Senator Lieberman. What date might that have been?
    Ms. Parker. June 24 was the first trash cover.
    Senator Lieberman. So, if my staff heard Ms. Ingersoll's 
testimony or response to her in which they believe she said 
that she didn't know about the Senate subpoena until later in 
July, then your recollection is that you had an earlier 
conversation with her about it?
    Mr. Sheridan. Yes, sir. That would be my only way of 
knowing that that subpoena was served. My involvement, as I 
stated before, after July 2 became minimal regarding the Trie 
task force. I knew about it prior and that was the basis in my 
recollection as to why we served a grand jury subpoena on Ms. 
Mapili.
    There was a concession, as I understood it, that we didn't 
need to serve a grand jury subpoena to conduct a search of 
those residences in Little Rock. But we felt we had to do that 
at the time that went forward and then we waited until the 
subsequent trash cover where, again, we found documentation 
for----
    Chairman Thompson. Excuse me. Is what you are saying that 
because you knew that this Committee had served a subpoena, it 
became part of your thinking that you would serve a subpoena 
for information too?
    Mr. Sheridan. Not my thinking. We wanted to conduct 
searches of those residences in late June.
    Chairman Thompson. But they wouldn't let you do that.
    Mr. Sheridan. That is correct.
    Chairman Thompson. So, your fall-back was a subpoena, 
right?
    Mr. Sheridan. That was the impression, as I understood it.
    Chairman Thompson. Did I understand you to say that in 
deciding what to do about the subpoena part of your thinking 
was based on the fact that this Committee had already 
subpoenaed those documents or similar documents, is that what 
you said? If that is not what you said, then I don't want to 
put words in your mouth.
    Mr. Sheridan. No. As I stated previously, that there were 
some legal issues that were floating around as to if we can--we 
know that we have a trash cover. We have documents that are 
being destroyed. We know that the Senate has a subpoena. Do we 
have to report that? I don't know the answer to that, I didn't 
know it then.
    Chairman Thompson. All right. Well, I think that answers my 
question.
    Excuse me, Senator.
    Senator Lieberman. No. That is fine.
    Let me just go now briefly to the disappearing notes which 
obviously is troubling and, again, that you didn't discover Ms. 
Parker's notes, those, until a little more than a month ago?
    Ms. Parker. That is correct.
    Senator Lieberman. And you had--I am just trying to find 
the trail here--you indicated today that you had given these 
notebooks to Special Agent Corpening----
    Ms. Parker. Correct.
    Senator Lieberman [continuing]. Who was an FBI agent 
working with the task force?
    Ms. Parker. Right. He's a supervisor there.
    Senator Lieberman. And then you received them back from--I 
am sorry, I forgot the name.
    Ms. Parker. Certainly. C.S. Kim.
    Senator Lieberman. C.S. Kim, another Special Agent of the 
FBI.
    Ms. Parker. Correct.
    Senator Lieberman. After how long a period of time did you 
receive them back?
    Ms. Parker. I provided those sometime in June, mid-June, 
1999, to Special Agent Corpening and then I received the first 
section of my notes back in early August. I advised C.S. Kim 
that there were still additional notes that I had turned over 
to Supervisor Corpening, and that is when he, the next day, 
brought me the rest of all the notes and the documents and 
records that I had provided.
    Senator Lieberman. So, they were with the task force for a 
couple of months?
    Ms. Parker. That is correct.
    Senator Lieberman. Do you have a recollection--I am sorry 
if I missed this question from the Chairman--that the three 
notebooks were in tact when you turned them over to Special 
Agent Corpening? In other words, that all of the material was 
in there?
    Ms. Parker. Yes, it was.
    Senator Lieberman. You do?
    Ms. Parker. Yes.
    Senator Lieberman. Because you went over them?
    Ms. Parker. I was the FBI witness at the Charlie Trie trial 
in Little Rock----
    Senator Lieberman. And when was that, just for the record?
    Ms. Parker [continuing]. Which was May 17----
    Senator Lieberman. Of this year?
    Ms. Parker. Of 1999. Correct.
    Senator Lieberman. Right.
    Ms. Parker. And for 2 months prior to that, I reviewed all 
of my notes, a variety of memos, communications in order to 
prepare for that trial.
    Senator Lieberman. Right.
    Ms. Parker. I prepared a chronology on the obstruction of 
justice so that I could refer to it to prepare for the trial. 
And what I did was I utilized my notes and other documents in 
order to prepare that chronology.
    So, for example, the conversations that I had with Special 
Agent Wehr concerning the trash covers, I put in the date of 
the trash covers, what my conversations were, the date of when 
we attempted to serve subpoenas on people, etc.
    The day that we had conversations concerning the probable 
cause, etc.
    Senator Lieberman. Well, that is very--oh, I am sorry.
    Ms. Parker. Oh, yes. And what I did was I wanted to make 
sure that I had everything in that chronology to prepare for 
trial.
    Senator Lieberman. OK. I would say that is very important 
because we are talking about notes that were taken about 2 
years earlier.
    Ms. Parker. That is correct.
    Senator Lieberman. So, you knew certainly, at least at the 
middle of May of this year, that the notes that were not there 
in August were there in your notebook?
    Ms. Parker. That is correct.
    Senator Lieberman. Do you know at all what the--I mean once 
you--I presumed you asked about this after you found these 
notes were gone and you got the books back in August--do you 
have any sense of what the trail of possession of the notebooks 
was between the time that you gave them to Agent Corpening and 
got them back from Agent Kim?
    Ms. Parker. I tried to determine that and I will say as an 
aside that there is an internal investigation going on now into 
where the notes are.
    Senator Lieberman. Right.
    Ms. Parker. But, I, myself, attempted to locate them and I 
asked Special Agent Corpening. He advised that he brought them 
down to his office and put them in his office. He was on 
vacation for, I guess, a Friday; was gone for the weekend; 
attempted to review the notes the following week and he advised 
that the notes for that particular period of time were not in 
the notebook when he went to review the notes.
    Senator Lieberman. And that would have been?
    Ms. Parker. Once again, he didn't really have specific 
dates. Sometime mid-June, mid-to-late-June.
    Senator Lieberman. Is it fair to say that the notebooks 
were at some point in the possession of the Department of 
Justice personnel on the task force or were they----
    Ms. Parker. I have no knowledge of that.
    Senator Lieberman. You don't know that.
    Ms. Parker. I have no knowledge.
    Senator Lieberman. And who is conducting the internal 
investigation of this matter?
    Ms. Parker. Our office of OPR--Office of Professional 
Responsibility.
    Senator Lieberman. OK. Thank you.
    I guess a final question really--and, in some sense just 
for the record, none of you have made this allegation, 
although, Mr. Smith, you and I talked about the sort of 
political overlay to this--but there may be some who feel that 
decisions were made on some of these matters in the Department 
of Justice for political reasons.
    And I just wanted to ask you, each of you, just go down the 
table, whether there was ever in your dealings with personnel 
at the Justice Department whether you have any evidence to 
present or whether anything was ever said by anybody at Justice 
to lead you to the conclusion that some of the judgments made 
here, on the application for the search warrant, etc., were 
based on political considerations, because this matter, 
obviously, concerned the President of the United States and 
other members of the administration?
    Mr. Smith. None.
    Senator Lieberman. Agent Wehr.
    Mr. Wehr. Well, I had discussions with Laura Laughlin at 
the campaign finance task force headquarters during the course 
of one of our joint meetings and I believe it was in May 1997, 
and I was concerned about the appearance of, based on 
information that had been presented, people were exchanging 
evidence, there was reason to believe that solicitations were 
made for campaign funds in the White House in the presence of 
the President and these were made to foreign contributors. And 
to me, that appeared to be a violation of several laws.
    And I was told by Laura Laughlin that we would not pursue 
any matter relating to the solicitation or payment of funds for 
access to the Presidency.
    Senator Lieberman. Were reasons given?
    Mr. Wehr. The reason given to me was that that is the way 
the American political process works and I was scandalized by 
that answer.
    Senator Lieberman. Well, so were a lot of us. I think, Mr. 
Chairman, we may want to speak to----
    Mr. Wehr. I am sorry, not Laura Laughlin, it is Laura 
Ingersoll. I misspoke. Laura Ingersoll.
    Senator Lieberman. OK.
    Well, we will ask Ms. Ingersoll her recollection of that 
conversation and, obviously, her reasons for stating it, 
whether they were legal or whether they were political.
    Do you have anything else you want to add to that?
    Mr. Wehr. No.
    Senator Lieberman. Thank you.
    Agent Sheridan.
    Mr. Sheridan. Yes, sir. I felt we had many stumbling blocks 
in this investigation while I was there, but I have no evidence 
at this time to believe that there was anything politically 
motivated, just frustrations in the investigation that we have 
already talked about.
    Senator Lieberman. Thank you.
    Agent Parker.
    Ms. Parker. I would concur with what Special Agent Sheridan 
just said. And also say that the stumbling blocks were not only 
during Ms. Ingersoll's time at CAMPCON, but actually extended 
past that particular point in time.
    However, I have no indication, on one ever mentioned 
anything to me that we are not pursuing these issues because 
there was a political agenda.
    Senator Lieberman. Thank you. Thank you all for your 
cooperation. Thanks, Mr. Chairman.
    Chairman Thompson. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, I want to thank our witnesses for your very 
straightforward and frank answers to the questions that we have 
asked. This administration has a pattern of retaliating against 
civil servants who cooperate with congressional investigators. 
I am thinking of Mr. LaBella, and I am thinking of 
whistleblowers at the Department of Energy. And I think it is 
very important, Mr. Chairman, that this Committee send a very 
strong, unmistakable signal to the Department of Justice and to 
the Attorney General that we will absolutely not tolerate any 
sort of retribution or retaliation against the witnesses who 
have come before us and answered our questions so very frankly 
today.
    And I think that is----
    Chairman Thompson. Absolutely.
    Senator Collins [continuing]. Very important for us to get 
on the record.
    Mr. Smith, you have been with the FBI for 25 years. In 
fact, all of you have had long careers in law enforcement; two 
of you are attorneys. In your experience, Mr. Smith, were the 
kinds of obstacles, second-guessing, increased scrutiny, the 
level of review of every decision that you were making in this 
investigation unusual?
    Mr. Smith. Highly unusual.
    Senator Collins. In fact, is it unusual for the Justice 
Department to review your requests to interview a witness or to 
issue a search warrant? Is it unusual for them to deny those 
kinds of requests?
    Mr. Smith. Well, a lot of the search warrant requests 
certainly have to receive the departmental review and this is 
fine. The micro-managing of the investigation of the cases, 
themselves, as I indicated is something of a kind of a trend 
that I see that is occurring that is unhealthy.
    There are very well defined roles for prosecutors to play. 
Determining if there is probable cause, for example. But the 
course of an investigation and particularly when it has the 
results of impeding investigative initiatives--a lot of times 
when you are conducting an investigation, the timeliness of it, 
and the rhythm that one has to get into, is very critical to a 
successful investigation.
    This micro-managing of who could be interviewed and what 
they could be interviewed for and things like this was highly 
unusual and it is detrimental to resolving the matter.
    Senator Collins. And it did, in fact, impede your ability 
to gather the evidence that you needed?
    Mr. Smith. Well, there is no doubt in my mind. A good 
example was an individual that we felt could be interviewed 
involving principals of this investigation. I think we made a 
request and somewhere around April 1997 and then 3 months later 
the request still had not been approved.
    But, as I recall, someone from the--an agent assigned to 
the Senate investigation had run through that and several other 
interviews, that we were waiting for approval to occur.
    Senator Collins. Was that Keshi Zhan? Is that the person to 
whom you are referring?
    Mr. Smith. I don't think so.
    Senator Collins. It is my understanding that that was 
another example of where the Department of Justice refused 
permission and this witness disappeared the next day. Is that 
correct?
    Mr. Smith. I am familiar with that but this was not the one 
that I am referring to.
    Senator Collins. OK.
    Ms. Parker, I don't know whether you are familiar with an 
E-mail that Laura Ingersoll sent to other Department of Justice 
attorneys about the whole issue of the Department refusing to 
approve the issuance of the search warrant. But let me read you 
a key sentence from it.
    Ms. Ingersoll says, the Bureau was very, very keen on doing 
these searches but in the end after much discussion the case 
agent and Ms. Laughlin conceded that there was no PC, probable 
cause, for either.
    Is that a correct assessment of what occurred?
    Ms. Parker. I certainly never took the position that there 
was no probable cause. I have always felt that, I continued to 
feel that up to the day that we did, indeed, execute the search 
warrant on Mr. Trie's residence.
    Senator Collins. And you were the case agent to whom this 
E-mail refers?
    Ms. Parker. Actually I believe she may have been referring 
to Special Agent Sheridan since he was in that meeting with her 
and Laura Laughlin.
    Senator Collins. Mr. Sheridan, did your mind get changed by 
this meeting or did you still believe there was probable cause?
    Mr. Sheridan. I believed and still believe that there was 
probable cause.
    Senator Collins. Mr. Wehr, did you still believe that there 
was probable cause or was your mind changed in any way?
    Mr. Wehr. My mind was never changed and I did believe and 
believe today that there was probable cause for a search.
    Senator Collins. Mr. Smith, is that your opinion as well, 
that there was probable cause?
    Mr. Smith. Yes. But I would qualify that they noting that I 
didn't have the intimate knowledge of what was going to be 
contained in the affidavit.
    Senator Collins. You were less involved in this stage.
    It concerns me very much to have this E-mail where Laura 
Ingersoll is saying that the FBI agents who were intimately 
involved essentially folded when, in fact, all of you are 
telling us that you still thought that there was probable 
cause. And that is something we intend to ask her about.
    In the E-mail Laura Ingersoll goes on to say, that we, 
attorneys, were as keen as the agents to make it happen but the 
evidence simply wasn't there.
    Mr. Wehr, wasn't the evidence there as a result of the 
trash covers, the shredded documents that you were finding?
    Mr. Wehr. I believe there was evidence there and 
substantial evidence. It turned out that belief was true.
    Senator Collins. And, indeed, you sought permission to stop 
what appeared to be the removal of boxes from Mr. Trie's--I am 
uncertain whether it was his residence or his house--because of 
your concern that further evidence was being moved or 
destroyed; is that correct?
    Mr. Wehr. That is correct.
    Senator Collins. And was that part of your basis for 
believing that there was probable cause to go forward with the 
search warrant?
    Mr. Wehr. Well, I believe probable cause existed before 
that incident. So, I don't know that that had an effect or not.
    Senator Collins. So, if anything, that would have 
reinforced your belief that we needed to have the----
    Mr. Wehr. Oh, yes. We observed evidence--well, we observed 
boxes being taken out of the residence.
    Senator Collins. Did Laura Ingersoll ever express to any of 
you concern that you were losing valuable evidence, that 
evidence was being destroyed. that evidence was being removed 
that might impede the investigation that you were undertaking 
or the investigation of this Committee? Did she ever, when you 
went to her with this evidence, when you asked for the search 
warrant to be issued, did she ever indicate any sense of 
urgency or any concern about a loss of key evidence, Ms. 
Parker?
    Ms. Parker. At the one point in time where she indicated 
that we should serve a grand jury subpoena on Maria Mapili, 
there was an indication that she was concerned about the loss 
of evidence. That was my only recollection concerning that.
    Senator Collins. But with regard to the issuance of the 
search warrants, even though you brought this information, she 
did not express any concern about that?
    Ms. Parker. Not that I recall.
    Senator Collins. Mr. Sheridan, is that your memory, as 
well?
    Mr. Sheridan. I really have no recollection of that either 
way.
    Senator Collins. Mr. Wehr.
    Mr. Wehr. I was not privy to any conversations like that.
    Senator Collins. Mr. Smith, I think you were not involved 
in this part.
    Mr. Smith. I was not involved.
    Senator Collins. Mr. Wehr--or I am not certain who the 
appropriate person to answer this question is, so, if it is 
someone else, please, speak up. Was the search warrant 
eventually issued?
    Ms. Parker. Yes.
    Senator Collins. And did that happen after Mr. LaBella 
replaced Ms. Ingersoll as the head of the task force?
    Ms. Parker. Yes. It occurred October 23, 1997.
    Senator Collins. I must say, Mr. Chairman, that I think it 
is hard to imagine a set of facts that cried out more for the 
appointment of a special prosecutor or an independent counsel 
to work with these agents than these facts.
    Ms. Parker, you have never gotten your 27 pages of missing 
notes back; is that correct? I just want to be clear on that.
    Ms. Parker. That is correct. They are still looking for 
them.
    Senator Collins. And this Committee, I believe, Mr. 
Chairman, has never received the 27 pages of notes?
    Chairman Thompson. That is correct.
    Senator Collins. As well as we already have on the record 
that the House committee did not, as well.
    Now, these were in a spiral notebook such as the one you 
have before us. So, it is difficult for me to understand how 
these key pages were accidentally removed. In fact, I must say, 
the 27 missing pages brings to mind another infamous deletion 
and that is the 18-minute gap of the tapes during Watergate. 
Can you think of any way that just those pages could have 
fallen out? Were they loose when you gave them to the 
Department of Justice, or were they bound in the spiral just 
the way the rest of the notebook was?
    Ms. Parker. No. They were actually bound in the spiral 
notebook. I have no idea. There is no way that they could have 
fallen out. The only thing that I could think of was possibly 
somebody was going to copy them and stuffed them in a desk 
drawer but I really don't have any knowledge whatsoever.
    Senator Collins. When your notebooks were returned to you, 
were there any other pages that were removed or just this one 
section?
    Ms. Parker. It appears that it is just the one section.
    Senator Collins. I must say, Mr. Chairman, that that really 
raises very grave concerns in my mind about whether or not 
someone at the Department of Justice was trying to withhold 
information that was very critical to this Committee and to the 
House committee investigation.
    Again, I want to thank you very much for your cooperation 
with the Committee and we will be pursuing these issues.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, Mr. Smith, I have some questions of you about the 
memo that you wrote to Mr. Freeh.
    Mr. Smith. Yes, sir.
    Senator Levin. Dated August 4, 1997.
    Mr. Smith. Yes, sir.
    Senator Levin. You set forth many of the problems that you 
had with the Department of Justice treatment of the material 
which was provided to them. You set forth a number of 
conversations in this memo to Lou Freeh that you had had with 
Ms. Ingersoll. You talked about the trash covers that produced 
relevant documents and that Special Agent Parker renewed her 
efforts to get a search warrant approved by Ms. Ingersoll which 
were ongoing, that Ms. Ingersoll demanded probable cause to 
convict before approving a search warrant.
    You described in great detail the increasing amount of 
frustration by the working street agents that were engaged in 
this matter. Quoting the best I can from this memo, it is about 
a five-page memo.
    Did you ever talk to Mr. Freeh after you wrote him this 
memo and ask him whether or not he pursued this with the 
Department of Justice?
    Mr. Smith. I think I testified before you came in, Senator, 
that I was told--and frankly I don't recall who told me--that 
he had used this memorandum in part because it had very 
specific examples that he could relate to the Attorney General 
that led to the bringing in of Mr. LaBella.
    Let me correct one thing, if I may, Senator.
    Senator Levin. Sure.
    Mr. Smith. I was not having direct conversations with Ms. 
Ingersoll. The information was being relayed to me by some of 
the agents that are here.
    Senator Levin. I see. But the memo does say that Department 
of Justice attorney Laura Ingersoll withdrew her approval. You 
make that reference.
    Mr. Smith. Yes.
    Senator Levin. And you are pointing out you have problems 
with what was going on. I mean this is five pages of problems 
to the Director of the Federal Bureau of Investigation. Now, my 
question to you is, do you know whether or not he pressed the 
Department--other than what you said relative to that this may 
have been involved in a conversation relative to a change? Do 
you know whether these specific complaints were brought to the 
attention of the Department of Justice by Mr. Freeh so that he 
could correct these?
    Mr. Smith. Yes. I have no personal knowledge and, like I 
say, it was only because of a conversation that someone related 
to me and in all candor I had only received the same redacted 
copy, that I am assuming you have, yesterday afternoon.
    I did note that there is a note in the margin there and it 
says, ``To B.E. Bryant'' and I am assuming he means Bob Bryant, 
the current deputy director, and to Larry Parkinson, ``L. 
Parkinson'', please discuss and take steps to address 
immediately. Let me know if I need to get involved. And his 
initials.
    So, he at least acted on it in that manner. I can't speak 
for what he said to the Attorney General or anything like that.
    Senator Levin. All right.
    Mr. Chairman, I would hope that we, if we haven't already, 
would ask Director Freeh to tell us what action he took, if 
any, following the receipt of this document. I think it would 
help to complete the record if the Committee would be willing 
to ask the FBI Director that question, because this is a very 
detailed memo that was sent to the Director. And I think it is 
important that we find out what action, if any, the FBI took 
when it received this kind of a document from its agents.
    So, I am not asking you that; I am asking our Chairman 
this.
    Chairman Thompson. I think we will take that under 
consideration, certainly.
    Senator Levin. All right.
    Chairman Thompson. I think there will be a lot of other 
witnesses we are going to want to talk to before this is over.
    Mr. Smith. Senator Levin, when I talked to the Director 
after I had placed a call to him one afternoon and we talked 
the next morning, he expressed obvious concern about what was 
occurring. And, in particular, that part because of the 
frustration that I saw dealing with the Special Agents because 
he has a great affinity for the welfare of the Special Agents. 
And that was why he asked me if I would put this on a 
memorandum to his personal attention.
    Senator Levin. In your memorandum, you recommended to Mr. 
Freeh, ``I would recommend that you meet specifically with 
investigators who I suspect are prepared to provide details 
that provide the basis that they have for the lack of 
confidence and the public integrity's handling of this 
investigation.''
    That is on the final page.
    Mr. Smith. Yes, sir.
    Senator Levin. Did he meet with the investigators, as you 
recommended?
    Mr. Smith. I don't recall if he did or not.
    Senator Levin. Would you know if he did?
    Wouldn't you have gotten word if he had?
    Mr. Smith. I would have probably gotten word through the 
investigators.
    Senator Levin. Did you receive such word?
    Mr. Smith. I don't recall receiving that word and I am--
perhaps they may be in a position to tell you if he did meet 
with them.
    Senator Levin. All right.
    Anybody here know whether he or she met with any of the 
investigators as recommended by Mr. Smith?
    Ms. Parker. He never met with me or, to the best of my 
knowledge, anyone on this panel.
    Mr. Sheridan. That is correct.
    Mr. Wehr. I did not meet the Director on this issue.
    Senator Levin. All right.
    Now, after you made the recommendation to Mr. Freeh which 
he didn't follow, we have another paragraph here, which is that 
``I am well aware of such matters as prosecutive discretion.''
    Mr. Smith. Yes, sir.
    Senator Levin. ``But I am convinced that the team at the 
Department of Justice leading this investigation is, at best, 
simply not up to the task. Frankly,'' and this is what I am 
interested in asking you about, ``I base this conclusion not 
only on the CAMPCON matter but other investigations Public 
Integrity has handled from their office due to recusals from 
the U.S. Attorneys. The impression left is the emphasis on how 
not to prosecute matters, not how to aggressively conduct 
investigations leading to prosecutions.''
    Mr. Smith. Yes, sir.
    Senator Levin. So, that before this particular set of 
events, which we are describing and looking into, you had your 
own beliefs that the Department of Justice Public Integrity 
Section has not acted aggressively; is that fair?
    Mr. Smith. And that would be based on specific examples, 
yes, sir.
    Senator Levin. Previous examples to these events?
    Mr. Smith. Yes, sir.
    Senator Levin. How many such examples were there in your 
experience? Were there a couple, two, three, four, or five?
    Mr. Smith. I would suspect somewhere around that number, 
the latter.
    Yes, I would leave it at that at this time.
    Senator Levin. So, four or five examples? Give us an 
estimate. I am not trying to pin down a number precisely.
    Mr. Smith. I don't recall exactly how many cases that the 
Department was handling because the U.S. Attorney's tendency 
was to recuse virtually anything.
    So, consequently--and this hampers investigations because 
you have investigators that aren't in a position to deal 
directly with the potential prosecutors and things of this 
nature. So, consequently, we were referring stuff through the 
Department, it would have to go through FBI headquarters and 
then they would pass it over to the Department and the lines of 
communication were seldom direct as you would expect in a 
normal prosecution.
    And, so, I recall a couple of investigations that this was 
occurring where I thought that the Department seemed to be 
looking for ways not to investigate the matter as opposed to 
pursuing it aggressively.
    Senator Levin. On this memo one of the questions at the top 
line says, ``precedence'' and then it says, ``routine.''
    Mr. Smith. Yes, sir.
    Senator Levin. Was this routine in your judgment?
    Mr. Smith. No. This is electronically communicated to the 
Director's office immediately and so this is not like it was 
thrown in third class postage and forwarded up there.
    Senator Levin. In your interview with the Committee staff, 
you indicated that you also had a lack of confidence in Neil 
Gallagher. Could you tell us what that was based on?
    Mr. Smith. Good examples of where, there again, in these 
public corruption type of investigations I thought he--as I 
indicated there, again, perhaps before you came in, there are 
those who investigate to resolve issues and then there are 
those who investigate to avoid getting in trouble.
    And I was of the opinion that he fell in the latter 
category as related to these. And there, again, I have specific 
examples of that.
    Now, I thought another thing, frankly, is that one of the 
things that I thought was good when Jim DiSarno came in to take 
over the investigation if, for no other reason, he had direct 
access to the newly named deputy director Bob Bryant, where I 
was of the impression that a lot of the information that was 
going up to the director and perhaps the deputy director--I 
think Weldon Kennedy was there some of the time--was being 
filtered. And because I would say the tendency I thought of Mr. 
Gallagher--and he and I are Bureau classmates--was to be very, 
very conservative and I base that on other incidents in this 
area, not only this case.
    Senator Levin. Now, was he your superior?
    Mr. Smith. Well, I guess on a--I wouldn't view that that 
way because I----
    Senator Levin. Mr. Gallagher was not your superior?
    Mr. Smith. Well, as a Special Agent in Charge we view 
ourselves as working more so for the Director not as opposed to 
the deputy assistant director, though he was in charge of 
public corruption matters in the criminal division at 
headquarters.
    Senator Levin. Right.
    And did you also have a problem with Jeff Lampinski?
    Mr. Smith. Well, Mr. Lampinski was Mr. Gallagher's boy. Mr. 
Gallagher had appointed him into that position because of a 
previous relationship in a field office. I think Mr. Lampinski 
had worked for him or something like that as well and I thought 
it was really unfair to Mr. Lampinski, who as a young fellow 
who wanted to have a career ahead of him, to put him in this 
catbird seat.
    Senator Levin. Agent Sheridan, let me ask you a couple of 
questions. You were working in Washington with Special Agent 
Parker, I believe; is that correct, the two of you?
    Mr. Sheridan. I was assigned to the Washington Field 
Office, but Agent Parker was assigned to Baltimore.
    Senator Levin. Was assigned where?
    Mr. Sheridan. Baltimore.
    Ms. Parker. The Baltimore division.
    Senator Levin. Apparently you told our staff that you were 
never told not to follow leads, is that correct?
    Mr. Sheridan. That is correct.
    Senator Levin. And that sometimes Mr. Wehr might initiate 
some steps on his own but that that was not for him to do, it 
was for you and Agent Parker to be initiating the leads and for 
him to follow them up, is that correct?
    Mr. Sheridan. That is not the way I said it but Agent----
    Senator Levin. Well, what was the relationship?
    Mr. Sheridan. Agent Wehr, as I was told when we started, 
was going to handle the Little Rock leads for us. We were 
working the CAMPCON investigation, specifically the Trie case, 
out of Washington, DC. In the beginning Agent Wehr, along with 
other agents in Little Rock, did extensive background work 
relating to Charlie Trie and his businesses and other aspects 
and we would call him or assign leads to him. That is the way 
we were, it was established as a matter of organization.
    At some point, in possibly March 1997, Agent Wehr was 
becoming aware of the Trie investigation but we, myself, Agent 
Parker, were also--we were very intimate with the Trie 
investigation in all facets, not just Little Rock. So, the 
reference where you say Agent Wehr was to only conduct leads 
that we directed him to do, there was a point where we did want 
to slow down one aspect of the case. We were working the 
President's Legal Expense Trust, initially. We didn't focus 
primarily on Charlie Trie in Little Rock.
    Senator Levin. Well, let me just maybe ask it this way, 
then. You were never told, however, not to follow leads, is 
that correct?
    Mr. Sheridan. Yes, that is correct.
    Senator Levin. OK. Let me ask Agent Parker a question.
    In that July 2 meeting where Ms. Ingersoll did not agree 
that there was probable cause for a search warrant, did your 
supervisor agree or disagree with Laura Ingersoll? And I 
understand your supervisor, correct me if I am wrong, was Laura 
Laughlin, is that correct?
    Ms. Parker. That is correct. I actually was not in that 
July 2 meeting.
    Senator Levin. I see.
    Ms. Parker. It was actually Special Agent Sheridan. I was 
actually winging my way to Little Rock.
    Senator Levin. I see.
    Do you know whether she did agree with Laura Ingersoll?
    Ms. Parker. I can say that upon my arrival in Little Rock I 
picked up Jonathan Biran from the airport and he and I 
discussed the fact the search warrant was off. That was when I 
learned that it had been called off and that Ms. Ingersoll said 
that it was Maria Mapili had retained W.H. Taylor as counsel. 
And that W.H. Taylor was going to make production of the grand 
jury records, records to the grand jury.
    Later in that day in Little Rock, Laura Laughlin actually 
flew out to Little Rock and I had an extensive conversation 
with her concerning the search warrant being called off. And 
she actually agreed with me that there was probable cause for 
the two search warrants, however, she felt that, once again, 
the prosecutor has the ultimate call in that matter. However, 
she and I did discuss the fact that there was probable cause 
for the search warrants.
    Senator Levin. And when she said that the prosecutor had 
the ultimate call in that matter, is it not also true that if 
she disagreed with the prosecutor that she could appeal that up 
the chain?
    Ms. Parker. That is correct. I don't know whether she did 
or not.
    Senator Levin. Finally, apparently Laura Ingersoll reached 
the conclusion that the PLET issues were not subject to 
criminal statutes, is that correct?
    Ms. Parker. That is correct.
    Senator Levin. And did you agree with that analysis?
    Ms. Parker. Yes, I did agree with that analysis.
    However, I thought that we could use evidence of Charlie 
Trie's attempt to use conduits in the PLET matter as 404(b) 
evidence at trial, to show a pattern of his conduct. However, 
at no point in time did anybody show me a legal statute that 
would have covered the Presidential Legal Expense Trust 
violations.
    Senator Levin. Was the Department of Justice, by the way, 
as involved in the investigation under Mr. LaBella as it was 
under Ms. Ingersoll?
    Ms. Parker. Yes, it was.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Is it not true that after Ms. Mapili's attorney turned over 
to you documents pursuant to the grand jury subpoena, that you 
continued to get documents out of the trash cover indicating 
that full compliance had not been had?
    Ms. Parker. Actually, we had two, I guess, three subsequent 
trash covers. However, I have to admit that the number of 
records diminished. So, I would say that we really didn't get 
any, too many further things out of those latter trash covers 
except possibly the PLET checks.
    Chairman Thompson. So, before June 29, compliance had 
supposedly been made by Mr. Taylor, right?
    Ms. Parker. Yes. It was made on July 8 or July 9.
    Chairman Thompson. July 8?
    Ms. Parker. July 8 or July 9, 1997.
    Chairman Thompson. Then June 29, you did another trash 
cover and you came up with PLET checks, which would not have 
been responsive to your subpoena but would have been responsive 
to our subpoena and you had that conversation.
    Ms. Parker. And actually they were responsive to our 
subpoena.
    Chairman Thompson. Oh, they were?
    Ms. Parker. Yes.
    Chairman Thompson. The PLET checks were?
    Ms. Parker. I am almost 100 percent sure. I would have to 
see the subpoena again.
    Chairman Thompson. All right.
    So, and then you had how many other trash covers after 
that?
    Ms. Parker. July 29, August 5 and August 19.
    Chairman Thompson. Reference has been made to interviews, 
staff interviews and we have had pretty extensive staff 
interviews of all those involved. I thought I might give you an 
opportunity, maybe a little preview. Mr. Radek--who, over at 
the Public Integrity Section, was supervising Ms. Ingersoll--
apparently said that the problem here is that the FBI was 
always pushing the envelope and forcing the Department of 
Justice to restrain them so that the FBI could complain to 
higher authorities about Ms. Ingersoll.
    In other words, you were trying to set Ms. Ingersoll up.
    Radek also said the Department of Justice allowed the FBI 
CAMPCON team to be more aggressive than normal precisely in 
order to appease them.
    He said, talking about the lack of action with regard to 
these destroyed documents, all and all Radek said he felt that 
``the FBI was going off half-baked'' and there was no 
``obstruction that required immediate action.'' I guess it was 
obstruction that didn't require immediate action.
    And that no important documents were being destroyed, and 
that he believed the agents investigating merely ``wanted to 
break down doors.''
    That is what the guy said who was back at the Justice 
Department calling the shots--we will talk to him and Ms. 
Ingersoll. I don't blame Ms. Ingersoll nearly as much as she 
probably thinks I do because I know why she was put there and 
know who was calling the shots. But here is the guy who is 
calling the shots talking about your motivations out in the 
field as to why you wanted to put a stop to this document 
destruction.
    You just wanted to break down doors, you were trying to 
basically set things up so you can complain against Ms. 
Ingersoll. And he actually gave you more leeway than ordinary 
just because you were so rambunctious.
    Mr. Smith, what do you think about that?
    Mr. Smith. To suggest that there was a nefarious plot on 
the part of the FBI to cause problems for Ms. Ingersoll is 
absolutely absurd. As far as the other, I would hate to think 
that anyone trying to investigate a complicated matter that had 
more restraints than this one did. I just can't imagine trying 
to investigate a matter in that environment.
    If this was one where we really got a lot of leeway because 
of we were making a lot of noise, I would hate to try to 
investigate one with less investigative flexibility.
    But the first suggestion that you made is just absolutely 
absurd, and, frankly, I find it patently offensive.
    Chairman Thompson. Any other comments anyone else would 
like to make?
    Ms. Parker. I would actually reiterate what Mr. Smith says. 
There was extensive control of this investigation by DOJ both 
before Ms. Ingersoll's tenure and after Ms. Ingersoll's tenure.
    I have been in the field 17 years and I have not seen that 
in any other situation. I have never been told how I should 
interview witnesses or when it is time to put somebody in the 
grand jury. So, quite frankly--and I am not a knocking-the-
door-down type of person. I have worked white collar crimes 
most of my life. I am not interested in doing that. I am only 
interested in making the case and finding the truth.
    Chairman Thompson. Well, let's talk about some of these 
non-Trie-related matters. We have spent a lot of time on this 
document destruction business and rightfully so and we are 
going to get to the bottom of that. But you mentioned other 
things, Mr. Smith, and in our interviews with the others, all 
of you talked about a pattern. It wasn't just Charlie Trie that 
caused you to write that memo. You talked about a pattern. Mr. 
Yaffe had the wrong standard for probable cause for issuing a 
subpoena. Ms. Ingersoll had the wrong standard for probable 
cause for issuing a search warrant.
    They either were stating it incorrectly or just didn't know 
better. And you have been in the field for many years--two of 
you are lawyers, of course--and knew better than that. But it 
looks like constantly everywhere along the line the standard 
being imposed apparently was higher than what the law required.
    Now, that gets back to your comments about some people 
trying to stay out of trouble and some people trying to find 
out things.
    Mr. Wehr, what about the PEN register business? You had a 
situation where you wanted to place a PEN register in a certain 
place before a subpoena was issued, as I understand it. Could 
you relate what happened there?
    Mr. Wehr. Yes.
    We wanted to start PEN registers on Maria Mapili and I 
don't remember the sequence in terms of when we made that 
decision but there was a decision made to place PEN registers 
on Maria Mapili's residence.
    Chairman Thompson. Had you started your trash covers at 
that point?
    Mr. Wehr. May I consult my notes here?
    [Pause.]
    Mr. Wehr. I don't have the exact date of the trash covers. 
I do know that----
    Chairman Thompson. June 24 is when you started.
    Mr. Wehr. June 24? Yes. They had started already. The trash 
covers had started already.
    Chairman Thompson. All right. You had already started your 
trash covers?
    Mr. Wehr. Yes.
    Chairman Thompson. Explain what a PEN register is, briefly?
    Mr. Wehr. A PEN register is a device that records the 
numbers pulsed to or from a telephone and the duration of the 
call or the duration of time that the receiver is off the hook.
    Chairman Thompson. All right. So, you wanted to find out 
who Ms. Mapili would be calling, right?
    Mr. Wehr. Yes.
    Chairman Thompson. And specifically you wanted to find out 
who she would be calling immediately after you served your 
subpoena?
    Mr. Wehr. Yes. And who would be calling her, as well.
    Chairman Thompson. And who would be calling her.
    So, what happened? Did you explain this to people at the 
Campaign task force?
    Mr. Wehr. Yes.
    Chairman Thompson. What happened?
    Mr. Wehr. And I believe we agreed on that plan at some 
point in time that we were going to have the PEN registers in 
place before the grand jury subpoena was going to be issued. 
And I am sorry I don't recall who told me or gave me the 
directive but I was told by telephone--I believe it was on or 
near June 26--the day that we actually served the subpoena on 
Maria Mapili, to do so. To go ahead and serve that subpoena 
prematurely.
    Chairman Thompson. Before you had a chance to install the 
PEN register?
    Mr. Wehr. Right. And, again, I don't recall the discussions 
I had with this person but typically I am not one to hold back 
in terms of my opinion about such things.
    And I thought that it was improvident to do so but we went 
ahead with those orders and we served the subpoena.
    Chairman Thompson. You objected but you followed orders?
    Mr. Wehr. Yes.
    Chairman Thompson. And went ahead and served the subpoena, 
even though you didn't have the PEN register set up and it 
would deprive you, obviously, of the opportunity to find out 
who she was calling and who was calling her right after the 
subpoena, is that correct? Is that the way you remember, Mr. 
Smith?
    Mr. Smith. Yes, sir.
    I remember it very well because as I recall I even called 
the task force myself to object to----
    Chairman Thompson. Called who?
    Mr. Smith. The task force, and I don't recall who I talked 
to, to object to this. And this is why the reference I made in 
my opening statement that kind of deprived us of the 
opportunity to determine exactly why the particular attorney 
that was totally out of character that he would even come down 
to Little Rock and certainly with all of the attorneys and 
stuff like this, why he was the one that was suddenly 
representing her.
    And I recall that the thing that you will serve this thing 
today without fail, one of those type things, where there was 
absolutely no need to--I mean this is a subpoena, subpoena 24 
hours----
    Chairman Thompson. So, even though you were telling them, 
please, let us wait until we get the PEN register set up so 
that we can determine who she calls and who calls her.
    Mr. Smith. Absolutely. The reaction to this is because----
    Chairman Thompson. This is the first affirmative, 
aggressive move I have heard out of the Campaign Task Force. I 
am glad to know there was one.
    And it was to instruct you to go ahead and serve that 
subpoena, even though they knew that it would deprive you of 
that investigative opportunity?
    Mr. Smith. That is right, because even at the time there 
were indications that knowing Ms. Mapili, one would have to 
think that she was not the person to make a decision to destroy 
documents and take the steps that she was doing in things of 
this nature. That she worked for Charlie Trie. She was his 
secretary or something there for a number of years leading up 
to this time. And the steps that she was taking, in my view, my 
considered opinion, were not steps that she would take in her 
own initiative. She was the type of individual that would be 
responding to direction.
    Chairman Thompson. And we found out, months later, she 
acknowledged just exactly that, didn't she?
    Mr. Smith. Well, I think that is correct. And, so, what we 
wanted to do is determine exactly what her reaction would be 
when she was served this subpoena. She should have been served 
anyway, but should have been served with this subpoena. And we 
were deprived of that opportunity to do so.
    And there was not, I can assure you, Senator, that it was 
not by just chance that W.H. Taylor happened to show up in 
Fayetteville. If you have ever been from Little Rock to 
Fayetteville, and you drive up the Pig Trail----
    Chairman Thompson. No. But I have always wanted to. 
[Laughter.]
    Mr. Smith [continuing]. There is, you just can't hardly get 
there from Little Rock and vice versa and it's not an easy 
drive. And here's a fellow that--he did not practice in Little 
Rock almost not at all. Most of his practice was in the Western 
district and him showing up down there was very much out of 
character and it was not just a coincidence in my view.
    Chairman Thompson. Did you try to find out who was paying 
his fee?
    Mr. Smith. Well, I raised this issue with the task force 
and I talked to Laura Laughlin and her first comment was, well, 
everybody has a right for an attorney. I said, but you don't 
understand the wiring diagram that you are dealing with here. 
Mr. Taylor is a personal attorney, not a corporate attorney for 
Don Tyson. He is a personal attorney for Don Tyson. He spent a 
lot of time dealing with Don Tyson's son.
    And actually I had met Taylor and he was described to me by 
the individual that had introduced him about that same time. I 
don't know if that matter was ever pursued or not.
    Chairman Thompson. Was Ms. Mapili in a position to pay for 
that kind of an attorney?
    Mr. Smith. I doubt it, given the----
    Chairman Thompson. Well, our Committee knows enough about 
that, after the fact, to know the answer to that question is 
clearly, no.
    I want to move on to a couple of more things. Keshi Zhan, 
there was an attempt to get an arrest warrant issued for her. 
Mr. Sheridan, were you in charge of that? What happened there?
    Mr. Sheridan. Yes. I was involved with that. Just prior to 
the searches we have already talked about we were putting in--
our investigation of Keshi Zhan was indicating that she was 
more than just a friend; she was an associate of Mr. Trie's, 
who worked for him. She was an accountant. She was clearly 
involved in the conduit schemes that we had been investigating 
aggressively.
    And we had information to believe that she was going to be 
leaving the country. We approached with our supervisors that we 
thought that it was the time to--myself. This--all of this was 
going on myself and Agent Parker in DC.
    Keshi Zhan lived in Virginia. We started to focus on that 
aspect and we felt that an arrest warrant of Keshi Zhan was the 
next logical step. We pursued it. It was a--we had a short time 
line because we knew when she was leaving. We were receiving 
evidence daily that we were putting together more and more 
conduit transactions that Ms. Zhan was involved in. And if she 
wasn't involved, these transactions might not have even 
occurred.
    Appeared to be clearly the Washington contact for Mr. Trie. 
Our concerns of her fleeing were addressed up the chain. I was 
present at, at least two meetings, DOJ with--and I don't recall 
everyone that was there. Mark Richard was the chair. We 
presented initially an overview of Charlie Trie, of the 
investigation to date and what our plan was regarding Ms. Zhan.
    When we left that meeting, I felt that we were going to be 
able to arrest Zhan. Then we found out, I believe, the next day 
or some point fairly quick that that had been shot down.
    Chairman Thompson. Meaning what?
    Mr. Sheridan. We were not going to be able to conduct, 
effect the arrest.
    Chairman Thompson. Why?
    Mr. Sheridan. We didn't have reason to arrest her. There 
was no reason----
    Chairman Thompson. According to whom?
    Mr. Sheridan. DOJ. I mean I was told--I don't recall who I 
was specifically told by--but I think Jeff Lampinski advised 
me.
    Ms. Parker. Well, I was just going to say that the first 
meeting that we had at DOJ concerning the Keshi Zhan issue was 
on or about June 20, 1997. And Mark Richard was there. I don't 
know whether Laura Ingersoll was there. I don't know whether 
Mr. Radek was there. I know Jeff Lampinski was there. Kevin and 
myself were there. Jonathan Biran, Bill Corcoran, Mr. 
Gallagher, Larry Parkinson and we discussed at length what 
Kevin Sheridan just said. The evidence that we had for an 
arrest warrant for Keshi Zhan.
    At the conclusion of the meeting we were all left with the 
impression that we were going to go ahead with the arrest 
warrant and, in fact, Jonathan Biran and I drafted the arrest 
warrant. I happen to have a copy of Jonathan Biran's final 
draft which was dated 6-23-97. So, he and I worked on this, we 
put it all together. I did the initial one. He kind of massaged 
it.
    And then on July 24, we were told we were going to have 
another meeting with basically the same individuals and I 
believe that Laura Ingersoll was there at that particular point 
in time. However, the tenor of the conversation had changed 
radically from agreeing that we should arrest Keshi Zhan for 
substantive violation and, in addition, because there is the 
potentiality that she would flee, to that basically I hate to 
say it but the Department of Justice said that there was, that 
we shouldn't arrest Keshi Zhan at all. There was a real 
negative tenor to that meeting on July 24.
    And the discussion centered on her intent, did she really 
have specific intent. But also, part of the discussion was, 
well, she will come back from China.
    Chairman Thompson. Yes. I believe she did, right after our 
hearings were over with.
    Ms. Parker. That is exactly it. I mean she left on June 25, 
never to return during the pendency of our investigation. But 
the one disturbing thing that did come out during one of those 
two meetings was that--and I believe it was Joe Gangloff from 
DOJ actually made the comment that we don't arrest conduits. We 
don't arrest people in this situation, which I found was to be 
rather disturbing. We saw Keshi Zhan as a means to the end. She 
was clearly committing criminal activity in our mind. But we 
also wanted to know what she knew about Mr. Trie, as your 
Committee did.
    Chairman Thompson. This business about conduits, not 
arresting conduits. Was there also some discussion about not 
prosecuting conduits, at some other time?
    Ms. Parker. Yes. Being a conduit is a misdemeanor. And we 
were under the impression that we would not--that DOJ would not 
prosecute conduits, since it was a misdemeanor situation.
    However, if we could find evidence that, for example, what 
we saw in the Keshi Zhan situation that she actually was acting 
and conspiring with Charlie Trie to use others as conduits, 
then that would be a different situation. But the conduits, 
themselves----
    Chairman Thompson. Well, what we have here is a perfect 
setup for not finding out anything. You have an interpretation 
of the Independent Counsel Statute which is more restrictive 
than if there were no Independent Counsel Statute at all. It 
actually serves as a protection of covered persons, if you are 
going to ignore the conflict of interest part.
    You have got to have a high standard before you can even 
ask a question of anyone about a covered person. And then you 
couple that with not prosecuting lower levels or not putting 
pressure on lower level people so that they would talk. What is 
the normal standard of an investigation? Now, if you were 
investigating a mayor, Mr. Smith, or a governor or a senator or 
an alderman, and there was a tenth of as much going around in 
the newspapers as was going around about this crowd and you 
were in charge of an investigation, how would you proceed?
    Mr. Smith. Well, you proceed by getting the lower level 
people and working your way through the system until you get to 
the top.
    Chairman Thompson. Is that the way it worked in this 
investigation?
    Mr. Smith. Well, not with a great deal of success. That is 
just a standard investigative technique that occurs all the 
time.
    Chairman Thompson. Were there any policies with regard to 
this investigation or any practices that were followed that 
made it more difficult here than you would normally find if you 
were investigating some other public figure?
    Mr. Smith. Well, if there was a decision made--and it is a 
little unclear to me if there was--if there was a decision made 
that, well, we are really going to ignore these conduits, well, 
that is just absolutely wrong from an investigative standpoint, 
because you remove any leverage you might have on potential 
witnesses that could give you the information that you need to 
do the investigation and to prosecute people at a higher level.
    Chairman Thompson. Did the presence of the Independent 
Counsel Act in your conversations, any that you had with the 
task force, present any problems with regard to the kinds of 
interviews you could conduct or the kinds of questions you 
could ask in these interviews? Was that ever brought up as 
something you have to be concerned about?
    Ms. Parker. The only time the Independent Counsel Act was 
even mentioned to me was one situation where I was told that we 
had to indict Charlie Trie on a given date because of a 
decision on an independent counsel.
    Chairman Thompson. What was that about?
    What do you mean a different date?
    Ms. Parker. They wanted a particular time frame that we 
were going to indict Charlie Trie and the feeling was the 
indictment should come in before the Attorney General had made 
a decision on some particular independent counsel. It wasn't a 
Charlie Trie independent counsel, it was some other independent 
counsel issue that was before her.
    Chairman Thompson. Let me get this straight. Now, so that 
the indictment would come down at a different time or the time 
frame covered----
    Ms. Parker. It was pushed up.
    Chairman Thompson. Excuse me?
    Ms. Parker. The time frame of the indictment was pushed up.
    Chairman Thompson. So, that that indictment would have been 
carried out before the Attorney General made a decision on 
another----
    Ms. Parker. Correct.
    Chairman Thompson [continuing]. Independent counsel?
    Ms. Parker. Yes. But that was the only time----
    Chairman Thompson. Was there any discussion as to why?
    Ms. Parker. No.
    Chairman Thompson. Now, Ms. Parker, you hesitated. I know 
this is an awkward position for you to be in but you are under 
oath. You have been very helpful. I know this is tough on you 
and I know you got to go back over there. But you need to tell 
not only the truth but the whole truth.
    Ms. Parker. There was no discussion as to why that decision 
was made. I disagreed with the decision to indict Charlie Trie 
when they wanted to indict him.
    Chairman Thompson. Why?
    Ms. Parker. The decision was that we were going to indict 
Charlie Trie in November. And I didn't think we were ready to 
indict him in November and I was told we would indict him in 
November. Subsequently we did not indict him in November. We 
ended up indicting him in January of----
    Chairman Thompson. Who did you have this conversation with 
about Charlie Trie's indictment?
    Ms. Parker. There were a cast of characters, including Mr. 
DiSarno and Mr. LaBella.
    Chairman Thompson. Well, who else?
    Ms. Parker. That I would have to refresh my recollection 
on. I really don't specifically recall. Well, Sandy Wilkinson 
and Tom McNamara, who were the two DOJ--actually AUSAs, who 
were assigned to CAMPCON at that particular point in time and 
who handled the Charlie Trie investigation.
    Chairman Thompson. Did they give you any reason why they 
wanted the indictment----
    Ms. Parker. No.
    Chairman Thompson [continuing]. Moved up, other than what 
you have----
    Ms. Parker. No. They were just pushing for that time frame.
    Chairman Thompson. Was it a public relations move, 
basically?
    Ms. Parker. My opinion? Probably, yes.
    Chairman Thompson. There was also an instance with regard 
to information that someone had concerning a $100,000 
contribution coming in, supposedly from China, into the DNC. 
And a witness that you had who was cooperating with you. You 
turned it over to the task force and it came to no good end, as 
I recall. Who was in charge of that?
    Mr. Wehr, was that yours?
    Mr. Wehr. Yes.
    Chairman Thompson. What happened?
    Mr. Wehr. This is the same individual that Mr. Smith 
referred to earlier that lived a distance away from Little Rock 
that decided to cooperate with the investigation. This 
individual witnessed--he described it as duffle bags of money--
or, I am sorry. He heard another witness admit to witnessing 
duffle bags of money being transported into the United States 
from China by Charlie Trie.
    Chairman Thompson. And, so, he said that someone else 
admitted this?
    Mr. Wehr. Yes.
    Chairman Thompson. I take it, it was not Mr. Trie?
    Mr. Wehr. It was not Mr. Trie. It was a person who 
travelled with Mr. Trie.
    Chairman Thompson. All right.
    Mr. Wehr. And----
    Chairman Thompson. I suppose it would be best not to relate 
that name?
    Mr. Wehr. Can I consult with----
    [Pause.]
    Mr. Wehr. Mr. Steele, our deputy counsel, advised me that 
this might violate Rule 6(e).
    Chairman Thompson. That is what I wondered.
    As I understand it, this was $100,000----
    Mr. Wehr. I am sorry. I am confusing this with something 
else. The $100,000 part was Mr. Trie making an admission to 
this same party, by the way--it is the same witness we are 
dealing with--that he had paid $100,000 to the Democratic 
National Committee or the PLET--I can't recall which of the two 
organizations--in order to have a lunch with the President in 
Washington.
    Chairman Thompson. All right.
    Did you have any information with regard to the source of 
that $100,000?
    Mr. Wehr. No. Only that Charlie Trie had made this 
admission.
    Chairman Thompson. All right. Was this $100,000 cash?
    Mr. Wehr. This was, yes, $100,000 cash.
    Chairman Thompson. Is there a separate instance where you 
had information about money coming from China?
    Mr. Wehr. Yes. That was a trip that was taken to China by 
Charlie Trie and this same individual to whom the admission was 
made.
    And I can't identify that person.
    Chairman Thompson. What was the admission that was made, 
that Mr. Trie brought money back or what?
    Mr. Wehr. Yes. That Mr. Trie brought duffle bags of money 
back but this was like twice-removed hearsay at that point.
    Chairman Thompson. Right. So, you began to work your way up 
the chain on that, I suppose?
    Mr. Wehr. Right. We wanted to interview the unnamed 
witness.
    Chairman Thompson. So what happened?
    Mr. Wehr. A request was made and I got no response to that 
request. And later, it turns out that the--actually I got a 
call from Jerry Campane, who is----
    Chairman Thompson. From our Committee.
    Mr. Wehr [continuing]. From your Committee saying that he 
had been in town and that he wanted to--he asked me whether or 
not I had interviewed this party and whether or not I wanted to 
do so with him? And I said I would get back to him and then 
when I called our headquarters regarding this I was told not to 
have further communication with Mr. Campane.
    Chairman Thompson. So, what happened to that investigative 
lead as far as you know? Was that the end of it?
    Mr. Wehr. It was--well, it was the end of it at that point 
and then at some later point, I believe you had this same 
person testify before your Committee or perhaps it might have 
been a House committee but I read a transcript of his testimony 
that resolved the issues involved.
    But it was a delay.
    Chairman Thompson. All right.
    The other instance, I believe, about Mr. Trie's $100,000 in 
cash, either to the DNC or to the PLET, you could not recall 
which, is that what you said?
    Mr. Wehr. Yes. I can't recall which of those two.
    Chairman Thompson. Did this person go before a grand jury 
and did Mr. Corcoran handle his interview?
    Mr. Wehr. Yes.
    Chairman Thompson. What happened?
    Mr. Wehr. He went before the grand jury and I know this 
because I had to pick up this person at the airport after he 
returned from Washington. He did not have a lot of money and 
his car was broken down and it was quite late. But he told me 
that he had been totally alienated by the DOJ attorney who 
handled his questioning before the grand jury and that he was 
more concerned about the witness' alcoholism and financial 
problems than the true facts and in his opinion he didn't know 
what the substance of the witness' testimony was supposed to 
be.
    Chairman Thompson. That Mr. Corcoran didn't seem to know 
what the substance of his allegations were?
    Mr. Wehr. Yes.
    Chairman Thompson. And that is that Mr. Trie had 
acknowledged to him that----
    Mr. Wehr. Yes.
    Chairman Thompson [continuing]. He had brought $100,000 
cash----
    Mr. Wehr. Right.
    Chairman Thompson [continuing]. To a particular point.
    Mr. Sheridan. Sir, I think there is a little confusion 
regarding the $100,000.
    Chairman Thompson. All right. Go ahead.
    Mr. Sheridan. I think that is a separate incident.
    Mr. Wehr. Yes, it is.
    Ms. Parker. Yes.
    Mr. Sheridan. But regarding Mr. Corcoran meeting with this 
individual, it was on the premise that he had information 
regarding somebody bringing duffle bags or a duffle bag of 
money into the United States with Mr. Trie.
    And then Mr. Corcoran--there were some problems, obviously, 
with--between the witness and Mr. Corcoran when the individual 
came to DC.
    Chairman Thompson. Do you know anything about those 
problems, Mr. Smith?
    Mr. Smith. This is the witness that I thought could be very 
important. This is the one that I had gone up and personally 
spent time with to try to convince him to cooperate and he--I 
had the distinct impression that the information that he had 
provided us initially was not all that may be available to him, 
certainly after his return trip.
    And then after the--we picked him up and what is an hour-
and-a-half drive to his residence and he was venting to Agent 
Wehr, the whole time there about his mistreatment and stuff 
like this. And his comments were that basically that they 
really didn't want to hear anything there.
    Even some of the very elementary type of questions relating 
to the investigation were not asked. They spent more time 
talking about, well, didn't you used to be a millionaire and 
you lost your money? Well, aren't you an alcoholic? In other 
words, almost discrediting him in the eyes of the grand jurors 
as opposed to eliciting from him information that may be very 
relevant to the investigation.
    And he came back devastated and I am still of the opinion 
that he has information that could be of value and perhaps in 
other areas because he has been a long time Arkansan and knows 
a lot of people, that we will never receive now.
    Chairman Thompson. Did someone write a letter objecting, 
either him or one of you, objecting over this matter?
    Mr. Smith. Did he write a letter?
    Mr. Wehr. Yes. He wrote, as I understand it, he wrote a 
letter to the Attorney General, personally, and also conducted 
a press conference on the issue shortly after his return to 
Arkansas.
    Chairman Thompson. As far as we know we still don't have 
the information that you think he has got, is that right, Mr. 
Smith?
    Mr. Smith. I think there was more there. It may not have 
been directly related to this investigation but I think there 
was more information that----
    Chairman Thompson. Is this the one, Mr. Sheridan, where you 
said that you had never seen an attorney as unprepared as Mr. 
Corcoran in that situation?
    Mr. Sheridan. I was embarrassed to be in the room during 
the pre-interview, grand jury interview.
    I am not certain that the individual has any more 
information for us. I went through Agent Wehr's previous 
interview with the individual at some length and felt 
comfortable that what he was telling us I thought was in its 
entirety. I think Agent Wehr got to the substance of that 
previously.
    But when Mr. Corcoran came into the conference room, he was 
clearly not prepared for the prep.
    Chairman Thompson. Anything else anybody wants to say?
    Mr. Sheridan. In addition to that, though, I would say that 
the individual also had some preconceived notions. I don't want 
to defend Mr. Corcoran's--what he did, but this individual from 
my observation also had an agenda here and wasn't happy with 
the way the outcome was.
    Chairman Thompson. That is entirely probable here.
    Obviously, people have mixed agendas and motives. I mean 
what we are talking about here is not micro-managing or second-
guessing every investigative step that was made or every 
decision that was made. Even on issues of probable cause, 
reasonable people can disagree.
    But we are talking about a pattern here. We are talking 
about a pattern of, in some cases, incompetency. We are talking 
about a pattern of, in some cases, inexplicable decisionmaking, 
and we are talking about an end result, as we sit here today. 
We sat here a year and tried to find out with limited time--
having to gear up fast and do what we could--and lay out on the 
public record generally what happened in that last presidential 
campaign. It was not a pretty picture.
    People started fleeing the country. We started hearing 
rumors of documents being destroyed. People got together with 
their attorneys in joint defense agreements and all of that. 
People taking the Fifth Amendment.
    And knowing that they had a limited period of time to deal 
with during our investigation, they hunkered down. That is the 
way it works nowadays.
    And you got a Justice Department saying, trust us, we are 
very aggressively and competently working this case. But they, 
obviously, had inexperienced people working this thing who were 
having to check with their superiors on all these major 
decisions. And it was just the ultimate in timidity. Because it 
was such a sensitive case, it should have been handed over to 
someone on the outside. Ironically, it apparently took about 24 
hours to bring Mr. Danforth in or make a decision somebody 
needed to be brought in on Waco.
    Well, what about this, dealing with the President's 
personal friends? Janet Reno insisted she was going to take the 
heat but she was being advised over there by these career 
people who had never seen anything like this before, were 
resentful of the independent counsel law, had never been put in 
the position of a conflict like this, wanted to show the world 
they could handle it, and exercised total control of everything 
that was going on. And with all this going on she couldn't 
bring in someone from the outside to take a look at this. So, 
now we have all these questions which will make this whole 
episode--this whole sorry episode--forever tainted in the eyes 
of the public and the historians.
    Now, on all probability these are some well-meaning people 
who are in over their heads. But nobody can exclude the 
possibility of corruption in a deal like this, in the world 
that we live in. This could have all been avoided. It could 
have all been avoided if you either had an aggressive 
investigation with the intent to let the chips fall where they 
may or had brought in a special counsel, someone objective, to 
look at these matters.
    Forget the independent counsel law. We see now, we saw 
throughout all this that the independent counsel law was being 
used as a shield. All these obvious conflicts would come up and 
the Attorney General would say, well, this ``i'' was not 
dotted, this ``t'' was not crossed and, therefore, the 
complexities of this law were not complied with. And you would 
get scholars down at Georgetown to agree with her. And so on, 
ignoring the basic question: Is anybody going to have any faith 
in this Justice Department handling a matter of this importance 
involving the President's friends?
    And almost by accident, after the fact, do we now find out 
what you all were going through all this time and about this 
hapless--at best, I will say, at best--this hapless 
investigation. Not to even mention--well, I am not going to go 
further until I know a bit more about it because I would 
probably say too much if I got started. Last, but not least, 
when we try to find out a little something about it, they send 
information up here that just happens to delete 27 pages of 
details showing or covering the period of time that is most in 
contention here. That is beyond comprehension. As I say, we 
will reserve further comment on that.
    You, ladies and gentlemen, I can't tell you how much I 
appreciate your coming here, the three of you who are still 
with the Bureau. Needless to say--and I don't think I have to 
say this--if there is any intimation of any repercussions and 
intimidation from your coming up here today I, personally, want 
to know about it. Will you promise me that, that you will let 
me know if that happens?
    Ms. Parker.
    Ms. Parker. Yes.
    Chairman Thompson. Mr. Sheridan.
    Mr. Sheridan. Yes, sir.
    Chairman Thompson. Mr. Wehr.
    Mr. Wehr. Yes, sir.
    Chairman Thompson. I know this is uncomfortable for you. I 
think you have been reluctant witnesses, but I think you have 
been truthful and accurate to the best of your recollection 
here today and that is all we can ask of you. And I appreciate 
that. This is a terrible position for you to have to be in, but 
I wasn't the one who put you there.
    Mr. Smith, you have retired now and you are obviously a man 
who probably would call it the way you saw it, even before you 
retired.
    Mr. Smith. I did and I paid for it at times, Senator.
    Chairman Thompson. Well, I will bet you did. But you have 
done your country a service by sticking to your guns and by 
being truthful and honest. I know you hate to do anything that 
puts any embarrassment on the people that you work for and 
spent your life being proud of. That is the agony that many 
people, like myself, have. I spent three of the best years of 
my life working hand-in-hand with FBI agents, had the greatest 
respect for them, would have trusted them with my life. And my 
Justice Department certificate of appointment on the wall was 
the proudest thing that I had at that particular time.
    We came up here to Washington once in a while as Assistant 
U.S. Attorneys. And to see what it has disintegrated to today 
is beyond appalling. That is not all of it, that is not 
everybody, but these sorts of things should not be happening 
when they are so easily rectified, in terms of letting somebody 
come in and fix things. As it is, the thing gets tainted on the 
front end.
    As an investigator, you make decisions at the beginning of 
an investigation with people fleeing, documents being 
destroyed, people getting together to coordinate their stories, 
people deciding whether or not to take the Fifth or whatever. 
You make such decisions on the front end, and if they are the 
wrong decisions it haunts you for the rest of the 
investigation. That is clearly what happened here. Nobody can 
come in and undo some of the things that happened.
    We have gone on much longer than I think any of us 
anticipated. I apologize to our other witnesses. Without 
vehement objection I am going to recess until 2:30 and resume.
    I understand we will have two votes at 2 o'clock and that 
will get us back here by about 2:30.
    Thank you. We are in recess.
    [Whereupon, at 1:39 p.m., the Committee recessed until 2:30 
p.m., the same day.]

                           AFTERNOON SESSION

                              [2:50 p.m.]

    Chairman Thompson. All right. We will be back in session. 
Senator Lieberman will be here shortly. But I think we will go 
ahead and get started, since we are running so late anyway.
    Our second panel consists of Justice Department officials 
Laura Ingersoll and Lee Radek. Ms. Ingersoll was the lead 
attorney on the Campaign Finance Task Force in 1996-1997, and 
Lee Radek is the chief of the Public Integrity Section of the 
Justice Department's Criminal Division.
    Please stand and raise your right hand. Do you solemnly 
swear that the testimony you are about to give will be the 
truth, the whole truth and nothing but the truth, so help you, 
God?
    Ms. Ingersoll. I do.
    Mr. Radek. I do.
    Chairman Thompson. Thank you. You may be seated.
    Any opening statement that either of you would care to 
make?
    Ms. Ingersoll. Yes, Mr. Chairman.
    Chairman Thompson. Proceed.

  TESTIMONY OF LAURA INGERSOLL, ATTORNEY, CRIMINAL DIVISION, 
                     DEPARTMENT OF JUSTICE

    Ms. Ingersoll. I have been asked to come before you today 
to answer certain matters and complaints raised by certain FBI 
personnel about decisions made during 1997, in particular 
focused on a pair of search warrant applications pertaining to 
Charlie Trie.
    This is the first time I have been able to speak publicly 
about my role in the task force, and I am sorry it is under 
these circumstances. Mr. Radek and I are going to be addressing 
in detail the particular matters before the Committee today. 
But, first, I want to let you know who I am. Because in the 
past 2 years, there have been references made to my abilities 
and experience in the press, and I have been unable to speak 
for myself. I welcome even this opportunity, this limited 
opportunity, to speak for myself.
    I am a career prosecutor, a line attorney with the Criminal 
Division. I graduated from Wellesley College in 1973, and I 
worked for 10 years in corporate public affairs for several 
large U.S. industries.
    In 1987, I got my law degree from the University of 
Connecticut School of Law. I was a law review editor there, and 
I concentrated in criminal law. After clerking for a Federal 
district judge in Connecticut, I joined the Justice 
Department's Criminal Division, through its Honors Program, in 
1988.
    In February 1989, I became a trial attorney in the Public 
Integrity Section, and I served as a trial attorney in the 
Public Integrity Section until late 1997.
    For the past nearly 2 years, I have served as a senior 
trial attorney in the Criminal Division's Internal Security 
Section. While with the Public Integrity Section, I handled a 
wide range of public corruption matters around the United 
States. My supervisors regarded me as an aggressive, creative, 
efficient, effective, extremely independent and productive 
prosecutor. Before I was assigned to the task force, I obtained 
over 40 public corruption convictions for the section.
    In my 11 years with the Division, I have been granted 11 
performance awards, including four merit promotions, and I have 
had my share of election crime work as well. In the months 
leading up to the beginning of the task force, I prosecuted 
four Agriculture Department officials who violated campaign 
financing laws by conspiring to obtain campaign contributions 
from coworkers on the job. And I also edited the current 
edition of the Public Integrity Section's Election Crimes 
manual.
    What was my role with the task force? My job was lead 
attorney, among a team of career Section prosecutors. It was to 
coordinate and steer the Criminal Division's resources on the 
task force. Although I led the attorneys and our small support 
staff, I didn't have official management or supervisory 
authority over them or other task force personnel.
    As a Public Integrity Section trial attorney, I continued 
to report to my supervisor, Mr. Radek, either directly or 
through deputies. And as time went on, I came to report 
simultaneously on task force matters to Mr. Radek and to the 
Acting Assistant Attorney General who supervised the task force 
for the Criminal Division, Mark Richard, and to Deputy 
Assistant Attorney General Robert Litt.
    Quite apart from the management structure, however, I 
understood my job with the Campaign Finance Task Force to be to 
get to the truth behind the allegations that people involved 
with Federal political fund-raising had violated criminal laws, 
to investigate aggressively and prosecute vigorously without 
regard to political pressures or interests. The only 
limitations I know of that were placed on the task force's 
ability to do that job were those imposed either by the law or 
by limited resources.
    I am proud of the work that I did during my 10 months 
during the Campaign Finance Task--with the Campaign Finance 
Task Force. In those few months, we laid the groundwork for 
those prosecutions that have followed. I believe I have served 
the task force, as I tried to serve throughout my career, 
skillfully, effectively, professionally and honorably.
    And I thank you for giving us the opportunity to address 
the issues that are here before you today.
    Chairman Thompson. Thank you. Mr. Radek.

   TESTIMONY OF LEE RADEK, CHIEF, PUBLIC INTEGRITY SECTION, 
            CRIMINAL DIVISION, DEPARTMENT OF JUSTICE

    Mr. Radek. Thank you, Mr. Chairman. And I, too, welcome the 
opportunity to take our time to tell the rest of the story, in 
addition to what was heard this morning. I have no opening 
statement, but I would like to introduce myself.
    I came to the Department of Justice in 1971 from suburban 
Chicago under the Attorney General's Honors program. I was, in 
1976, selected to help start the Public Integrity Section. I 
became a deputy chief of that section in 1992, and I served--I 
am sorry, in 1978--and I served until 1992, when I became 
director of the Criminal Division's Asset Forfeiture Office.
    In 1994, I returned as chief of the Public Integrity 
Section. I am a career member of the Senior Executive Service. 
I have never sought or received any political appointment. I 
have never, ever made a prosecutive or investigative decision 
based on partisan political considerations, and I have not 
knowingly tolerated one by anybody who is supervised by me.
    I appointed Laura Ingersoll to head the task force, and I 
did it for two reasons. She was both competent and aggressive. 
In fact, she was one of the most aggressive attorneys in the 
Section. That is one reason why I chose her.
    I would like to address many of the issues or all of the 
issues discussed by the early panel this morning, Mr. Chairman. 
But I think the most productive way to do it would be in 
answering questions.
    Chairman Thompson. All right.
    Mr. Radek, you say that you selected Ms. Ingersoll. I was 
under the impression that the Attorney General had made that 
determination. Did she task you with the job of selecting the 
person to head the task force up?
    Mr. Radek. I do not recall that it was that formal a 
process. When the initial allegations hit the paper, I was 
asked to get on it as a Section, and no personnel decisions 
were discussed. I made the decision to put her in charge of an 
early group that was to analyze the allegations as they were 
coming out in the press.
    Chairman Thompson. Do you recall about when that was?
    Mr. Radek. Probably December 1996.
    Chairman Thompson. Does that comport with your 
recollection?
    Ms. Ingersoll. Mr. Radek approached me and assigned me to 
the matter on November 1, 1996.
    Chairman Thompson. November 1?
    Ms. Ingersoll. Correct.
    Mr. Radek. I stand corrected.
    Chairman Thompson. By that time, certainly there was a lot 
of information in the newspapers--a great many allegations and 
stories about various individuals in connection with the 
campaign of 1996. Some of them, of course, had to do with 
public figures, and some of them had to do with people involved 
in this administration, friends of the President. Is that why 
Public Integrity was immediately and initially involved in this 
matter?
    Mr. Radek. Jurisdiction within the Criminal Division, Mr. 
Chairman, is usually divided up by violation. Public Integrity 
is assigned campaign crimes, both campaign finance and voter 
fraud. So since the crimes in the paper, alleged crimes in the 
paper, appeared to be campaign finance related, that would 
naturally fall under the Public Integrity Section.
    Chairman Thompson. But campaigns of public officials.
    Mr. Radek. Yes.
    Chairman Thompson. Not the United Way.
    Mr. Radek. No, political campaigns.
    Chairman Thompson. Campaigns for political figures, right?
    Mr. Radek. Yes, sir. Political campaigns.
    Chairman Thompson. Right. All right.
    Ms. Ingersoll, you say you went to the Department in 1988, 
Justice Department; is that correct?
    Ms. Ingersoll. Yes, Mr. Chairman.
    Chairman Thompson. And what were your duties? Did you go to 
the Public Integrity Section at that time?
    Ms. Ingersoll. No, I did not. I came in through the 
Criminal Division's Honors program, and the program at the time 
called for its members--there were just six of us I think in my 
year--to rotate through various sections and get an 
understanding and some exposure and experience throughout the 
Criminal Division.
    My first rotation was with the Organized Crime and 
Racketeering Section. I worked both in the Labor Racketeering 
Unit and the RICO Unit until I went to the Public Integrity 
Section. I initially went on a rotation, very soon discovered 
that it and I were pretty compatible. It is very good, 
challenging work, and we agreed that I would stay there.
    Chairman Thompson. And Mr. Radek was there at that time?
    Ms. Ingersoll. Mr. Radek was the principal deputy chief at 
the time. Gerald McDowell was the chief of the section.
    Chairman Thompson. Right. This is 1988. As I recall your 
testimony, you had just graduated from law school the year 
before; is that correct?
    Ms. Ingersoll. Yes, a year before in 1987.
    Chairman Thompson. In the interim, you had served as a 
clerk to a judge?
    Ms. Ingersoll. Yes.
    Chairman Thompson. And what judge? What level?
    Ms. Ingersoll. U.S. District Court Judge Alan Nevas in 
Connecticut.
    Chairman Thompson. How long a period of time was that?
    Ms. Ingersoll. One year.
    Chairman Thompson. One year. All right. Well, that is 
cramming a lot--you got your law degree in 1987, clerked for a 
year and then were in the Justice Department in 1988.
    Ms. Ingersoll. I had, sir, been out of college for 11 
years.
    Chairman Thompson. And then you became a senior trial 
attorney in 1999.
    Ms. Ingersoll. 1997, Your Honor--Mr. Chairman.
    Chairman Thompson. I am sorry. 1989. What did I say 1999?
    Ms. Ingersoll. I became a trial attorney in 1989 and 
remained a trial attorney until I moved to a different section 
within the Criminal Division.
    Chairman Thompson. Within the last 2 years?
    Ms. Ingersoll. Yes.
    Chairman Thompson. Internal Security?
    Ms. Ingersoll. Yes.
    Chairman Thompson. All right. So from 1989 to 1997, you 
were in the Public Integrity Section; is that correct?
    Ms. Ingersoll. Yes.
    Chairman Thompson. How many attorneys during that period of 
time, roughly, how many attorneys were considered to be a 
complement for that section? Either one of you.
    Mr. Radek. Our regular staff is about 30, Mr. Chairman. It 
may have been a couple less than that then, and usually there 
were a couple of vacancies. So, generally, there would be 25 
attorneys on board--25 to 27.
    Chairman Thompson. All right. Did you have delineations of 
position under the top, say, two people in that section. Did 
you have senior, or junior attorneys, whatever?
    Mr. Radek. When I was a deputy chief, before I left in 
1992, we had a management structure of a chief, three deputies, 
and two unit chiefs.
    When I returned in 1994, I found that there were several 
senior litigation counsels and several senior trial attorneys 
carrying titles that had no real personnel ramifications; that 
is to say, they did not change on the organizational chart, and 
they did not receive any more money.
    Chairman Thompson. Is that the way it remained?
    Mr. Radek. It remained that way. I made a policy decision, 
early upon my return, that I would not appoint any more special 
titles. I thought there were too many there at the time.
    Chairman Thompson. And you have, today, several senior 
litigation counsel?
    Mr. Radek. I have no more senior litigation counsel. I 
still have some people who carry the senior trial attorney 
designation from before the time that I returned.
    Chairman Thompson. All right. Ms. Ingersoll, did you carry 
that designation?
    Ms. Ingersoll. I did not.
    Chairman Thompson. How many people did, Mr. Radek?
    Mr. Radek. I do not know. It would be a sizable amount, 
maybe one-third of the Section would have been given that title 
based upon seniority. But, again, I do not understand all of 
the reasons for it because it was not done by me or on my 
watch, and I was not happy with the system.
    Chairman Thompson. But it sounds like, at least to an 
extent, you adopted it, allowed it to continue on, as far as a 
senior trial attorney designation.
    Mr. Radek. I made a decision that it would be detrimental 
to morale to remove from people the titles that they already 
had.
    Chairman Thompson. OK. Ms. Ingersoll, this is not to--I had 
not really planned on belaboring this point until you mentioned 
it. You have taken a hit evidently primarily from your own 
people within the Department over there, but welcome to the 
club. So have I. And I take most of my hits from my club over 
here anonymously, too, as far as that is concerned.
    But at the time of the changeover in 1997, an article 
appeared in the New York Times, September 17, under the byline 
of David Johnson and Stephen Labaton, about this changeover, 
and Mr. LaBella's being appointed and so forth.And it refers to 
you, Ms. Ingersoll--it mentions your age--as a relatively 
junior member of the Public Integrity Section who could not be 
reached for comment. It said, ``She arrived at the Justice 
Department in 1989 after clerking for a Federal judge in 
Connecticut. Ms. Reno's selection of Ms. Ingersoll to head the 
campaign finance case was a surprise because she was not 
regarded in the Justice Department circles as a seasoned 
prosecutor, although she had the support of respected career 
officials like Lee J. Radek, head of the Public Integrity 
Section.''
    Would you agree with that assessment, that as of that time, 
you were not considered, in Justice Department circles, as a 
seasoned prosecutor?
    Ms. Ingersoll. I cannot speak for how other people regarded 
me. I was highly regarded. I had been there for approximately 7 
years, and I believe that in that time I had demonstrated, for 
that period of time, exceedingly high competency. So given the 
temporal time frame, I guess that is the only limitation I 
would place on it.
    I would like to point out, Mr. Chairman, that I had never 
met the Attorney General prior to the time I began 
participating in briefings of her after the task force got 
underway. I have never had a personal one-on-one conversation 
with her, and I have not seen her, except to shake hands at 
awards ceremonies of the Criminal Division in the time since I 
left the task force.
    Chairman Thompson. All right. I would suggest that this is 
not a matter of competency here. I think it is a question 
having to do more with experience than competency. Clearly, you 
had an outstanding academic background, and no one, as far as I 
know, has questioned your competence with regard to other 
matters.
    The article goes on, ``Before being selected to lead the 
task force, she occupied the second chair as assistant to a 
lead prosecutor in many of the trials in which she 
participated. One of the prosecutions she led focused on an 
official at the Defense Intelligence Agency, who was convicted 
of misappropriating government property by using an office 
computer and government photocopier to organize a local amateur 
ballroom dancing club. More recently, she worked on a case in 
which four officials of the Agriculture Department pleaded 
guilty of violating laws by soliciting contributions from 
colleagues and subordinates for a pro-Clinton Political Action 
Committee.'' And then the article refers to your relative 
inexperience.
    Would those statements be a fair characterization of the 
situation?
    Ms. Ingersoll. They are limited and perhaps somewhat 
misleading. I was equal co-counsel, I was actually the lead 
counsel in the case that was tried that involved what the press 
liked to point out as the ballroom dancer. In fact, that was a 
senior analyst, intelligence analyst, at the Defense 
Intelligence Agency, who used a computer that was the DIA's 
mainframe national intelligence computer system, and that is 
really what that case was about, I would suggest, Mr. Chairman.
    Chairman Thompson. All right. I do not mean to denigrate 
the importance of the case. I am trying to get a little 
perspective here.
    But you had about a third of the attorneys in the Public 
Integrity Section apparently delineated senior trial attorneys, 
senior trial counsels, and you were not one of those.
    Ms. Ingersoll. They were denominated that as a result of 
their tenure.
    Mr. Radek. May I say, Mr. Chairman, that had I still been 
in the business of giving such titles, Ms. Ingersoll certainly 
was in line for one.
    And if I may also say, what is left out of that article are 
some cases that Ms. Ingersoll did prosecute, the Lanning case, 
for one, a major defense intelligence community case in which 
an official was giving favors to a mistress. It was a tough 
trial. I watched her try that case. She was very good.
    Chairman Thompson. All right. Let us discuss the 
organization of the Campaign Finance Task Force for a minute.
    Ms. Ingersoll, you were delineated as the head of that. How 
many attorneys did you have, who reported to you, to whom did 
you report and what was your relationship to the FBI?
    Ms. Ingersoll. I initially had no title, and initially 
there really was no task force. As Mr. Radek indicated, it was 
an analytical effort to review the published press reports and 
ascertain which, if any, among the published press reports 
appeared to give sufficient predication for criminal 
investigation. Within a very few weeks, it was evident that 
there was such basis, and the FBI and the Criminal Division 
began developing plans to establish what would become the task 
force.
    In that initial analytical period, I had the assistance of 
three attorneys from the Section and a paralegal, and we worked 
full time on the matter. By mid-December, we had relocated into 
space that we anticipated we would be co-locating--co-occupying 
with the FBI. And at about that--between that time and the time 
I left the Section--I am sorry--the task force, we acquired 
approximately a net of four additional attorneys, either 
Section attorneys or attorneys on detail to the Section, and an 
additional net paralegal. We also had the consultative 
assistance of various other attorneys from within the Section, 
and ultimately, toward the end, also from outside the Section.
    Chairman Thompson. Let us start with your core group. About 
how many attorneys were considered to be a complement for you 
on the task force?
    Ms. Ingersoll. We were eight attorneys for the bulk of the 
period of time.
    Chairman Thompson. All right. Now, the names of Mr. Biran, 
Mr. Corcoran, Mr. Yaffe, among others that have been mentioned 
today, were they a part of the eight?
    Ms. Ingersoll. They were.
    Chairman Thompson. All right. And then you had others 
within the Section and outside the Section you could call on 
from time to time.
    Ms. Ingersoll. In addition to four others.
    Chairman Thompson. Obviously, the FBI is the investigative 
arm for any Federal investigation of this nature. There has 
been a lot of talk, before we get into the matters of 
contention, even before then, about the awkwardness of that 
relationship. As I understand it, there has been a lot of talk 
this morning about them coming to you and your discussing 
things with them, although you actually had no actual line 
authority over them; is that correct?
    Ms. Ingersoll. Both those points are correct, Mr. Chairman.
    Chairman Thompson. And jumping ahead, when Mr. LaBella was 
brought in, the whole investigation, as I understand it, was 
taken out of Public Integrity, but yet, Mr. Radek, you were 
still the head of it; is that correct?
    Mr. Radek. That is not quite correct, Mr. Chairman. And I 
must confess to confusion myself. There was great confusion 
about the roles when Mr. LaBella first arrived. I was told by 
Mr. Litt and Mr. Richard that I was to supervise Mr. LaBella. 
Mr. LaBella, I learned in conversations from him, was told that 
I was not to supervise him. You can see where this created some 
misunderstandings.
    Eventually, after a disagreement involving an indictment 
review, Mr. LaBella and I sat down and tried to iron out our 
differences. We were not totally capable of doing that, given 
the conflicting instructions. But we worked an accommodation 
where Mr. LaBella exercised what he thought was promised to 
him, and that was that I was to be in the loop informationally, 
but I was not in the decisionmaking loop; that is, I could not 
tell him what to do. And so I stopped telling him what to do.
    Chairman Thompson. All right. I take it that before Mr. 
LaBella, it was pretty clear what the lines of authority were.
    Mr. Radek. Yes.
    Chairman Thompson. And you could tell Ms. Ingersoll what to 
do.
    Mr. Radek. Absolutely.
    Chairman Thompson. And did you work closely with her during 
the period of time that she was in that position?
    Mr. Radek. I did.
    Chairman Thompson. I also noticed, Ms. Ingersoll, on a 
couple of different occasions--when the matter of the search 
warrant came up, for example, on July 1--you E-mailed not only 
Mr. Radek, but Mr. Litt and Mr. Richard. And, again, on July 7, 
after it had all happened, you E-mailed the same three 
individuals again.
    Mr. Radek, where did Mr. Litt and Mr. Richard fit into this 
process?
    Mr. Radek. Mr. Richard was the Acting Assistant Attorney 
General for the Criminal Division for purposes of this case. 
Mr. Richard's normal title was and is Deputy Assistant Attorney 
General; that is to say, he would be a career deputy to a 
presidentially appointed and senatorially confirmed Assistant 
Attorney General. There was no confirmed Assistant Attorney 
General at the time. JoAnn Harris had left.
    Jack Keeney, who was also a Deputy Assistant Attorney 
General, was the Acting Assistant Attorney General for the 
Criminal Division. Jack Keeney has a son who works at a 
Washington law firm. That son represented John Huang for 
purposes of a civil matter, and so Mr. Keeney recused from this 
matter. So the responsibility to head the Criminal Division, 
for purposes of this investigation, fell to Mr. Richard, who 
was the next most senior Deputy Assistant Attorney General.
    Chairman Thompson. We are very aware of that situation. My 
recollection is about 2\1/2\ years, during this critical period 
of time, a Senate-confirmed position of head of the Criminal 
Division of the Justice Department was not filled by someone 
who was Senate confirmed.
    Mr. Radek. That is correct.
    Chairman Thompson. Now, what about Mr. Litt?
    Mr. Radek. Now, Mr. Litt's position changed, and I am 
unclear, and I have not been able to refresh my recollection, 
looking at documents, exactly when the transition took place. I 
believe when the investigation started that he was also a 
Deputy Assistant Attorney General. I know he was, at some point 
of time, I just do not know whether it was when the 
investigation started. And I believe, for the beginning of the 
investigation, he was in that position.
    He was selected, but not nominated, to be the 
presidentially appointed Assistant Attorney General. That 
selection did not result in a nomination, I believe. And 
eventually he wound up as the Principal Associate Deputy 
Attorney General; that is, the No. 2 person to--or the No. 1 
person to the No. 2 person in the Justice Department.
    Chairman Thompson. Adviser to the Attorney General, 
basically.
    Mr. Radek. Yes, but--and he was indeed and in fact, an 
adviser to the Attorney General, but his position was as the 
Principal Deputy to the Deputy Attorney General at the end of 
that process.
    Chairman Thompson. All right. What did Mr. Richard and Mr. 
Litt have to do with this investigation?
    Mr. Radek. They were in the chain-of-command. They 
supervised me supervising Ms. Ingersoll.
    Chairman Thompson. All right. How often did you consult 
with either Mr. Richard or Mr. Litt, Ms. Ingersoll?
    Ms. Ingersoll. By the first, within a couple of months into 
1997, Mr. Richard had asked me to send him daily reports on any 
significant developments within the task force and general 
status reports so that he could be kept up to speed with what 
we were doing.
    I, at that point, began to send E-mails, and for effiency's 
sake, directed them, with everyone's consensus, to Mr. Radek, 
who supervised me directly, his supervisor, Mr. Richard, and 
also to Mr. Litt, who had a continuing involvement in the case, 
as Mr. Radek has described. So that there was this really 
constant stream of feedback or communication from me about what 
we were doing.
    In addition, Mr. Richard held approximately weekly meetings 
of all of the principals associated with the task force: 
Myself, Mr. Radek from our side; occasionally one of Mr. 
Radek's deputies; and Mr. Lampinski, who was the lead agent on 
the task force; his supervisor, Mr. Gallagher; Mr. Bryant; and 
various other senior FBI personnel. Those meetings were 
approximately weekly.
    There were also phone calls back and forth freely.
    Chairman Thompson. Well, obviously, Mr. Richard kept close 
tabs on what was going on.
    Mr. Radek, did you have regular consultation with the 
Attorney General during this period of time with regard to this 
investigation?
    Mr. Radek. I did not, and we did not. A couple of things, 
Mr. Chairman, before I respond to that. One is another name 
that is missing here is Joseph Gangloff, who was now my 
principal deputy. He also, between Ms. Ingersoll and I, was a 
supervisor in this matter.
    The communications with the Attorney General were 
irregular, and it is hard to describe the frequency, but 
certainly less than weekly--maybe once or twice a month. And 
they would be in terms of a meeting to brief the Attorney 
General on the progress of the investigation. Later, when Mr. 
LaBella arrived, those meetings became weekly with the Attorney 
General.
    Chairman Thompson. Either before or after Mr. LaBella's 
arriving, did Mr. Richard have the duties of briefing the 
Attorney General, do you know?
    Mr. Radek. I do know because he communicated to me often 
that he had raised certain points with the Attorney General. 
There are, in the Department of Justice, frequent briefings of 
the Attorney General given by all of the various components. 
Once a week there is a criminal matters meeting given to her by 
the management of the Criminal Division. And I do not know 
whether there was a separate meeting with Mr. Richard and the 
Attorney General to discuss the campaign finance investigation, 
but he indicated to me that he was in frequent contact with 
her.
    Chairman Thompson. About the investigation?
    Mr. Radek. About the progress of the investigation, yes.
    Chairman Thompson. What about Mr. Litt, was he in frequent 
contact with her, do you know?
    Mr. Radek. I do not know that. Most of my communication 
about what the Attorney General wanted was through Mr. Richard. 
Although I am sure I discussed it with Mr. Litt, also.
    Chairman Thompson. Mr. Radek, were you one of the people 
who advised the Attorney General with regard to the 
applicability of the Independent Counsel law?
    Mr. Radek. Yes. In fact, the Public Integrity Section 
administered the law, and we were the first recommender on 
independent counsel decisions.
    Chairman Thompson. Who else would be involved or were 
involved in those recommendations to the Attorney General?
    Mr. Radek. The normal process is for the Public Integrity 
Section to make a decision on whether or not a preliminary 
investigation need be conducted, whether there was a triggering 
mechanism. Even in the occasions when there were not, if it was 
a close question, we would notify the Attorney General in case 
she wanted to reverse that decision.
    Assuming that a preliminary investigation would be 
conducted, the Public Integrity Section would normally conduct 
it, and at the end of that, make a recommendation to the 
Assistant Attorney General of the Criminal Division, through a 
Deputy Assistant Attorney General, assuming everyone was in 
place. That recommendation would then come from the Criminal 
Division to the Deputy Attorney General's office, who would 
attach a recommendation and finally make it to the Attorney 
General. That is the bureaucratic procedure.
    In fact, before the Attorney General would make any of 
these decisions, she would consult anybody and everybody with 
an interest, particularly representatives of the FBI and 
anybody with knowledge. Also, when it came time for the 
campaign finance decisions to be made, because the task force 
was a joint FBI-DOJ task force, the FBI played more of a role 
than they usually did in other IC matters.
    Chairman Thompson. But if you recommended against it or you 
recommended that there was not sufficient evidence to start a 
preliminary investigation or recommended against appointing an 
independent counsel, would that go up through Mr. Richard?
    Mr. Radek. Yes.
    Chairman Thompson. Would it go up through Mr. Litt?
    Mr. Radek. Yes. I think in either position. I am not sure, 
at the beginning, when he was still in the Criminal Division, 
but certainly when he was in the Deputy's office.
    Chairman Thompson. Ms. Ingersoll was in regular contact 
with both you, and Mr. Richard and Mr. Litt during this 
investigation, keeping them informed. You had no direct contact 
with the Attorney General yourself, Ms. Ingersoll?
    Ms. Ingersoll. Only in these group briefings.
    Chairman Thompson. All right. Well, I think that helps to 
understand a little bit better. There has been a lot of 
speculation as to who is doing what over in the Justice 
Department over the last few years. That helps a little bit.
    I want to focus now on some of the questions that we have 
had arise here today. And I want to start with those missing 27 
pages.
    You heard the testimony of Agent Parker, that she kept 
detailed notes; in fact, apparently almost three thick spiral 
notebooks of notes as to what happened during the 
investigation, notes of the events that occurred, positions 
that people took with regard to various matters that sometimes 
were in disagreement.
    She, apparently, was told that the Campaign Finance Task 
Force needed those notes to respond to congressional inquiries 
or congressional subpoenas. She turned those notes over to an 
FBI agent in June, and got them back in August and missing were 
27 pages. She also said that, apparently, from talking to 
another one of her colleagues and the information he gave her, 
when he checked in mid or late June, they were missing by then.
    The portions missing would have covered the time, in fact, 
the dates of this controversy--the first date is the date of 
the first trash cover, and they would have covered the two 
trash covers, the first two trash covers. They would have 
covered the subpoena or search warrant, I guess, and 
discussions, disputes, and disagreements that were had and the 
events surrounding that.
    I would assume that these materials, passed through more 
than one set of hands. They were for the purpose for the 
Justice Department making a response to a Congressional 
subpoena. And I am not sure when you first heard of this. I am 
wondering what you know about it that you can tell this 
Committee.
    Mr. Radek. I am, I guess, happy to say I cannot enlighten 
the Committee at all.
    I first learned about the missing pages when I received a 
copy of a letter from Congressman Burton to the Attorney 
General asking for interviews of Ms. Ingersoll and myself and 
mentioning the missing pages. I subsequently learned, and 
everything I am about to tell you is hearsay, I subsequently 
learned that there was an issue of the missing pages, that the 
notebooks were turned over to the FBI and returned from the FBI 
and that the FBI's Office of Professional Responsibility was 
investigating it, and other than that----
    Chairman Thompson. Wait a minute. That the notes were----
    Mr. Radek. Turned over by----
    Chairman Thompson. Turned over by the FBI?
    Mr. Radek. From Agent Parker to the FBI.
    Chairman Thompson. Yes.
    Mr. Radek. And then returned to her by the FBI, and I do 
not know if anybody else had custody.
    Chairman Thompson. You are not suggesting that they never 
left FBI hands, are you?
    Mr. Radek. I do not know. I am suggesting that they were in 
the custody of the FBI. I do not know that they were in anyone 
else's custody. I just do not know. I was unaware that she had 
any notes. I have never seen those notes. I have no idea what 
was contained in them.
    Chairman Thompson. Ms. Ingersoll, what do you know about 
it?
    Ms. Ingersoll. Absolutely nothing, other than the reference 
in the letter from Congressman Burton. That is the first I 
heard of this. I left the task force and the Public Integrity 
Section on October 30, 1997, have had virtually nothing to do 
with the task force to the point even of being kept informed or 
trying to make myself informed about the task force's work. I 
do not recall ever being aware that Ms. Parker kept notes. I 
was not involved in document production, nothing.
    Chairman Thompson. Mr. Radek, this has to do with the 
investigation in which you were supervising. Do you have more 
than a passing interest in this issue?
    Mr. Radek. At the time that these documents were turned 
over, I was not supervising, sir.
    Chairman Thompson. Well, I am not talking about the time 
they were turned over. I am talking about the time that they 
had to do with, and that is basically 1997.
    Mr. Radek. I have an interest because I am called before 
this Committee, sir.
    Chairman Thompson. Is that the only reason that you have 
any interest?
    Mr. Radek. Well, currently, that is correct, sir, yes. I 
mean, to the extent that these old accusations by IC Smith have 
surfaced, that is the only thing that renewed my interest in 
this subject matter at all.
    Chairman Thompson. Well, I find that kind of remarkable. 
Here you have Congress asking for information, apparently the 
Justice Department purporting to give that information, and the 
House received it, we received it. But after they got it from 
Agent Parker, 27 pages, having to do with areas greatly in 
contention and having to do with those old charges that you are 
talking about, disappear. Assuming you are in the business of 
the administration of Justice, I will ask you again, does that 
not concern you?
    Mr. Radek. Does it concern me as a person? Absolutely, sir. 
Does it concern me as a subject matter that I am investigating 
at this point? Absolutely not, sir. It is in the hands of OPR.
    Chairman Thompson. What do you think about it, Ms. 
Ingersoll?
    Ms. Ingersoll. I think if I were at your end of things, I 
would be quite outraged, Mr. Chairman. I also have every 
interest in the truth of these allegations coming out. And to 
the extent any notes of anyone could help that, I think they 
should be made available.
    Chairman Thompson. Well, you see, let's make sure we 
understand. It is not like that there is necessarily some 
``smoking gun'' in these documents. The concern here is that in 
these three very detailed, thick notebooks compiled over the 
course of this investigation, there was a very detailed 
rendition of what happened and the various steps that were 
made.
    And, obviously, they have to do, in part, with matters in 
controversy here--a big disagreement between the FBI and the 
Justice Department on some things. The FBI saw documents being 
destroyed. They wanted to put a stop to it. You did not think 
there was sufficient probable cause. We will discuss that. All 
of that was going on.
    So when Congress demands to see documents, and those 
particular documents that would reveal to Congress this dispute 
are missing--and that is not to say there might not be other 
documents in the pack that might indicate the same thing--it 
would be less likely that Congress would follow up on that. 
However, we had some staff people who did follow up on that, 
and putting two and two together and calling these agents up, 
like Agent Parker, one thing led to another, and we came to 
find out, yes, indeed, these documents were missing.
    So the question is whether or not somebody removed those 
documents. They would have had to been ripped out of the book. 
Somebody removed those documents in order not to red flag 
something with Congress, so that it would be just like the 
other documents that are put in a big room somewhere and 
sometimes read and sometimes not, perhaps. That is the issue.
    Let me suggest to you this, the Justice Department 
representatives are in the room, and I am going to give the 
Justice Department until the end of Thursday for the OPR to 
come up here and give us a reason, if they choose to, why every 
Tom, Dick and Harry who has been within shouting distance of 
those documents should not be subpoenaed before this Committee, 
and why we shouldn't have a few days of hearings on the chain 
of custody.
    I understand that there are two OPRs, actually. There is a 
Justice Department OPR and an FBI OPR. Which one is conducting 
this investigation?
    Mr. Radek. My understanding is that it was referred to FBI 
OPR with a suggestion that they have DOJ OPR come in with them. 
I do not know whether that has been done. But that is 
secondhand knowledge, too. I do not know that firsthand.
    Mr. Chairman, if I might, while I am speaking, I did 
misunderstand your question. I thought you were asking me 
whether I was concerned about the subject matter of those 
notes, and that is what I got renewed concern about only 
recently. Obviously, I am concerned that there are missing 
notes in a notebook.
    Chairman Thompson. Thank you. Ms. Ingersoll understood the 
question, and I am glad that you do.
    Mr. Radek. And I apologize.
    Chairman Thompson. Well, I know some of my good friends 
from Justice--they know who I am referring to--are sitting in 
the room here today.
    Senator Lieberman. Toward the front row, Mr. Chairman?
    Chairman Thompson. Toward the front row. They have until 
the end of Thursday, to come and meet with Senator Lieberman 
and myself, and tell us what they are doing and see whether or 
not they can come up with a good reason why we should think 
that another Justice Department and/or FBI internal 
investigation is something we ought to sit and watch unfold for 
the next several months while being told, ``This is under 
investigation. We can't tell you anything about it.''
    Senator Lieberman. Mr. Chairman, if I may. Mr. Iscoe, do 
you know whether it's FBI OPR or DOJ OPR that is conducting the 
investigation?
    Mr. Iscoe. Senator Lieberman, it is my understanding that 
the FBI's Office of General Counsel referred this matter to the 
FBI's Office of Professional Responsibility as soon as they 
learned about this, because the documents had been turned over 
to the FBI section of the task force pursuant to the FBI 
request to comply with the subpoena. So, at that point, I was 
advised that--by the FBI--that no one else should make any 
inquiries into this because OPR at the FBI was looking into it.
    I do not know what the status was. I did check with the 
FBI's Office of General Counsel, who said they are encouraging 
OPR to complete this as quickly as possible--this is FBI OPR. I 
have no further knowledge of it, Senator.
    Senator Lieberman. So is it within your jurisdiction to 
convey Senator Thompson's request, which I share?
    Mr. Iscoe. I will convey it to the FBI, but I would think 
that it would be the FBI's OPR that would come up and meet with 
you, and I will be glad to do everything I can to----
    Chairman Thompson. And the Justice Department's OPR.
    Mr. Iscoe. Yes. The last I checked--and Mr. Steele is here. 
He perhaps can speak to it.
    Chairman Thompson. Identify yourself, please, sir.
    Mr. Steele. Yes, sir. My name is Charlie Steele. I'm a 
Deputy General Counsel at the FBI, and everything Mr. Iscoe 
said and Mr. Radek just said is correct. The matter has been 
referred internally to OPR within FBI, with the suggestion that 
if they find this appropriate--that is, if FBI OPR finds it 
appropriate--to ask for the assistance of DOJ OPR. I know that 
FBI OPR has started the investigation. I don't know if they 
have yet asked DOJ OPR to participate.
    Chairman Thompson. Well, I would reiterate--I want both of 
them up here in our offices, Senator Lieberman. I think we can 
do this privately, initially. That's not to say, after we talk, 
that we are not going to do what we were talking about anyway, 
in terms of having hearings and subpoenas on this. But if there 
is a reason to believe that this thing can be done in a 
reasonable period of time, in an objective way, then we are 
willing to at least listen to that argument. But I do not want 
FBI OPR to come up here and then, a week later, the other one 
be brought in and I have to schedule another meeting. So it's 
the end of the day Thursday, if they choose to--I am not going 
to try to make them come. I am not going to subpoena them. But 
if they choose to come in and try to convince the two of us 
that another internal investigation on this matter is the way 
to go, we will listen to them. OK. Will you deliver that 
message for us?
    Mr. Iscoe. Mr. Chairman, we will both convey that and we 
will get back to you and Senator Lieberman. We all understand 
your concern, and that is speaking for the department; I'm sure 
for the Bureau, as well. We all wish that you had those notes 
so that we would all know what was in them.
    Chairman Thompson. Well, I know that most of you do, and I 
do not have to make allusions to other investigations that are 
going on right at this time. But we would be derelict in our 
duty if we continue to sit on our hands. I sat here for a year, 
hearing things, seeing things in bits and pieces, hearing of 
documents being destroyed or going missing, investigations not 
being conducted, things going too slow, people leaving the 
country, investigators lacking of permission to follow up 
aggressively on leads and so forth, and I am sick and tired of 
it. And this may be late in coming, but there usually is a day 
of accountability and we may just be about to get to that day. 
Thank you.
    Let's get back to the issue of the search warrant. As you 
know, there was disagreement with regard to whether or not 
there was probable cause for a search warrant. The issue 
coalesced, as I understand it, on July 2, 1997. Up until that 
time, what did the records show? What did we know about Charlie 
Trie? First of all, we knew all of the things that started the 
Justice Department in action back in November 1, 1996--
November, December, January, February, on up until this time. 
The newspapers were full of things. They are only newspapers, 
but if you were investigating anybody else, anything else, you 
would sometimes have to look at those things, based on 
anonymous sources, as possible investigative leads.
    So, there was a lot of information out there about Mr. 
Trie, who he was, his friendship to the President, the fact 
that he was a close associate of Ng Lap Seng--who was himself, 
shall we say, an unsavory character. There was information 
concerning Mr. Trie being the one that handled the money for 
the President's Legal Expense Trust, or a good deal of it. And, 
also, by then Mr. Trie had fled. I am not sure exactly the date 
that he did that, but he had fled the country.
    So, that is where we started. Then we had a couple of trash 
covers--on June 24 and July 1. FBI agents said that there was 
information that they felt was very troubling, that there was 
information that they thought was responsive--in the second 
trash cover especially--to the subpoenas that both this 
Committee and the campaign task force had outstanding during 
that period of time.
    On June 29, you knew that Maria Mapili and two others had 
removed documents from Mr. Trie's residence to her residence, 
and you had these four agents here today who believed there 
then, that there was probable cause. They were concerned that 
evidence was being destroyed. According to them, Laura 
Laughlin--their supervisor here in Washington--agreed. 
According to Ms. Parker, as I recall her testimony, Mr. Biran, 
a DOJ attorney on the campaign task force, agreed. I think, Ms. 
Ingersoll, you may have been on vacation up until that time, 
and you came back along about that time, and you disagreed.
    Agent Parker had already flown down to Little Rock under 
the impression, having drawn up the affidavit and with Mr. 
Biran making changes after having agreed with her--everybody 
was under the impression, apparently--that the search warrant 
was going to be issued. And then she was told that this had 
been countermanded. In the midst of the discussion over whether 
or not the warrant would be issued, a call comes in from the 
FBI in Little Rock, who said a man is taking documents from Mr. 
Trie's residence, and putting them in a car. They later found 
out that it was Ms. Mapili's attorney, but did not know that at 
the time.
    But, anyway, they wanted--under exigent circumstances--they 
wanted permission to stop the car and check, see what he was 
getting, and your office said no, and overall said no to the 
search warrant. And, then, Ms. Ingersoll--strangely, this 
troubles me more than anything else, I think, and I really 
would like your explanation--on July 7, you apparently wrote a 
memo. Do you have that handy? When you were recounting this 
matter, you said the Bureau was very, very keen on doing these 
searches, but in the end, after much discussion, the case agent 
and Ms. Laughlin, FBI, conceded that there was no PC, probable 
cause, for either.
    Now, you heard the case agent--I assume you are talking 
about Parker.
    Ms. Ingersoll. Actually, no; and Agent Parker was correct 
in assuming that, in that case, I can only have meant Mr. 
Sheridan.
    Chairman Thompson. All right.
    Ms. Ingersoll. He was the co-case agent.
    Chairman Thompson. All right. Well, Mr. Sheridan said that 
he was never under the impression that there was not probable 
cause. Ms. Parker said she talked to Ms. Laughlin and, 
according to Ms. Laughlin's comments to her, she also always 
believed that there was probable cause. Did these people lead 
you to believe that they thought, after you argued about it for 
awhile, that they didn't believe that there was probable cause?
    Ms. Ingersoll. Mr. Chairman, I can only answer that 
question by recounting the events as they occurred in my 
experience, if I may do so. The agents did. This incident has 
to be looked at in the context of an issue that came up a week 
previously, and that is the Keshi Zhan arrest warrant issue. I 
will not go into that in detail. The Committee may have 
questions about it later this afternoon. We will be happy to 
answer them.
    Chairman Thompson. You say that matter came up when?
    Ms. Ingersoll. One week prior to the Maria Mapili search 
warrant issue.
    Chairman Thompson. I thought that had come up much, much 
earlier than that.
    Ms. Ingersoll. No. The Keshi Zhan arrest warrant was 
presented to us--the affidavit was presented on the weekend of 
June 21 and 22.
    Chairman Thompson. All right.
    Ms. Ingersoll. The meeting that Ms. Parker described 
occurred on June 23. It was a meeting that we decided--well, 
what we had decided at the case attorney level, in consultation 
with me, was that we didn't believe that there was probable 
cause to support a criminal complaint against Keshi Zhan 
because we did not have any evidence that was presented to us 
from the FBI that she had knowledge of the FECA rules and 
regulations, that we would have had to prove if, in fact, we 
had wanted to convict her.
    We are not in--at least in my experience, we have not been 
in the business of arresting people without having valid bases 
for the criminal charges underlying the arrest warrant.
    Chairman Thompson. All right. Let's stop there just a 
second, and then I want you to not lose your train of thought 
and pick up from there, because I know you are going to another 
place on that. Do you recall what you had with regard to Keshi 
Zhan at that time? Clearly, she was being used as a conduit by 
Mr. Trie; right?
    Ms. Ingersoll. It is my recollection--and I have not 
reviewed those documents, Mr. Chairman--but my recollection is 
that we had strong evidence or substantial evidence on pretty 
much everything except the knowledge.
    Chairman Thompson. Well, how do you get knowledge, except 
either a confession or by implication from all of the 
circumstances? We just convicted a man of first-degree murder 
in Tennessee last week on circumstantial evidence. He did not 
confess anything. There was not an eyewitness to it. Here, she 
is clearly a conduit, clearly a close associate that Mr. Trie 
is using, who is about to flee the country and who did, in 
fact, flee the country. Because you could not read her mind, 
did you feel that this was something you ought not to move on?
    Ms. Ingersoll. Mr. Chairman, there is one important 
distinction to be drawn between a murder charge and that of the 
malum prohibitum of a----
    Chairman Thompson. Yes, murder is more serious.
    Ms. Ingersoll. Absolutely. But, more to the point, as to 
today's inquiry, we do have to show, in order to prove the FECA 
violations, that there was a certain level of knowledge of the 
applicability of the rules and regulations in order to show the 
requisite criminal willfulness. We do not have to necessarily 
get into the mind of the actor. It is possible to come up with 
documents that will do the job.
    And, in fact, at the end of this meeting on June 23 that 
was attended by high-level Bureau personnel, as well as 
Criminal Division and DOJ personnel, there was a consensus that 
there would be no arrest warrant because there was a failure of 
sufficiency of evidence unless the Bureau could go back to its 
records and pluck from them DNC or other donor cards, I believe 
is what they were called, which could be attributed to Keshi 
Zhan and show her willfulness.
    Chairman Thompson. Once again, you, to me, were demanding 
the kind of case that you would walk into the courthouse with--
obviously, you do not want to operate on flimsy evidence, but 
you already had documentary evidence. You had documents. You 
had records showing that she was being paid money 
simultaneously with the checks that she was writing and she was 
leaving the country.
    You did not have to go to trial the next morning, I mean, 
that is not a matter of your unilateral decision. What we are 
talking about here is whether or not we present this to an 
objective independent magistrate; right? That is the issue.
    Ms. Ingersoll. Well, for the issuance of the warrant, yes, 
it would have to be sworn to. But, more to the point, if we 
were to detain her and seek to keep her, we would have to have 
had a detention hearing. If she were detained, we----
    Chairman Thompson. And you do not think, under those 
circumstances, that you would have had the right to detain her 
long enough to get a warrant, so that an independent magistrate 
could make the determination?
    Ms. Ingersoll. Mr. Chairman, I think the issue is if we had 
a criminal complaint, we would have had to obtain an 
indictment.
    Chairman Thompson. No, you would not. I mean, you would 
have needed to have enough evidence that you thought you were 
certainly leaning in that direction. There is no question about 
that. But there is no rule that says, under those 
circumstances, that you have to indict anybody.
    Ms. Ingersoll. If we want to keep her in jail and not 
dismiss the complaint.
    Chairman Thompson. Well, whether she is in jail or not--
ultimately, you would have to make a decision.
    Ms. Ingersoll. Mr. Chairman, it was my understanding that 
one of the key motivating factors for these agents was to do 
just that, to detain her so that she would not leave.
    Chairman Thompson. Well, then, under those circumstances, 
if she had skipped bond, in effect, then that would have added 
a little bit to the case; wouldn't it?
    Ms. Ingersoll. Mr. Chairman, at the time, other information 
that we had before us indicated that she had every expectation 
of coming back.
    Chairman Thompson. Do you know when she came back?
    Ms. Ingersoll. She came back in time to be deposed by this 
Committee's staff, in mid-August, I believe, and it was my 
understanding that that was by prearrangement; that is, that 
her plans had been to----
    Chairman Thompson. What evidence did you have that she was 
going to come back? You acknowledge that there was strong 
evidence that she was about to leave, right?
    Ms. Ingersoll. It was my understanding from the agents that 
she had put in for leave from her place of work for a set 
period of time.
    Chairman Thompson. At that time, did you know whether or 
not Mr. Trie had already left?
    Ms. Ingersoll. I don't recall.
    Chairman Thompson. Others were leaving on a fairly regular 
basis all through that year. Was that part of the discussion at 
all?
    Ms. Ingersoll. I don't recall.
    Chairman Thompson. All right. You were leading up to 
another point before I interrupted you, so go ahead as you 
choose.
    Ms. Ingersoll. The point is, Mr. Chairman, as to this 
particular issue, that the decision was not left simply to me. 
It was not simply left to Mr. Radek. It was a decision that was 
made, as awkward and cumbersome as the process was, it was made 
by consensus after the agents had every opportunity to pitch 
their very best case to their management, as well as ours. They 
did so; and, frankly, I think they did a truly commendable job, 
but the consensus was that we were right as to whether there 
was sufficient basis to obtain the arrest warrant.
    Chairman Thompson. Consensus of whom?
    Ms. Ingersoll. The consensus of Mr. Richard; Mr. Litt; Mr. 
Gangloff, in addition to Mr. Radek; the two case attorneys, Mr. 
Corcoran, Mr. Biran; myself; Bob Bryant; Neil Gallagher; Larry 
Parkinson, the counsel to the FBI; Mr. Lampinski, who was 
heading the FBI contingent; and Ms. Laughlin; and, also, 
Harvey----
    Mr. Radek. Richikoff.
    Ms. Ingersoll. Richikoff.
    Chairman Thompson. What is that, about 15 people you had to 
make this decision? I mean, how many people----
    Ms. Ingersoll. Mr. Chairman, I referred to this as sort of 
an en banc appeal that we made available to the agents; and, 
yes, we sat in----
    Chairman Thompson. Well, you also said in your memo that 
Mr. Sheridan and Ms. Parker agreed with you, and they said 
that--or Mr. Sheridan agreed with you, and he said that is not 
true.
    Ms. Ingersoll. Mr. Chairman----
    Chairman Thompson. You said Ms. Laughlin agreed with you, 
and Ms. Parker said that is not true. You mentioned Mr. Biran. 
Ms. Parker said Mr. Biran agreed with her. So, I guess it is in 
the eye of the beholder, perhaps, as to whether or not there 
was a consensus. What clearly happened was that everybody 
connected with the FBI thought you should go forward and 
everybody connected with the Justice Department thought you 
should not.
    Ms. Ingersoll. Mr. Chairman, are you talking about the 
Keshi Zhan arrest?
    Chairman Thompson. No. I am talking about----
    Ms. Ingersoll. This meeting that I was talking to you about 
was the Keshi Zhan arrest warrant issue.
    Chairman Thompson. I am sorry. I was moving on to the 
search warrant issue.
    Ms. Ingersoll. I understand.
    Chairman Thompson. I am sorry.
    Ms. Ingersoll. And the reason I wanted to impress upon the 
Committee that we had used this appeal process, cumbersome as 
it was, was that Agent Parker and Agent Sheridan knew that this 
process was available, and if they had had the questions and 
concerns in their minds that it appears they did have at the 
time about the Maria Mapili and Charlie Trie residence search 
warrants, they had every opportunity to use that appeal 
mechanism. Again, they did not.
    Chairman Thompson. Excuse me. Mr. Radek, were you or Mr. 
Richard or Mr. Litt ever in a meeting with any of these FBI 
agents here today to discuss any of these matters; do you 
recall?
    Mr. Radek. I believe I was at the meeting discussing the 
Keshi Zhan arrest. I do not recall meeting with any agents on 
the Mapili-Trie search warrants.
    Ms. Ingersoll. There were, however, Mr. Chairman, 
numerous--Mr. Richard's weekly meetings that continued. There 
was a briefing to the Attorney General.
    Chairman Thompson. What you are saying is they could have 
gotten into those meetings if they had wanted to.
    Ms. Ingersoll. Yes, exactly.
    Chairman Thompson. All right.
    Ms. Ingersoll. Exactly.
    Chairman Thompson. I take your point, but let's get back to 
the issue at hand. It is certainly understandable that 
different people and different sets of people can have 
different views in terms of probable cause. But, within the 
context of all that was going on here, would you like to take 
the opportunity to explain your reasoning in light of what the 
FBI says was evidence being destroyed? Why did you not put to 
an independent magistrate the question of whether or not there 
was probable cause for a search warrant?
    Ms. Ingersoll. Mr. Chairman, the first thing I would like 
to do is draw the Committee's attention to the actual affidavit 
that was before us, because there has been a lot of discussion 
today about what the agents thought or knew or believed, and 
what they thought that we knew or believed. But, in fact, as 
best we can tell, the version of the various affidavits that 
have been turned over to the Committee, that is, the one that 
was an issue on July 1, or at least the early morning of July 
2, is the one numbered 5 on the inventory of documents provided 
to the Committee yesterday. It is Bates numbers DOJ00173 
through 00196, and it has a cover sheet that says----
    Chairman Thompson. I have it.
    Ms. Ingersoll. In fact, I believe it is in your book. And, 
as best we can tell or recollect, this is the affidavit that 
was presented to us, that I had before me on the morning of 
July 2, and it is the first time that I saw it.
    Chairman Thompson. I was under the impression you were 
beginning to review the affidavit the night before.
    Ms. Ingersoll. I believe that that task was given to the 
case attorney, who was much more familiar with the case and 
who, in the normal course, would have been the first line.
    Chairman Thompson. And who would that have been?
    Ms. Ingersoll. Jonathan Biran.
    Chairman Thompson. Who I have been calling Baron all this 
time?
    Ms. Ingersoll. Yes.
    Chairman Thompson. All right.
    Ms. Ingersoll. And if you would turn to pages 11 through 13 
of this affidavit, the first thing I will point out is that at 
the bottom of 13--or actually the top of page 14--this 
affidavit ceases being a Trie-Mapili search warrant affidavit 
and continues in its original vein, which is that of the Keshi 
Zhan arrest warrant affidavit. In other words, the agent quite 
sensibly took the Keshi Zhan arrest warrant affidavit and used 
that as sort of a template for producing the search warrant 
affidavit. She had only gotten partway through it as of the 
morning of July 2, a time when the documents--the summaries 
that have been submitted to this Committee--suggest she was on 
her way, with an affidavit in hand, to present it to a 
magistrate. As far as we were concerned, there was nothing near 
a final affidavit.
    The second point I want to make is that the documents at 
issue are described on pages 11 through 13, and it is those 
descriptions that are the only thing that we had before us in 
order to make our decision.
    Chairman Thompson. What descriptions?
    Ms. Ingersoll. The descriptions of the documents that are 
on pages 11 through 13. That is all we knew about what had been 
obtained in the trash cover. It is certainly my practice to 
rely on the agents to present their very best case to support 
probable cause in an affidavit, and it is our jobs as attorneys 
to help them do that.
    The fact is that I did not, and I do not believe any of the 
attorneys on the task force, actually saw any of these 
documents until Mr. Biran and Ms. Parker traveled to Little 
Rock on August 1 to review the documents. We did not have 
copies of these. So, on their face, as far as we could see, 
there was no--to use the Chairman's term--smoking gun in these 
documents.
    Chairman Thompson. Well, excuse me. We are not talking 
about trying to electrocute someone. We are talking about 
trying to get something to an independent magistrate to make a 
determination. It bothers me when you talk in terms of a 
smoking gun. There has to be probable cause. You do not do it 
lightly. These people were clearly--I mean, even you have to 
acknowledge--were destroying documents that were relevant. 
Let's just leave it at that point for this time. But it does 
not have to be a smoking gun.
    In fact, that reminds me of what Ms. Parker said, that you 
told her that you had to have probable cause to convict in 
order to issue a search warrant. Did you actually say that?
    Ms. Ingersoll. Mr. Chairman, I cannot imagine having said 
that.
    Chairman Thompson. I know you know better than that.
    Ms. Ingersoll. One of the members--and I certainly do not 
recall having said that.
    Chairman Thompson. Well, it is not true; is it?
    Ms. Ingersoll. Absolutely not.
    Chairman Thompson. All right.
    Ms. Ingersoll. And the members pointed out that there were 
either two options; either I got it wrong or I did not know the 
difference. I suggest that there is a third option, and that is 
that it was incorrectly heard.
    Chairman Thompson. Incorrectly what?
    Ms. Ingersoll. Heard.
    Chairman Thompson. Heard?
    Ms. Ingersoll. Or understood by the agent. By the way, I 
have the same response to the suggestion that Mr. Yaffe would 
have misstated the basis for issuance of a search warrant.
    Chairman Thompson. Well, there is an awful lot of that 
going on. There is an awful lot of misunderstanding on the part 
of the agents, sufficient that a man in the Bureau for 25 
years, for the first time in his career, would write his 
director.
    Ms. Ingersoll. Mr. Chairman, may I point out that I have 
never seen Mr. Smith before today. I have never met him and I 
have never had any conversation with him. I had had a passing 
conversation with Dan Wehr and met him once.
    Chairman Thompson. All right.
    Ms. Ingersoll. If I may continue, Mr. Chairman. When I said 
smoking gun, I meant that there was nothing that we saw, in 
reviewing this draft affidavit, that indicated to us that any 
of these documents that were being discarded was anything 
incriminating. I certainly concede that, on their face, they 
appear to be relevant in that they pertain to the businesses of 
Charlie Trie and to certain persons with whom we had good 
reason to believe Mr. Trie was associated.
    Chairman Thompson. Well, you had subpoenaed documents 
relating to Mr. Trie's businesses, travel, and financial 
transactions, had you not?
    Ms. Ingersoll. We had, sir, on the date after the first of 
the trash covers, that is.
    Chairman Thompson. Well, I am talking about June----
    Ms. Ingersoll. June 27.
    Chairman Thompson. About June 27, and now we are talking 
about a consideration of July 2.
    Ms. Ingersoll. Yes, but if you look at paragraph 35, 
beginning at the bottom of page 11, those items, although the 
date of the trash cover is not specified here, are from the 
June 24 trash cover, 3 days before the subpoena was served, and 
at a time when Ms. Mapili had no reason to believe that the 
Justice Department was going to be seeking documents.
    Chairman Thompson. Well, let's think about that right now. 
Ms. Mapili, before you issued the subpoena--what can I say 
about that? After all that was going on--I think Mr. Trie had 
fled the country. Somebody correct me if I am wrong. He had 
already fled the country; it was all over the newspapers. And 
this probable cause you find to be insignificant--or 
insufficient, I should say--includes the statement in this 
affidavit, ``The trash cover indicates that Maria Mapili is and 
has been destroying documents relating to Yah Lin Trie's 
businesses, travel, and financial transactions.''
    I think most scholars will tell you that if Richard Nixon 
had destroyed the tapes even before they had been subpoenaed, 
he would have had a little bit of a problem. Do you think she 
really had no reason to not be throwing out or tearing up and 
destroying these kinds of things, not to mention the fact that 
this Committee had already subpoenaed these documents? You were 
aware of that; weren't you, at that time?
    Ms. Ingersoll. Mr. Chairman, I was aware that this 
Committee had issued subpoenas. One of the local papers here in 
Washington listed, on February 14, I believe, about 52 
subpoenas that had been issued by the Committee the day before. 
Mr. Trie's businesses were among them. My recollection is Ms. 
Mapili was not by name, although Mr. Trie's businesses, as I 
say, were. That subpoena had been issued and, presumably, as 
far as I knew, served for 4\1/2\ months prior to our 
consideration of this affidavit.
    I had not seen any subpoena that had been served on Ms. 
Mapili. I did not know that any Committee subpoena had--whether 
or not it had been served on her. So our concern was--given the 
4\1/2\-month passage of time, our concern was with her response 
to our grand jury subpoena.
    Chairman Thompson. You thought this Committee had issued a 
subpoena 4\1/2\ months ago. We really do not know what is in 
it. We are not going to look. We are not going to ask. She is 
obviously destroying documents having to do with business 
records of this man who had fled the country, etc., all in the 
newspapers. And, so, you felt that was insufficient because you 
did not have your own subpoena out there.
    So let's go to after you had your own subpoena out there. 
You subpoenaed these documents--basically campaign finance 
documents--on June 27.
    Ms. Ingersoll. Correct.
    Chairman Thompson. And this affidavit mentions several 
documents pertaining to the trash search on July 1. So, this is 
a few days after you issued your subpoena.
    Ms. Ingersoll. It says that three documents--or three sets 
of documents were--that the agents believed were relevant----
    Chairman Thompson. Well, the department has redacted parts 
here, so we do not know what is----
    Ms. Ingersoll. If you look at the bottom of page 13, there 
is another heading, and I can represent to you that what is at 
the top of page 14 is not----
    Chairman Thompson. Not relevant.
    Ms. Ingersoll [continuing]. Is not among that list.
    Chairman Thompson. Let's look on page 13. What they said 
they were getting from the trash covers--the trash cover on 
July 1--is the following documents: (A) a 1995 Daihatsu 
financial statement, which had been ripped into pieces; (B) a 
fax cover sheet indicating that the Daihatsu financial 
statement described in the preceding paragraph had been faxed 
in April, 1996 to Antonio Pan; and (C) approximately nine 
crumpled check carbons relating to Daihatsu's account at First 
Commerce Bank, Little Rock, Arkansas.
    And, then--of course, I think it would be fair, at least at 
that point, to go back and look at what has been destroyed in 
the past whether or not you have a subpoena outstanding. You 
are entitled to not be oblivious to the fact that in the 
previous trash cover, that they had discovered a check register 
for a bank account with the name of Daihatsu; and a Federal 
Express package, empty, indicating it had contained a two-pound 
package sent by the White House Office of Administration on May 
5, 1997.
    Ms. Ingersoll. Mr. Chairman, I would suggest that that 
comparison of----
    Chairman Thompson. And then there are eight or nine other 
items of probable cause that they have listed. Excuse me. Go 
ahead.
    Ms. Ingersoll. It might actually suggest that she had not 
changed her pattern----
    Chairman Thompson. I will agree with that.
    Ms. Ingersoll [continuing]. While she received the--once 
she was on notice. I will point out that there is nothing in 
this description--and I cannot recall specific conversations 
that we had, and I daresay the agents cannot--but I would have 
asked what is it about this 1995 Daihatsu financial statement--
that is, apart from the fact that it is a business record or a 
business document coming out of that address--what is it that 
gives it some particular probativeness in this case? What is it 
about the fact of the cover sheet and the nine check carbons? 
Who are those checks to? What do they have on them?
    Although we did not know about it at the time--in other 
words, we did not know what the documents were. The agents did 
not present to us--did not bring us, as we would have wanted to 
see, what those documents actually were. And now I find--
because I never saw the trash cover production until my 
preparation for my appearance here today. If the Committee 
looks at the production that the department has made of the 
trash cover documents, and it is the set of documents labeled 
SWCT-2-0520, I find that the descriptions of the items that I 
see in this trash cover production are--I would have wanted 
them to be fuller and more complete; and that, in fact, I do 
not find in this package nine copies of check carbons. I find 
one and some other personal checks of Maria Mapili.
    So we did not have anything to go on, other than this. That 
fact, coupled with the fact that the search warrant affidavit 
was far from being finalized in a sufficient state to be 
presented to a magistrate----
    Chairman Thompson. Well, it was not a matter that it just 
needed a little tweaking. You turned them down. You heard the 
testimony that Mr. Biran was the one doing the tweaking, and 
when Ms. Parker caught the plane to Little Rock, she felt it 
had been tweaked sufficiently.
    We can argue over how extensive the probable cause is. All 
I know is you had a 23-page affidavit listing a laundry list of 
stuff before your subpoena--after our subpoena, but before your 
subpoena--and listing another group of things after your 
subpoena having to do with the business records and other 
things of this individual, who was a very high priority as far 
as all these investigations were concerned. This was very 
sensitive, Trie was a friend of the President, and you had your 
FBI agents, the entire contingency, telling you these people 
are destroying documents. But you were making a contrary 
decision. What is done is done. We do know more now, and you 
are not to be held to this, I know that. But we do know now--
just as we know that an FBI request relating to Wen Ho Lee was 
turned down by another group over in the Justice Department for 
lack of probable cause, after which he may have deleted files 
on his computer--we do know now that we finally came up with a 
cache of documents pursuant to the search warrant in October. 
And we found that Ms. Mapili apparently acknowledged that, yes, 
Mr. Trie told her to destroy documents and she did that. I just 
find it, in the context of things, impossible to support.
    Ms. Ingersoll. Mr. Chairman, may I make one more point as 
to that? And that is part of the great difficulty in dealing 
with this particular search warrant affidavit is that it truly 
was one of the very few things that if the agents presented to 
us, that we turned down. My posture and the posture of my 
supervisors, and certainly the posture of the attorneys on the 
task force who were working with me was to support the agents 
in virtually any investigative tack that they wanted to take, 
so long as it was lawful and so long as it did not run afoul of 
the Independent Counsel Act.
    This was a very difficult call, and I did not make the 
decision myself. We took it up the line. The agents had the 
option to appeal it, and the various other--in fact, events 
that unfolded pertaining to the attorney who showed up to take 
custody of these documents.
    Chairman Thompson. Let me ask you one other area here, and 
I need to correct something I think I said earlier, that Keshi 
Zhan did not come back until our investigation was over with. 
That is incorrect. My staff informs me that--you are right--she 
was interviewed on August 14, 1997. She did not tell the truth 
and was therefore was not helpful.
    But on the business of the trash cover that produced the 
documents that had to do with the President's Legal Expense 
Trust, on July 29, there was a trash cover that produced such 
documents. I understand Ms. Parker came to the meeting at the 
Department of Justice. She remembers you, Ms. Ingersoll, Mr. 
Biran, and perhaps others. The testimony has been, generally 
speaking, that you did not feel like this was a matter within 
your jurisdiction or your interest. There was apparently also a 
discussion at that point about the significance of threatening 
a subpoena issued by this Committee and whether or not what 
they were doing would constitute obstruction of justice--what 
the potential defendants were doing.
    Now, I have generally characterized all this in order to 
get us into this discussion, and you can recharacterize it 
however you wish. What do you recall about it?
    Ms. Ingersoll. I simply--I actually do not have much, if 
any, recollection, Mr. Chairman; but my own records shown that 
a meeting did occur. I was present, as well as Jonathan Biran, 
and Eric Yaffe, another experienced attorney in the task force. 
Ms. Parker was present, and the meeting was held by Mark 
Richard. I believe Mr. Radek was on vacation. And there was a 
discussion of Mr. Trie. We had determined some time earlier 
that the PLET incident, in and of itself, did not give rise to 
violations of Federal criminal law. So that, in and of itself, 
was not--would not provide a basis for a search warrant?
    Chairman Thompson. What did not?
    Ms. Ingersoll. The PLET.
    Chairman Thompson. Oh.
    Ms. Ingersoll. The Presidential Legal Expense Trust. 
Perhaps Mr. Radek could address how that issue came about.
    Mr. Radek. With respect to that issue, Mr. Chairman--and 
there was lengthy discussion between various people in the 
department and the Bureau. The problem was, of course, that the 
Federal Election Campaign Act did not apply to contributions 
made to the Presidential Legal Expense Funds. As we looked at 
the kind of conduct that was being examined, it was foreign 
contributions, conduit contributions, the kind of things that 
would constitute a Federal crime if they were campaign 
contributions. But, because they were not campaign 
contributions, they were not covered by that law, and so we 
could not see an offense.
    We expressed that legal opinion early and often. It was 
discussed ad nauseam. There was some disagreement with that in 
the Bureau, and, in fact, they continued to investigate aspects 
of that. It is my opinion, contrary to the testimony earlier, 
it is my recollection, rather, that those documents were called 
for in our subpoena, but, obviously, they were in the Senate 
subpoena.
    Chairman Thompson. I think you may be right about that. I 
think she may have been in error about that. I looked at it--it 
has been awhile, but I do not think your subpoena called for 
this.
    Mr. Radek. Could I say, generally, Mr. Chairman, with 
respect to this Committee's investigation, we were aware of the 
investigation and we were desperately looking for crimes to 
accuse these people of and bring them to justice. We viewed any 
obstruction of this Committee's investigation as an opportunity 
to advance our investigation. And, in fact, at an earlier 
point--I believe it was in March--we contacted counsel for this 
Committee, Mr. Madigan, and Harry Damelin came over, and we 
notified them that, in another matter, we found documents that 
were being destroyed that were pursuant to this Committee's 
subpoena.
    We would have done that again here, I am sure, had we known 
the specifics. That was a practice that I think we established 
at an earlier time. In fact, I remember a conversation with Mr. 
Madigan in which I told him I thought that this Committee's 
work was very serious and could probably accomplish more than a 
criminal investigation could because of the inadequacy of the 
campaign laws and the fact that we really did not have a hammer 
over the people that we were investigating and we were going to 
have a lot of trouble getting them to cooperate.
    Chairman Thompson. Well, I know what you are talking about. 
But when you describe the previous instance, where people were 
destroying records pursuant to our subpoena and you came up 
here and told us about it, you have got to understand that the 
way you conducted yourself with regard to the Charlie Trie 
situation makes it look even worse because that other 
individual was not a good friend of the President, right?
    Mr. Radek. I do not know.
    Chairman Thompson. With regard to the much less significant 
character in this investigation--you told us about that, but 
you did not tell us about this, and that is extremely 
troubling. At least, by this time, Ms. Ingersoll, July 29, you 
knew all about this Committee's subpoena; did you not?
    Ms. Ingersoll. That is not correct, Your Honor--I mean, Mr. 
Chairman. I do not know whether the Chairman would consider 
that a promotion or not. No, I do not recall ever having seen 
this Committee's subpoena with respect to Ms. Mapili, in her 
role as custody--custodian of records for Charlie Trie, whether 
by name or not. I do believe that at the beginning of this 
search warrant matter, at the end of June and early July, that 
an agent represented to me that there had been such a subpoena, 
but he did not know what it contained or whether it had, in 
fact, ever been served on Ms. Mapili.
    At the end of July, when I directed Jonathan Biran to 
travel down to look at not only the search--the trash cover 
production--but also to look at the--to examine the documents 
that had been produced to us, pursuant to our grand jury 
subpoena, at that time, I still had not seen this Committee's 
subpoena. I believe that the Committee has received something 
that looks--it does not have a Bates number on it, Mr. 
Chairman. It is a fax cover sheet with a letter, and attached 
is this Committee's subpoena to the custodian of documents at 
Daihatsu. It has some indication that it was received by the 
U.S. Marshals Service in Eastern Arkansas.
    As best as I can recall, the first time I ever laid eyes on 
this was earlier this week or last week, when I reviewed what 
the department had turned over to the Committee. The cover 
sheet indicates that it was faxed by Dan Wehr to Roberta Parker 
in Washington. It, therefore, is apparent to me that at least 
as of the afternoon of July 25, Ms. Parker was aware of the 
specific terms of the agreement. I have asked Mr. Biran, and he 
does not recall having ever seen this subpoena.
    The reference in my handwritten note,\1\ which has been 
turned over to the Committee, dated Monday, August 4--reflects 
a conversation that I had with Jonathan Biran when he came back 
from Little Rock and described to me what had been--what he and 
Ms. Parker had found in the production--in the trash cover 
documents down there.
---------------------------------------------------------------------------
    \1\ The memo referred to appears in the Appendix on page 134.
---------------------------------------------------------------------------
    Mr. Biran's analysis was notable in two respects. First, he 
told me that there were material items, according to my note, 
that had not been discarded by Ms. Mapili, according to the 
trash covers, but were nonetheless not only very material to a 
case against Mr. Trie, but on their face were relevant. They 
were a handwritten ledgers with notations showing political 
donations and wire transfers in and payments out and even 
amounts, precisely the kind of evidence we had been looking 
for, and it was turned over in response to the grand jury's 
subpoena.
    Mr. Biran also pointed out that the PLET check copies that 
were there had been, in fact, turned over to us. Frankly, Mr. 
Chairman, it seemed to make sense to me that if Ms. Mapili had 
turned over PLET checks that were not responsive to our grand 
jury subpoena, that she surely would have turned them over to 
this Committee when they were specifically called for in your 
subpoena.
    Chairman Thompson. Well, I cannot follow all of that, but I 
would like to get back to my original question. Are you denying 
that, on July 29, Ms. Parker attended a meeting with you and 
the others on this July 29 trash cover, about the PLET 
documents? You remember that--so far, you remember that 
conversation--don't you?
    Ms. Ingersoll. I do not.
    Chairman Thompson. You do not remember that?
    Ms. Ingersoll. A conversation with----
    Chairman Thompson. Well, do you recall her testimony that 
you talked about the Senate subpoena at that time?
    Ms. Ingersoll. I recall her testimony, yes.
    Chairman Thompson. But you do not recall the fact that you 
knew anything about the Senate subpoena?
    Ms. Ingersoll. I believe, based on--certainly based on this 
notation of August 4, that I had been told that there was a 
subpoena. I have no recollection of ever seeing that or knowing 
its contents.
    Chairman Thompson. Well, it looks to me like that everybody 
in the Justice Department was studiously avoiding trying to 
look at it. Mr. Wehr said he had seen the subpoena before July 
1; Ms. Parker, by July 29, as I recall. And everybody knew that 
there was such an animal out there long before that, and you 
said it had been in the newspapers and everything else, and 
that this notation was August 4 and your handwriting presumably 
says, ``PLET documents, we do have''--with an exclamation 
point--``even though not responsive to us, just to Senate.''
    Mr. Radek. Mr. Chairman, I think there is an earlier entry 
from Ms. Ingersoll's log where she instructs somebody to get 
the Senate subpoenas. I believe it is around August 1.
    Ms. Ingersoll. It is a notation--I do not have the Bates 
stamp--but it is a note that I wrote during the course of a 
Trie team meeting, and the Committee has indicated it is aware 
the Trie team was one of the teams of agents--was denominated 
that way because it was working on the Charlie Trie matter. 
During the course of that meeting, I wrote down, ``Get Senate 
subpoena''--paren--``Check with Wehr''--W-E-H-R, Dan Wehr, 
``first.'' And below, down a little bit, ``Go to Little Rock 
this week,'' and then, ``trash cover analysis.''
    So, clearly, there was discussion of this Committee's 
subpoena. Mr. Chairman, I do not recall ever having seen it.
    Chairman Thompson. What would you have been thinking? Let's 
assume for a moment Ms. Parker is correct, and this would 
certainly be consistent with what you just said that on June 
29, you got this trash cover and the FBI thinks it is relevant 
to their investigation. I can see the point that you make with 
regard to that. I think they certainly raise a good point. If 
somebody is using a straw man for one purpose, you might use 
that as evidence for a straw man for another.
    But let's say, for the purpose of argument, that that's a 
secondary, weak argument and you are not primarily concerned 
with the President's Legal Expense Trust. Even if we accept 
that, then Parker tells you that the Senate subpoena is out 
there and they are asking basically for the same things. They 
ask for PLET documents, and she discussed whether or not it 
would be obstruction to destroy them. I cannot understand how 
it cannot be obstruction, how it cannot be a violation of the 
law, if Ms. Mapili was destroying and discarding the 
President's Legal Expense Trust documents when we have 
subpoenaed Presidential Legal Expense Trust documents. That is 
a violation of the law.
    And you were being informed--the FBI was being informed of 
this. You were obviously being informed of it. August 1, you 
say, ``Let's get a copy of the subpoena.'' Then, August 4, you 
make a determination that PLET documents are not responsive to 
you, but they are responsive to the Senate. This is your 
handwriting. Now, my question to you is in view of the fact 
that they were destroying documents responsive to the Senate, 
why didn't you do something about it?
    Ms. Ingersoll. Mr. Chairman, we had already received those 
documents and I had every reason to believe that they had also 
been produced----
    Chairman Thompson. What do you mean, you already received 
those?
    Ms. Ingersoll. That the documents----
    Chairman Thompson. Are you saying that you had received all 
the PLET documents the FBI says they were getting out of the 
July 29 trash cover?
    Ms. Ingersoll. No. I'm sorry. I think I mis-spoke. I do not 
think we did see----
    Chairman Thompson. No. If you had those, they would not be 
up there in your office talking about the significance of them.
    Ms. Ingersoll. I frankly do not recall when we received 
them. I believe that is why I sent Mr. Biran----
    Chairman Thompson. Well, let's just say hypothetically, 
don't you see our concern with what you are saying here today? 
We spent a year of our life trying to get to the bottom of 
this. Everybody pays lip service. ``Oh, you have been doing a 
wonderful job, a contribution to America. You work this side of 
the stream. I'll work the other side; and together, we will do 
justice.'' And we find that this is going on. Did you know that 
this July 29 conversation was the day before this Committee had 
hearings on the President's Legal Expense Trust?
    Ms. Ingersoll. I am sure, at the time, I knew.
    Chairman Thompson. We started our hearings on the 
President's Legal Expense Trust on July 30, and had, as I 
recall, a couple of days of testimony about that--while all 
this was happening. So, if you were told that they were 
destroying documents that might in any way be relevant to what 
we were trying to do over there, that is a criminal offense, an 
apparent criminal offense. You are a law enforcement officer. 
But not only are you not willing to let the FBI do anything 
about it, you do not even tell us about it. How can you defend 
that?
    Ms. Ingersoll. I do not----
    Mr. Radek. Mr. Chairman, if I might.
    Chairman Thompson. You just hold your horses a minute.
    Mr. Radek. This enlightens this question, though.
    Chairman Thompson. But I am asking her, then I will ask 
you.
    Mr. Radek. Yes, sir.
    Chairman Thompson. Yes, ma'am?
    Ms. Ingersoll. I believe that what Jonathan Biran was 
looking at in Little Rock was what had been produced to us, and 
that--and I believe that we had had those PLET checks produced 
to us. And, therefore, I would have assumed and believed that 
they had also been produced to this Committee. These were not 
originals. These were photocopies, as far as I know. I do not 
know what the analysis was as to the individuals named on those 
checks.
    Chairman Thompson. I asked you a little while ago, when you 
say that your task force already had these documents that were 
coming from the July 29 trash cover--the PLET documents. And I 
thought you had originally said that, and then you said that 
you did not think you were saying that. Now I believe you are 
saying it again.
    Ms. Ingersoll. I am saying----
    Chairman Thompson. Why would the FBI be up there talking to 
you about this most recent trash cover and its significance 
if--maybe they were out of the loop. I mean, you did not see 
the Senate subpoena. I assume that perhaps you did not see all 
the documents that were coming from the trash covers, either.
    Ms. Ingersoll. I did not see any of them.
    Chairman Thompson. Well, what was--all right. Mr. Radek?
    Mr. Radek. I am sorry, Mr. Chairman, but if you will look 
at Ms. Ingersoll's note, it says that Mr. Biran, in his 
communication with her, said we do have the PLET documents. Mr. 
Biran was down there, and I have learned this subsequently in 
preparation for this hearing. Mr. Biran was down there 
comparing the subpoena documents with the trash documents. He 
found that they had produced the PLET documents to us even 
though they were not responsive to our subpoena.
    Now, I am assuming--I have no reason to--I was not in on 
this decisional loop. But I am assuming that he presumed from 
that that they had probably been produced for the Senate. There 
was a failure here to quickly compare what was trash with what 
was produced, and Special Agent Parker communicated that to 
Special Agent Wehr, and eventually, it was done. There is a 
document, a letterhead memorandum of July 25, listing 
documents, and it turns out that a lot of documents that were 
being trashed, which would give you a presumption that there 
was evidence being destroyed were copies of documents that were 
also produced. That watered down probable cause a lot, Mr. 
Chairman.
    Chairman Thompson. Well, we will go back and talk to the 
relevant people, and if that is the case, then so be it. I see 
your point. Of course, you obviously have to jump through a lot 
of hoops to get to there. On the one hand, they are not 
producing documents that they are supposed to, and trashing 
some of them, and still have some of them there when you 
execute the search warrant. But, on the other hand, they are 
producing documents that they are not supposed to, and the FBI 
does not know about it. We will see.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. I am going to be 
relatively brief, because the Chairman has covered a lot of 
ground. I presume the both of you would agree that the 
Chairman's questions were quite thorough.
    Mr. Radek. Yes, sir.
    Senator Lieberman. Let me just go back to the beginning. 
You both indicated for the record that you are career Justice 
Department attorneys, and I believe, Mr. Radek, you may have 
made a blanket statement on this, but I just want to put it on 
the record. Did either of you, at any time, have conversations 
with anyone outside of the Justice Department--White House, 
political people, generally--either conversations or 
communications relating to your conduct of the matters that we 
are considering here?
    Mr. Radek. I believe we probably both--I know that I did--
have certain discussions with White House counsel about 
document production.
    Senator Lieberman. Just clarify a little what you mean.
    Mr. Radek. I mean, we were obtaining voluntary production 
of documents, and, in some cases, subpoenaed documents from the 
White House and its various offices. At one point, there were 
many outstanding subpoenas and conversations with White House 
counsel and various members of White House Counsel's Office 
took place about the timing, the nature of the production. 
There were also discussions we had with them about interviewing 
White House staff and going through White House Counsel's 
Office that I think is referred to in Mr. Smith's memorandum.
    Senator Lieberman. And that is the extent of it. Your 
answer to my question would be, no, you had no conversations 
except for the ones you have just described.
    Mr. Radek. That is correct for myself.
    Senator Lieberman. How about you, Ms. Ingersoll?
    Ms. Ingersoll. That is also true for me, Mr. Lieberman.
    Senator Lieberman. So that, just to be explicit, for 
instance, even in the White House Counsel's Office, no one 
discussed with you any of the decisions that have been the 
subject of this inquiry; for instance, the judgment about the 
sufficiency of the FBI affidavit requesting--for the search 
warrant.
    Ms. Ingersoll. Absolutely not, Senator.
    Mr. Radek. Absolutely not.
    Senator Lieberman. I mean, notwithstanding that, as I said 
earlier, I think Senator Thompson covered this fully. 
Personally, on the search warrant, and respectfully, I think 
your judgment here was in error, and I think we have 
hindsight--but because of all that was involved in this case 
and because of the nature of the evidence that had been 
uncovered in the trash cover, and you know this stuff follows a 
pattern. I mean, it is old material related to the subject of 
the grand jury, subject of the Senate committee, it just 
arouses so much suspicion that it seems to me that it would 
have been very much the better part of wisdom and always to 
have at least taken the case that the FBI brought you to the 
magistrate to decide on that search warrant.
    I do not know whether you want to respond to that. But that 
is my personal conclusion.
    Mr. Radek. Thank you, Senator Lieberman, and I would like 
to briefly describe my role in this process.
    I received a call on the morning of July 2 from two of my 
attorneys, Laura Ingersoll and Bill Corcoran. Bill Corcoran, 
despite what you have heard about him here today, is a senior 
prosecutor. He is a career Criminal Division guy. He has been a 
Deputy Section Chief in the Narcotics section. He was working 
on the House Bank Task Force as it wound down and came over to 
the Campaign Finance Task Force from that.
    While his demeanor may be a little sneaky, and I am sorry 
it offended Agent Sheridan, he is a very effective questioner, 
and I think you will find that his conduct in the handling of 
that witness was found to be appropriate by our Office of 
Professional Responsibility.
    That aside, when I received this call, two of my attorneys, 
whose judgment I respected, were saying that they did not 
believe there was probable cause, they faxed me the affidavit, 
and the thing that struck me about the affidavit was its 
incompleteness, and we discussed that. And the problem was 
this: The connections that needed to be there, in our opinion, 
to make probable cause were not there.
    And I was, I must confess, sort of offended by the way it 
tended to mislead the reader and was tending to mislead a 
magistrate. For instance, all of the--if you did not read the 
dates carefully, you might believe, as I believe Members of 
this Committee may have believed, that all of those documents 
on the long list were thrown out after they were subpoenaed. 
They were not.
    Now, you can make an obstruction case without a grand jury 
subpoena, but those documents better be incriminating. You 
better be able to show that they were thrown away to get 
somebody off of the hook. These documents were not terribly 
incriminating. They were relevant because they showed Charlie 
Trie's association with businesses and individuals.
    Senator Lieberman. Right.
    Mr. Radek. But the fact that they were not subpoenaed, I 
think those documents did not, in any way, establish probable 
cause of obstruction of justice. Now, you asked me today could 
they have tended to prove election finance crimes?
    Senator Lieberman. Right.
    Mr. Radek. I have to say the answer is yes. But the 
discussion surrounded, and my understanding was the agents were 
really primarily focusing on, and I must confess I was focusing 
on, obstruction of justice. I think that was a valid thing for 
me to focus on because what we are doing here is conducting a 
search, an extraordinary means of obtaining evidence. We 
conduct searches when we believe there are extraordinary needs 
for it, such as evidence being destroyed.
    If there is obstruction of justice going on, that is 
another reason to do a search, even for the underlying crime.
    Senator Lieberman. Right.
    Mr. Radek. If there is not, you can accomplish the same 
thing with a subpoena. So I must confess that was probably on 
my mind, although I am reconstructing at this point.
    Senator Lieberman. Let me ask you a somewhat----
    Mr. Radek. If I might just finish.
    Senator Lieberman. Oh, go ahead.
    Mr. Radek. With respect to that other small group of 
documents that were obtained in the trash afterwards, check 
carbons, to me, were not the kind of records called for in our 
subpoena, and I could understand why anyone would throw 
documents away or would throw away carbons, especially ones 
that were not readable at this point, and not realize that they 
were throwing away something that we might be interested in. 
And obviously they can be a source of evidence. But I do not 
think it is obstruction of justice for someone to throw away 
check carbons, even though documents relating to businesses 
have been subpoenaed.
    So some of that was going through my mind. I wanted that 
straightened out. And I recall a conversation with the 
attorneys, going down the list of documents as to whether they 
were incriminating or whether they were not or what they tended 
to prove. And there was very little that could be said that 
these documents were tending to prove.
    Most importantly, I think, from the obstruction of justice 
standpoint, when you serve a grand jury subpoena on someone, 
and you are doing a trash cover and surveilling, as we were, if 
there is obstruction of justice going on, you can expect some 
extraordinary activity, like a lot of documents hitting the 
trash immediately after the grand jury subpoena. We seem to 
have the opposite here. We seem to have just a few documents. 
And, in fact, in that July 25 correspondence, it says that 
there were almost no relevant documents.
    Senator Lieberman. What about the Senate subpoena, which 
was issued in March? And it seems to me that at the time of the 
FBI affidavit asking for the search warrant, there is some 
basis for making an obstruction case against Ms. Mapili, based 
on our subpoena. And I am wondering why no effort was made, 
since there was a general knowledge that we were at work and, 
in fact, what we were working on, to locate the Senate subpoena 
and to relate the possibility of a search warrant to 
obstructing our investigation?
    Mr. Radek. Well, I think that the note indicates that there 
was some effort to do that subsequently. At the time of the 
issue being presented to me on probable cause, I must confess 
my recollection now is that I was not focused on a Senate 
subpoena at all. And I do not know why, except that it might 
not have been communicated to me, and I do not know whether I 
was aware of it. I am sure I had not seen it until I was 
preparing for this hearing.
    There are some legal problems with an obstruction case on a 
Senate subpoena, one of which is we would have to know when the 
documents were created. Now, I see some of these are dated at a 
time well before the Senate subpoena. But it would not be 
obstruction of justice for someone to destroy a record that was 
created the day after the Senate subpoena was complied with, if 
it was a newly created record, because the subpoena cannot 
subpoena records that have not been created yet.
    But there were legal issues about what it said, what was 
produced and what was not produced. So we would have had to 
come to the Committee and go through everything that was 
produced, compare it with what was trashed to decide what was 
done and what was not. I do not remember making any of those 
considerations at that time. I am just telling you now what 
some of the problems might have been with getting that.
    The agents were in a hurry, we were in a hurry, everybody 
believed, to the extent we were being told, that documents, 
that evidence might be being disposed of. And so the quicker 
way was, obviously, to do a grand jury subpoena on our own.
    Senator Lieberman. Ms. Ingersoll, do you want to add 
anything?
    Ms. Ingersoll. No.
    Senator Lieberman. Again, respectfully, I wish you had gone 
ahead with the search warrant for the reasons indicated, 
particularly because of the political nature of the case, but 
also, just on my judgment, I cannot compare the volume here of 
evidence, but so much of this stuff that the agents found in 
the trash just seemed so directly related to what was being 
investigated in various places that I think we all would have 
been better off if we had had a search at that point.
    Senator Thompson also covered the question of the Senate 
subpoena very thoroughly. Ms. Ingersoll, of course, we are all 
troubled, and you heard it this morning, by the reference of 
Mr. Smith's memo to you. It is hearsay. I mean, he said he did 
not hear you say it, but this is during--I am reading from page 
3 of that August 4 memo, 1997.
    ``Most recent trash cover of Ms. Mapili's house, agents 
found photocopies of six checks from different Asian 
individuals living in Arkansas, each payable to PLET. Ms. 
Ingersoll indicated in so many words, `We will not pursue this 
matter further.' '' Now, that, I take it, might have been on 
the legal question of whether there was law related to 
contributions to PLET.
    Further, ``While clearly within the parameters of the 
Senate committee subpoena, she has, I am told, indicated she 
does not intend to refer this information to the Senate, though 
it appears Ms. Mapili has withheld documents from the Senate 
committee.''
    So the various agents that were there this morning could 
not recall having told Mr. Smith that. Obviously, he is saying 
to us he would not have just made it up. He heard it somewhere. 
He thought, he mentioned that he had also been talking to Mr. 
Lampinski and Ms. Laughlin.
    Ms. Ingersoll. Correct.
    Senator Lieberman. And perhaps it came from them. Do you 
have any recollection of any conversations that could have led 
any of those people to indicate enough to Mr. Smith to lead him 
to include that in his memo to FBI Director Freeh?
    Ms. Ingersoll. I certainly, Senator, recall nothing, nor do 
I believe I would have said anything that would have, in any 
way, suggested that we should not provide to the Senate 
anything that we had reason to believe had been withheld from 
the Senate committee.
    There had been extensive discussion, along the lines that 
Mr. Radek just described, about some of the problems in 
executing the search warrant based on a Legislative Branch 
subpoena. Those issues had been discussed approximately 3 
months earlier, and that may have--that discussion may have 
transmuted into this false representation.
    Senator Lieberman. Let me go on now to the broad question I 
asked the FBI agents this morning about whether they had ever 
had any reason to believe that politics was playing a part in 
the Department's oversight, the task force's oversight of this 
investigation.
    You were here, and you heard them all say no, except Mr. 
Wehr, Special Agent Wehr, who said--and I am paraphrasing 
here--that at one point he raised a matter, I believe it was 
he, at a task force meeting in Washington about contributions 
being made, perhaps foreign contributions, at the White House, 
with the President involved, and you said, ``We are not going 
to investigate that.'' And I believe he said that his 
recollection was that you had said, ``That's the way American 
politics works.''
    And he said he was, I believe he said, scandalized. He was 
certainly upset about that. And, of course, this was a major 
topic of our investigation, and we were all upset about it and 
criticized it in our respective reports.
    Did you say such a thing? And if so, why?
    Ms. Ingersoll. Senator, I think I will turn to Mr. Radek 
because I think we straightened that out.
    Mr. Radek. I think, as we discussed with staff, Senator 
Lieberman, I was probably the source of what Special Agent Wehr 
was referring to.
    There was, early on in this investigation, an orientation 
for the FBI agents. They came in from various places. It was 
before they had really settled in. We were explaining to them 
what the allegations were, what the violations were, what the 
investigative plan was. And when I say ``we,'' it was a 
combination of FBI and DOJ presenters, including some people 
not directly involved in the investigation, but experts on 
election laws and other things. We had someone from the FEC 
there, for instance.
    At one point during a question and answer period, it--and I 
do not remember who the presenter was. It may have been Ms. 
Ingersoll. I am not sure--it became apparent to me that the 
questioner or the audience were getting an impression that one 
could make a bribery case where there was a direct trading of 
access to a public official in return for a campaign 
contribution. I believe that you cannot make a bribery case on 
that. I think that public officials, and I believe probably 
some of your brethren, grant access to their campaign 
contributors more quickly and more often than to their 
noncampaign contributors.
    I was making the point that we could not predicate a 
campaign contribution--a bribery case, where the only quid pro 
quo was access in return for campaign contributions, and I was 
pretty clear that I was limiting my remarks only to that.
    Now, Special Agent Wehr testified that I said ``thing of 
value'' or ``money,'' and I am sure I never said any such thing 
because I think you can predicate a bribery case on access in 
return for money, just not campaign contributions, because that 
is an accepted way of politics, and we could never prove 
criminal intent.
    Senator Lieberman. So we are saying here that it was not 
Ms. Ingersoll, but it was yourself who made the comment, and 
the comment was essentially a legal determination about whether 
these cases were prosecutable.
    Mr. Radek. I was trying to avoid agents going down a path 
that would lead them to--that would take a lot of investigation 
and lead them to a nonoffense. I was trying to limit it to 
offenses.
    Senator Lieberman. Had you considered in that answer, at 
that time--I do not know what the date of this was--but what 
later became certainly the subject of our hearings, which was 
whether it was legal to either, to both solicit and receive 
campaign contributions on Federal property? Obviously, there 
was this underlying--then a secondary question about whether 
the White House or what areas of the White House qualify as 
Federal property.
    Mr. Radek. Had I considered that? I was aware of that 
statute and its ramifications. I did not consider that to be 
within the scope of the question or my comments. My comments 
had nothing to do with situs, and I do not believe the question 
did.
    Senator Lieberman. So it was more the question of whether a 
bribery case could be made and what you understood to be the 
fact situation of granting access in return for contributions.
    Mr. Radek. Yes.
    Senator Lieberman. OK. Just two more questions. One is to 
answer this question, which goes not only to you, Ms. 
Ingersoll, but to your successor, which is why, according to 
the folks from the FBI, the involvement of the Justice 
Department and the task force, specifically, in their 
investigation was unprecedented in its intrusiveness, in its 
what I would have to call control of what they were doing. Is 
that so, and if so, why?
    Ms. Ingersoll. In my experience, it certainly is 
unprecedented, and I can tell you, Senator, that it caused me 
every bit as much frustration as it did, quite clearly, not 
only to these agents, but to other agents and to attorneys 
working on the matter.
    Senator Lieberman. So why did it happen?
    Ms. Ingersoll. I cannot speak for the reasoning of the 
people to whom I reported or who were supervising and 
overseeing the FBI side of the investigation. But we were all 
aware from the beginning that this was not only an extremely 
high-profile matter, at a time where the allegations were 
extremely volatile, the targets were fast moving, but it was 
also an extremely complex series of matters that we were 
looking at, that were interrelated.
    In order to allow us to make progress, in a practical 
sense, it was my view that we should be constantly evaluating 
what we were doing to identify specific matters, specific 
transactions, or specific persons and their activities who 
might have committed crimes and to pursue those as individual--
perhaps not discrete--but individual criminal investigations. 
That certainly was an effective and probably the only possible 
investigative organizational approach we could have taken.
    Nonetheless, it was regarded, both within and without the 
Department, as one global matter, and----
    Senator Lieberman. As one what?
    Ms. Ingersoll. As one global matter.
    Senator Lieberman. Global.
    Ms. Ingersoll. And that was the fact, from my standpoint, 
as to why people above me wanted to have involvement that they 
did----
    Senator Lieberman. More involvement. So I am hearing you 
say that you had a special intention here, motive, incentive, 
to have this come out right. Although one impression of the 
testimony of the FBI agents would be that the involvement of 
the Justice task force, in fact, inhibited their investigation 
or delayed it at various points.
    Ms. Ingersoll. Senator, this was, if you will, a Main 
Justice investigation. I am a career prosecutor. I am as much 
of a prosecutor as an assistant U.S. attorney. So was every 
attorney assigned to the task force. In that respect, it was a 
criminal investigation, as any other criminal investigation is, 
from our standpoint.
    Senator Lieberman. But, again, you agree that the 
involvement of Main Justice was unusual?
    Ms. Ingersoll. Absolutely.
    Senator Lieberman. There was a lot of discussion along the 
way, including publicly, that the Public Integrity Section felt 
some special pressure here to prove that it could prosecute 
these cases and not have an independent counsel appointed.
    What is your response to that, Mr. Radek?
    Mr. Radek. Did that----
    Senator Lieberman. The suggestion was that it was pride, 
whatever it was.
    Mr. Radek. It is a difficult question, and I am sorry to 
hesitate. But, of course, there is a pride. I mean, the fact is 
that the Public Integrity Section felt a lot of pressure in 
this case, and it had little or nothing to do with the 
Independent Counsel statute.
    We had a very high-profile case involving, as Laura 
described, widespread activity that was ill-defined, in terms 
of its criminality. We had what I believe strongly were 
inadequate tools to address it. We had the press trying to beat 
us to evidence. We had both houses of the Legislative Branch 
investigating the same matters. We had Attorney General 
regularly wanting to know how the investigation was 
progressing. We had supervision of the Acting Assistant 
Attorney General on a daily basis, something that usually does 
not happen.
    So, yes, the investigation was conducted under a spotlight 
and under intense pressure. I do not think that had anything to 
do with the Independent Counsel statute.
    Senator Lieberman. Of wanting to keep it away from the 
independent counsel.
    That leads to a final question, which is, as you have heard 
said here and elsewhere, and this really goes to what the 
record of the Public Integrity Section was, and here is the 
critique. You have heard it. After all of this, and after all 
of the wrongdoing that occurred, nobody is going to jail. I 
mean, everybody is getting a slap on the wrist, so the 
allegation goes. So what happened? How do you respond to those 
criticisms?
    Mr. Radek. I have a lot of responses to Mr. Smith's 
criticisms. With respect to your general criticism or the 
general criticism that you just enunciated, the sentencing 
provisions and the laws dealing with campaign finance may or 
may not be, in the Legislative Branch's wisdom, a set of laws 
that has appropriate penalties. They clearly are an inhibiting 
factor. The penalties are clearly an inhibiting factor in any 
investigation or prosecution that we conduct under this.
    Mr. Smith got it absolutely right when he said we 
prosecute, we ordinarily do not prosecute conduits; that is, 
conduits who cooperate. And the reason is that the laws that 
are there to address them barely make a threat. You cannot 
coerce somebody into a cooperation with misdemeanor. And I use 
``coerce'' in its best sense; that is, cooperation that is 
truthful and honest.
    And so the policy evolves that the best way to investigate 
these cases is to try and gain those people's cooperation early 
on and not prosecute them. There is no policy that we will not 
prosecute them. And anybody who is under that impression is 
mistaken. The inadequacy of that hammer, the inability to bring 
serious penalties in prosecutions, is an impediment, and it is 
difficult to address.
    I will say, with respect to the conduct of the 
investigation, and I sense we are getting near the end, so this 
is not directly responsive, but I think it would be wrong, and 
I think that the legislature has expressed this opinion in its 
recent enactments of the McDade bill and the Hyde amendment, I 
think it would be wrong for my prosecutors to sign off on an 
arrest of somebody, where they did not think there was probable 
cause and that the elements could not be proved. I think it 
would be wrong to arrest somebody with the intention of letting 
them go, and I think it would be doubly wrong to just let a 
magistrate decide that.
    I feel the same way about a search warrant. My attorneys 
take an oath to uphold the Constitution. If they do not think 
there is probable cause to conduct a search, I am not going to 
have them violate their oath because they want to appease 
agents or because it is easy to let a magistrate decide. So 
their professional opinion does mean a lot to me.
    Senator Lieberman. Well, I agree with you on the arrest 
warrant, but not in this case on the search warrant.
    Mr. Radek. I understand.
    Senator Lieberman. Let me just ask you, following up on 
what you just said, and real quick, and you can do it in the 
next few days in writing, if you care to. I talked early on in 
my opening statement today, which seems like a long time ago, 
and it is, about possible changes in campaign finance criminal 
laws. What are the couple of top priorities you would have, 
having gone through this experience, that you think would have 
helped you have it come out better?
    Mr. Radek. Clearly, the statute of limitations is a 
problem. There is absolutely no logical reason to have a 3-year 
statute of limitation on those offenses, and I have no idea why 
that was--what in the legislative history does that.
    Felony penalties for knowing and willful violations should 
be available. Now, that's difficult----
    Senator Lieberman. Of the campaign finance laws.
    Mr. Radek. Of the campaign finance laws. That gets 
difficult because, if you are going to have conduits applying 
to--I mean, if you are going to have the felonies going down to 
the lowest conduits, it seems to me that that's too serious a 
penalty for some of this conduct, especially when they are 
knowing--so I would envision a statutory scheme similar to the 
conflict of interest laws, where you have a gradation of 
penalty based upon the degree of criminal intent, saving 
felonies for the knowing and willful violations. And we would 
use that against, not the kingpins, but the Maria Mapili and 
above--I mean, the Keshi Zhan and above, the people who were 
involved in scattering the money to the conduits.
    Senator Lieberman. Thank you. Thank you both. Thanks, Mr. 
Chairman.
    Chairman Thompson. I am sure someone watching this is 
thinking of 100 different questions that could be asked. But we 
have got to draw a line here somewhere, and I am prepared to do 
that now. I just have a couple of more things.
    Ms. Ingersoll, did you ever talk to Mr. Taylor or 
communicate with him?
    Ms. Ingersoll. I did not. A task force attorney, Mr. Biran, 
had a conversation with Mr. Taylor on Monday, July 7, in 
which--and the Committee has the notes of Mr. Biran's 
conversation with Mr. Taylor, in which Mr. Taylor indicated 
that he had the documents, they were in the process of being 
copied and would be provided by I believe he said 4 p.m. the 
next day. In fact, they were provided sometime that week.
    Chairman Thompson. Does the memorandum reflect or do you 
know who placed the call to whom?
    Ms. Ingersoll. I would have to look at it, Mr. Chairman.
    Chairman Thompson. Do you have it handy there?
    Ms. Ingersoll. No, but we are looking for it.
    Chairman Thompson. While we are on that, just kind of to 
summarize, the missing documents we have covered. That is going 
to tell you a lot, isn't it?
    Ms. Ingersoll. It is too heavily redacted, Mr. Chairman, in 
its earlier version.
    Chairman Thompson. I would like to get a response to that, 
if not today, maybe later from Mr. Biran; who contacted whom on 
that occasion.
    Ms. Ingersoll. We will inquire.
    Chairman Thompson. All right. And get back to me?
    Ms. Ingersoll. Yes, sir.
    Chairman Thompson. All right. On the search warrant issue, 
I think that the lines were pretty clear as to the positions 
that were taken there. I do think that your memorandum there 
indicating agreement by some of your FBI colleagues has turned 
out not to be correct.
    Ms. Ingersoll. Mr. Chairman, may I please address that?
    Chairman Thompson. All right.
    Ms. Ingersoll. Because I realize that is troubling the 
Committee.
    It was, I believe that at the time, throughout my time with 
the task force, I was treading a very fine line with respect to 
our relations with the Bureau. I was directed by my management 
to accommodate the Bureau in every possible respect. At the 
same time, it meant a great deal to me that we try to bust 
through these misunderstandings when they cropped up and some 
of the institutional problems and build a truly effective team. 
Teamwork was important to me.
    It was my practice, whenever I had the opportunity, to sit 
down and talk face-to-face, not only with the attorneys, but 
with the agents, and to try to talk through issues. I talked 
through these issues with Ms. Laughlin and Mr. Sheridan. I can 
tell you that it was my belief, at the time we finished that 
conversation, that I had effectively communicated our views, 
our position on the search warrant. Obviously, they did not 
indicate to me otherwise, and alas, I did not.
    Chairman Thompson. Well, in view of the circumstances, not 
taking it to a magistrate, I still cannot understand.
    With regard to the PLET documents, in listening to your 
hypothetical explanation of the potential problems of enforcing 
a Senate subpoena, I am beginning to understand some of these 
independent counsel decisions a little better and how they were 
derived. There are clearly problems with regard to prosecuting 
a case based on obstruction with regard to any subpoena, Senate 
or otherwise. One of the ways clearly to not have such a 
problem is never inform the people who are being obstructed.
    With regard to campaign finance laws, I think some of your 
comments are well taken, Mr. Radek. But the problem I think 
that an awful lot of people have--especially those of us who 
have done this for a living, from both sides of the table--is 
that, in an ordinary investigation involving public figures 
especially, FBI agents and prosecutors are allowed and 
encouraged to work their way up and use pressure on some people 
to get information on others. You have got some confusion here 
as to whether or not you had a policy of prosecuting or not 
prosecuting conduits. The fact that there is confusion on that 
basis is troubling enough. But you may have. If you are going 
to look at a little campaign violation of signing somebody 
else's name to a check or allowing yourself to be a conduit, of 
course, that is not much to hang over a person's head.
    But what we saw here, time, and time, and time again, were 
strong indications--and now since the last year or two, strong 
proof, in some cases--of various patterns of people doing this 
on a wholesale basis, bundling these checks up on a wholesale 
basis. Many instances of conspiracy to do so--and conspiracies 
are not misdemeanors--of conspiracy to violate the law, 
conspiracy to obstruct justice, and violations of Section 1001, 
which is not a misdemeanor.
    And then when you catch those people red-handed, as 
apparently we did, time and time again--in our hearings the 
evidence was clear--you do what you can with regard to those 
people in order to see if higher ups were involved. You do that 
if it is a mayor or a senator or anybody else. You have a 
special obligation to do that when a public figure is involved, 
an oblication not to be especially timid.
    And what we know, because of the interpretation of the 
Independent Counsel law and because of the testimony we have 
had--and I have long known this myself, I think it should be 
clear to everybody--you never had any chance of working your 
way up with a reserved, timid approach to everything that came 
up and with a policy of having to get high-level approval for 
everything that happened. And this Committee, as the FBI agent 
says, was ahead of you, which is not saying much. We did not 
feel like we were much ahead of anybody. But we turned out to 
be ahead of the FBI and the Campaign Task Force on many of 
these items.
    But you do not look at these things individually, like one 
check or something like that. Clearly, that is no leverage. But 
if you put it together, in some cases, such as the Tries, the 
Huangs, the Chungs, Maria Hsia, Ted Sieong, and all of those 
people on whom we had all of this testimony in their elaborate 
schemes, in and out of the White House, how can you tell the 
American people that, well, campaign violation is a 
misdemeanor, and we have no leverage over these people, and we 
really cannot grill them with regard to higher-ups because of 
the Independent Counsel statute? And how can you tell them that 
we can only wind up at the end of the day with some probation 
recommendations before we go on our way?
    Now, I am not questioning the personal integrity of you or 
anybody else, but that looks horrendous. The rule of law in 
this country has been harmed because of all of that, because of 
the appearance of all of that. And we will find out, maybe 
because of real wrongdoing. I do not eliminate the possibility 
of obstruction of justice within the Justice Department until 
we find out what has happened with regard to those missing 
documents. I cannot believe somebody would do something so 
stupid and improper as that. But we keep saying that, and we 
cannot eliminate anything.
    So that is all I have to say about it. And I appreciate 
your being here today. I know that all of the problems are not 
to be laid at your feet. I am sure that you, for the most part, 
have done what you felt like you ought to be doing. But we have 
our responsibilities, too. And somewhere along the line, we 
have got to figure out how the Department of Justice and the 
U.S. Congress can begin to complement each other and work 
together a little bit toward a common end.
    Every time we ring the gavel down here, it is assumed to be 
a partisan witch hunt. I guess we did a lot of things to 
encourage that. Every time you start an internal investigation, 
a lot of people in this country assume there is going to be a 
cover-up, and that is because of a lot of things that has 
happened in the past. We have got to get past that. We have got 
to do much, much better than that.
    The record will remain open for 1 week for submission of 
questions from the Members and pending responses.
    Unless you have anything to add, I am going to declare us 
adjourned.
    [Whereupon, at 5:10 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 60285.001

[GRAPHIC] [TIFF OMITTED] 60285.002

[GRAPHIC] [TIFF OMITTED] 60285.003

[GRAPHIC] [TIFF OMITTED] 60285.004

[GRAPHIC] [TIFF OMITTED] 60285.005

[GRAPHIC] [TIFF OMITTED] 60285.006

[GRAPHIC] [TIFF OMITTED] 60285.007

[GRAPHIC] [TIFF OMITTED] 60285.008

[GRAPHIC] [TIFF OMITTED] 60285.009

[GRAPHIC] [TIFF OMITTED] 60285.010

[GRAPHIC] [TIFF OMITTED] 60285.011

[GRAPHIC] [TIFF OMITTED] 60285.012

[GRAPHIC] [TIFF OMITTED] 60285.013

[GRAPHIC] [TIFF OMITTED] 60285.014

[GRAPHIC] [TIFF OMITTED] 60285.015

[GRAPHIC] [TIFF OMITTED] 60285.016

[GRAPHIC] [TIFF OMITTED] 60285.017

[GRAPHIC] [TIFF OMITTED] 60285.018

[GRAPHIC] [TIFF OMITTED] 60285.019

[GRAPHIC] [TIFF OMITTED] 60285.020

[GRAPHIC] [TIFF OMITTED] 60285.021

[GRAPHIC] [TIFF OMITTED] 60285.022

[GRAPHIC] [TIFF OMITTED] 60285.023

[GRAPHIC] [TIFF OMITTED] 60285.024

[GRAPHIC] [TIFF OMITTED] 60285.025

[GRAPHIC] [TIFF OMITTED] 60285.026

[GRAPHIC] [TIFF OMITTED] 60285.027

[GRAPHIC] [TIFF OMITTED] 60285.028

[GRAPHIC] [TIFF OMITTED] 60285.029

[GRAPHIC] [TIFF OMITTED] 60285.030

      

                                   - 

</pre></body></html>
